<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2018

                              ----------                              

                                          Wednesday, March 1, 2017.

                              MEMBERS' DAY

    Mr. Cole [presiding]. Good morning. It is my pleasure to 
welcome you all to the Subcommittee on Labor, Health and Human 
Services, and Education for our first hearing of the year.
    We are looking forward to taking testimony from members of 
Congress this morning. This sort of member day has not been 
held on this subcommittee in at least a decade. And the idea to 
return to this practice is one that was suggested by our new 
full committee chairman, Rodney Frelinghuysen, and, frankly, I 
think it is a good idea. And if I did not think so, I would 
still say I thought it was a good idea. [Laughter.]
    But I actually do think it is a great idea, and he does 
deserve credit for it. It is an opportunity for any member of 
Congress to come before the panel and draw our attention to 
particular issues of importance in both their districts as well 
as across the Nation. I look forward to hearing from my 
colleagues about the challenges they see and how this 
subcommittee can help address them.
    As a reminder to everyone, we really will abide by the 5-
minute rule so that we are able to keep closely to the schedule 
we outlined for members. Before we begin, though, I would like 
to turn to my ranking member for any remarks that she would 
care to make.
    Ms. DeLauro. Thank you very much, Mr. Chairman, and I 
concur. I think this is a wonderful opportunity to hear from 
our colleagues on the issues they care about in this, what I 
view as an extraordinary subcommittee of appropriations. And I 
am happy to see Mr. Thompson here. This is the second time we 
have gathered this morning. We were just earlier at the 
Submarine Industrial Base Council meeting.
    I am heartened that so many of our colleagues are going to 
testify here this morning, and looking forward to hearing from 
them about how the programs that are part of the portfolio that 
we have jurisdiction over affects your constituents.
    I have to add, though, that we have heard that the 
Administration wants to cut non-defense by about 
$54,000,000,000, and I think we would agree that this could 
have a very profound negative impact on the Labor, HHS, 
Education programs. Our bill comprises nearly one-third of the 
non-defense discretionary spending, so if you take a look at 
what that proposed reduction would do, it would cut nearly 
about $18,000,000,000 from this subcommittee.
    There is a very good reason that the Labor-H Committee has 
been called the people's bill because it does provide an 
opportunity for people to help meet their needs. When we do 
lifesaving biomedical research, we equip our Nation to deal 
with public health emergencies. We level the playing field for 
low-income children looking to learn. We help Americans get the 
skills that they need to find a job in a tough economy.
    So, these efforts all impact the lives of our constituents 
and Americans all over this Nation. And, therefore, these kinds 
of cuts would impact each and every American, especially 
children, families, and seniors.
    So, looking forward to listening to all of our colleagues 
here today and what their priorities are to ensure that we keep 
our promise to the American people. Thanks very much.
    Mr. Cole. Thank you for your remarks. And with that, Mr. 
Thompson, it is good to have you here, my friend. And you are 
recognized for 5 minutes for whatever remarks you would care to 
make.
                              ----------                              

                                          Wednesday, March 1, 2017.

                                WITNESS

HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Thompson. Well, thank you. Chairman Cole and Ranking 
Member DeLauro, it is a privilege and an honor to be able to be 
before you this morning. Thanks for this opportunity. I want to 
thank you for your dedication to the House Appropriations 
Subcommittee on Labor, Health, and Human Services, Education, 
Related Agencies.
    In our current fiscal environment, I recognize the 
challenges placed before the subcommittee, and I appreciate 
your ongoing leadership and efforts to provide quality 
education and health-related services to millions of Americans. 
It makes a difference to the folks that I serve.
    As co-chair of the House Career and Technical Caucus, and a 
senior member of the House Committee on Education and 
Workforce, I would like to use my time today to highlight the 
importance of dedicating strong resources to programs 
authorized by the Carl D. Perkins Vocational and Technical 
Education Act, or the Perkins Act, in Fiscal Year 2018. Career 
and technical education provides students of all ages with the 
academic and technical skills necessary to become career and 
college ready.
    According to the most recent data from the Office of 
Vocational and Adult Education, approximately 12 million 
students participated in CTE programs during the 2013-2014 
school year. While quality CTE programs are available to a 
number of students, we have to work to make them even more 
accessible, and doing so will ensure that future and current 
members of our Nation's workforce have the opportunity to excel 
in high wage, high-skill, and high-demand career fields, the 
very fields that keep our Nation competitive in the global 
economy.
    Employers across the United States, especially those in 
skilled trades, are faced with difficulty as they search for 
qualified workers. According to a recent poll conducted by the 
Society for Human Resource Management, more than half of all 
employers reported that they are unable to recruit workers for 
open positions. And human resource professionals predict a lack 
of workforce readiness will impact employers for years to come.
    Today, more than one million positions remain in trade, 
transportation, and the utility sector, and 315,000 
manufacturing jobs go unoccupied. By training a competitive 
workforce to fulfill the 21st century demands, CTE programs can 
help employers fill those jobs and close the skills gap.
    Last Congress, the House reached a bipartisan consensus on 
the importance of CTE when we voted to pass H.R. 5587, the 
Strengthening Career and Technical Educational for the 21st 
Century Act, by a vote of 405 to 5. As the individual who 
introduced and sponsored this legislation, you know, this bill 
would have reauthorized the Perkins Act, and I was encouraged 
by its passage, and certainly look forward to advocating for 
similar legislation in the 115th Congress.
    In addition to taking steps to improve CTE-related policy, 
we must also support CTE through the appropriations process. 
Now, despite its importance, the Perkins Act funding has 
declined by 13 percent, or $170,000,000 over 10 years. Today, 
more than 20 States receiving a Perkins basic State allocation 
is at or below the level that they obtained in 1998.
    Chairman and Ranking Member, this concerning trend does not 
reflect the needs of the students, the workers, and employers, 
the backbone of the American economy. We must do better by 
them. With this in mind, I urge the subcommittee to robustly 
fund Perkins Act programs for Fiscal Year 2018, and I want to 
thank you for your commitment to this issue and all the issues 
under your jurisdiction. It really is a privilege and honor to 
be before you this morning.
    Mr. Cole. Well, it is good to have you, and you actually 
have a little time because whoever is next, we started early, 
or started on time, and the first person could not be here. So, 
the next witness is not up, so I will yield to my friend if she 
has any questions or comments she cares to----
    Ms. DeLauro. Well, I would just say that I could not agree 
with you more just in terms of the statistics. 2015, we have 
States reporting that 7,300,000 high school students 
participated, took at least a course in CTE. The National 
Center for Education Sciences, 85 percent of the Nation's 
3,900,000 high school kids have completed one or more 
occupational CTE courses. 19 percent concentrators earned at 
least 3 credits in that field. That is to say nothing about 
post-secondary.
    For 2017, the House number is exactly what is funded. It is 
$1,100,000 as is the Senate. So, we will wait to see what 
happens in the movement on this bill in that direction. For 
now, we do not know what 2018 looks like, but I would just say 
continue advocating anyway. It is a wonderful program, and it 
provides real opportunity for our youngsters.
    Mr. Thompson. And it is a great program with a return on 
investment.
    Ms. DeLauro. Yes.
    Mr. Thompson. And I know we largely think of our kids, 
secondary education. But the fact is that Perkins serves people 
of all ages. It is people who just want a greater opportunity 
for them and their families. They want to be able to make more 
money, and, therefore, they will contribute more in taxes for 
the tax base. And so, this is for any American at any point in 
their life that Perkins allows him a pathway to greater 
opportunity, with a return on investment for employers and for 
the Nation.
    And I do appreciate the time.
    Mr. Cole. Oh, it is all right. You still have got a minute 
or two. [Laughter.]
    But let me chime in here, too, because it is actually a 
very important program in my State. Oklahoma and Ohio have the 
two most robust career tech systems in the country, so it has 
been a staple for us, a big part of our education system. So, 
it is money well spent.
    I think the fact that it has not had the increases is 
largely a reflection, as my friend knows, of the strains we 
have on the budget. And her opening comments about, look, we 
will obviously live within the allocation we are given by the 
Budget Committee. That is where the final decision rests, or 
the top line, and then the allocation that our chairman gives 
us. And I am very supportive of whatever that is.
    But if we were to have cuts of the size that have been 
reported, then, yeah, there will be consequences to that. There 
is no part of this budget that can escape unscathed if we have 
$18 to $20,000,000,000.
    Mr. Thompson. Yeah.
    Mr. Cole. It will just change everything, and I told that 
to various members and probably will say it a couple more times 
as people come in and out. And, again, we can always disagree 
about different things, but actually there is a remarkable 
consensus on this subcommittee about these kinds of programs. 
They have been very bipartisan. We are all for putting young 
people to work. We are all for giving people whatever age the 
skills they need to be successful in the workplace. Not very 
many programs have done it as well as Carl Perkins.
    Mr. Thompson. I think, I mean, this serves the young lady 
who got up this morning who did not want to get out of bed to 
go to school because she does not learn in a conventional way. 
She learns by maybe with wrenches, or a welder, or a 
stethoscope. But it also serves the folks who have been stuck 
in poverty, maybe intergenerational poverty for decades to be 
able to work their way away from that government dependency.
    And so, certainly under the, and I do not pretend to 
understand how we score thing around this town, but this is one 
where just a little bit of an investment, and to be able to 
have somebody wake up and to no longer be, you know, be 
dependent upon the TANAF Program, or the SNAP Program, or, you 
know, you go down the line of what could be tens of thousands 
of dollars of support. And to be able to just have that 
American Dream of opportunity, to wake up one day and to no 
longer be government dependent?
    This is, well, if we could look at it from a dynamic 
scoring financially, this strengthens our position as a Nation.
    Ms. DeLauro. Let me suggest that you take a look at 
something, a study that the Markle Foundation recently did 
along with Pew. It is Jobs in a Digital Economy, but it is 
about, you know, people. And you made the very good point that 
folks at NEH can access the program. But that there is 70 
percent of folks today in this country without a college 
degree. That does not mean that they do not have skills or they 
do not need to be able to have courses, which would allow them 
to succeed.
    It is a very, very interesting study and I think we ought 
to act on because you combine what we are doing with Perkins, 
with what you do with community colleges, with apprenticeship 
programs, with others in which to get people gainfully 
employed.
    Thank you, Mr. Chairman.
    Mr. Cole. You are most welcome. Got another issue you would 
like to bring up, G.T.?
    Mr. Thompson. Not at this time. [Laughter.]
    I had better go show up for Chairman Fowlkes' Educational 
Workforce hearing.
    Mr. Cole. Well, thanks for coming by, and we appreciate the 
testimony very much. And, again, it is something the committee 
looks on with a great deal of interest and genuine bipartisan 
support. So, thanks for highlighting it.
    Mr. Thompson. I appreciate it. Thank you.
    Mr. Cole. With that, Mr. Polis, if we could have you next. 
We are actually moving along pretty fast here. Hey, Jared, 
thank you. Appreciate you being here.
    [The statement of the Hon. Glenn Thompson follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.001
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.002
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Polis. Thank you very much.
    Mr. Cole. You bet. The gentleman is recognized for 5 
minutes to deliver whatever remarks he cares to the committee.
    Mr. Polis. Thank you, Chairman Cole, Ranking Member 
DeLauro. Thank you both, and particularly since this bill has 
not come to the floor as much as some others, it is great to 
have this opportunity to provide some feedback.
    What could be more important than public education? I think 
we all value that. Our constituents value it. I am honored to 
serve as the ranking Democrat on the Subcommittee on Early 
Childhood, Elementary, and Secondary Education, so I am very 
involved with education here. In prior service, I was chairman 
of our State board of education. I have been very active in 
this area, providing opportunity and hope for kids.
    It is impossible to highlight every education program I 
support in 5 minutes, so I will focus on a few that I think are 
important from a funding perspective.
    The first one I want to mention is the Federal Charter 
School Program. In the 2015-2016 school year, public charter 
schools educated more than 2,900,000 students in 6,800 schools. 
43 States and the District of Columbia have enacted charter 
school laws. Over half the students served by public charter 
schools are free and reduced lunch students. Over half are 
minorities, 17 percent limited English proficient.
    Public charter schools continue to grow and deliver 
outstanding educational outcomes for students nationwide, and 
particularly the Federal support piece is so important because 
it focuses on quality. Separate studies by the Center of 
Reinventing Public Education and Mathematics, a policy 
researcher found that charter school students are more likely 
to graduate from high school, go on to college, stay in 
college, and have higher earnings in early adulthood.
    Charter school program funds are critical to continue this 
success. Nearly every public charter school that is successful 
got off the ground because of this Federal Charter School 
Program.
    I strongly encourage the committee to continue that 
investment in the next Fiscal Year by investing a minimum of 
$350,000,000, which would fund Federal charter school expansion 
programs. And, again, this ties into quality, but is, of 
course, like any public school, not all charter schools are 
good. It is certainly not a silver bullet. But with a lot of 
the equality indicators authorized for practices, this is very 
important.
    The next item I want to hit upon in the Education 
Innovation and Research, or EIR, Grant Program, which is the 
successor to the Investing in Education, which we used to call 
the I3 Grant Program. Very, very important program. It was 
modeled after the successful Small Business Innovation 
Research, or SBIR, Program, which has been around for several 
decades. And it has been funded in over $2,000,000,000 across 
11 Federal agencies.
    EIR would apply the successful SBIR approach in the field 
of social spending and would really shift to evidence-based 
outcomes for experimental, innovative policies. On June 7th, 
2016, the House Republican Task Force on Poverty, Opportunity, 
and Upward Mobility introduced a Better Way blueprint, released 
by Speaker Ryan, which included support for EIR type programs, 
which is a tiered evidence program.
    Early research has shown evidence that the I3 program, the 
successor to EIR, is working. A report by Patrick Lester at the 
Social Innovation Center released in January found that many 
programs demonstrated positive impacts in reading and literacy. 
Evidence-based programs truly should have the highest intention 
and investment with our limited Federal resources.
    And I would be remiss if I did not reiterate my strong 
support for the core programs within our public education 
system that are Federal; that is, Title I and ESE, ESEA. Title 
I funding, absolutely critical in addressing some of the 
disparities in funding and in poverty in our country. ESEA, I 
would remind the committee that the Federal government has 
never lived up to its commitment to fully fund special 
education, and we are appreciative of any progress that can be 
made in that regard.
    In addition to education, I want to mention my strong 
support for other programs under the jurisdiction of this 
subcommittee, notably, programs that provide adequate 
healthcare for individuals living with HIV and AIDS, mostly 
notably the Ryan White HIV/AIDS Programs and the AIDS Drug 
Assistance Program, both housed in HHS. These programs help 
ensure that people with HIV and AIDS receive the services they 
need, so it is an important contribution to the overall piece, 
which is very important for this committee so it does not make 
solving problems elsewhere even more complicated and costly.
    Finally, on the labor side, I wanted to highlight the 
importance of employee-owned companies in providing major 
economic benefits to communities and addressing some of the 
income and equity disparities in our country. A lot of data 
around employee-owned companies, higher rates of employee 
retention, better able to weather turbulent markets.
    Many great employee-owned companies, including some in my 
district, like New Belgium Brewery, many in other areas of the 
country as well, like Cliff Dansko, King Arthur, Flower. These 
are very important companies where the workers can share in the 
value that is created for the shareholders.
    And the Department of Labor shares regulatory oversight of 
ESOPs with the IRS, but could do more to help businesses try to 
convert to employee ownership structures. Labor could and 
should be doing more to support employee-owned businesses, and 
I am asking this committee to include report language that 
would require the Department of Labor to work with the IRS and 
the SBA to develop guidance and tools available to those 
interested in employee ownership structures.
    And, again, since we will not have the opportunity to do 
that on the floor, maybe we will, but if we do I would 
encourage you to include that in the committee mark. I do not 
think it is terribly controversial, but it would be a very good 
thing for the Department of Labor to take on.
    I look forward to working with each of you on these 
programs. Happy to answer any questions.
    Mr. Cole. Well, we will not have much time for questions, 
so we are moving along. But I do want to make a couple of 
comments and reassure you on a couple of things. And very much 
agree with very many parts of your testimony.
    On charter schools, actually we made last year a very 
substantial increase, and, again, very bipartisan. Particularly 
congratulate my friend, Senator Blunt, who was a big pusher on 
that on the other side of the Rotunda. And obviously, you know, 
while we may have different views about the Secretary of 
Education, we do have somebody that cares a lot about charter 
schools there.
    So, it would be interesting to see what the Administration 
wants to do, but there is bipartisan commitment.
    Also, you know, this committee frankly for 2 years in a row 
had proposed more for IDEA than the Administration has 
requested, and we proposed $500,000,000 in the 2016 budget, and 
the Administration proposed $170,000,000. That an increase in a 
$11 to $12,000,000,000 program. We settled at $410,000,000, so 
I thought that was a pretty reasonable compromise. And they 
were flat last year, but we, again, included an increase.
    If we can get our 2017 bill to the floor ever, you know, in 
one form or another, I think we would like to do more, but you 
will see that the House on a bipartisan basis actually led in 
doing IDEA. That is actually one of the most efficient programs 
we have. Every school district in America needs it. So, I 
really thank you for highlighting those and, frankly, the rest 
of your remarks as well.
    My friend has a comment. I will yield to her.
    Ms. DeLauro. Just quickly, I would associate myself with 
the Chairman's remarks, but I would also talk about Title I 
where this committee on a bipartisan basis has increased the 
funding for Title I, understanding its need. And that was, 
quite frankly, in opposition to what was proposed by the prior 
Administration.
    I am excited about your EIR Program, knowing something 
about how SBIR has been so critically important. And I know in 
my own district, the research, the innovation, everything that 
has come out of that has been very, very successful. So, we 
will try to reiterate that here as well.
    And with regard to Ryan White, our budget in the House is 
the same as it was in 2016. Well, it is less in the Senate, but 
we will see if the House can prevail if we ever get the 
document. Thanks.
    Thank you very much.
    Mr. Cole. Does my friend from California care to make any 
remarks quickly? Okay. We can. Thank you very much. Appreciate 
you being here, Representative Polis.
    And, Jim, you are next up, so we have the distinguished 
gentleman from Rhode Island. It is good to have you here, my 
friend, and you are recognized for 5 minutes for whatever 
remarks you care to make to the committee.
    [The statement of the Hon. Jared Polis follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.003
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.004
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.005
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.006
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.007
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. JAMES LANGEVIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Langevin. Thank you, Chairman Cole, and Ranking Member 
DeLauro, and distinguished members of the committee. I 
appreciate your time today, and thank you for holding the 
hearing and inviting members of Congress to testify.
    So, I appreciate the opportunity to highlight three 
initiatives that would not only positive impact my State of 
Rhode Island, but to also help to improve the lives of people 
across the Nation.
    Number one is the funding of the Lifespan Respite Care Act; 
two is investing in the Carl D. Perkins Career and Technical 
Act; and three is supporting the Adoption Opportunities 
Program.
    First, I respectfully request $5,000,000 for the Lifespan 
Respite Care Act Programs. When I first championed the 
enactment of this law back in 2006, it was a bipartisan effort 
with then Congressman Mike Ferguson from New Jersey. He and I 
partnered up, and it is an important bill that became law. And 
for me, it was with the firsthand knowledge of the tremendous 
difference that a dedicated caregiver can make in the life of a 
person with a disability or chronic condition.
    The Lifespan Respite Program is the only Federal initiative 
that exclusively concentrates on respite and does not restrict 
program eligibility based on the age or veteran status. So, 
basically respite is when someone is a family caregiver and is 
caring for a sick child, someone with a disability, or an 
elderly parent. The caregiver themselves often need some backup 
and support.
    If you have someone coming in for an hour a day or a couple 
of hours a week just so that the person can go and do the other 
things they need to do for the family, whether it is going to 
the doctors themselves, or going grocery shopping, or taking 
the kids to the ball game, or what have you. These are 
important things that make a family work, but the caregiver can 
get burned out very easily. So, this helps to coordinate a 
patchwork system that different States have so that we are most 
effectively using resources to have the most effective system 
for respite.
    So, more than 35 States and the District of Columbia have 
received grants under this program, bolstering a coordinated 
community systems that are often the only resource for 
struggling families caring for a loved one. Caregivers need and 
deserve relief from the physical and emotional responsibility 
of caring for a person with a chronic illness or disability.
    Lifespan Respite Programs often help caregivers manage 
stress, thereby mitigating the development of physical and 
mental health issues associated with the strain of their roles. 
Respite care programs also help to delay or, in some instances, 
avoid nursing home entry, which strengthens families and 
improves the wellbeing of all parties.
    Reducing the strain on institutionalized care facilities 
also alleviates pressure on our healthcare system. For example, 
caregivers provided an estimated $470,000,000,000 in 
uncompensated care--uncompensated care--if you had to put a 
dollar figure on it that family caregivers provided in 2013, 
more than the total Federal and State Medicaid spending for 
that year.
    Respite is about more than providing caregivers a chance to 
recharge. The Lifespan Respite Program reinforces the 
healthcare infrastructure that allows people with a disability 
or illness to remain at home and supports families who are 
willing to provide quality care.
    I also respectfully request strong support for the Carl D. 
Perkins Career and Technical Education Act. Career and 
technical education ensures students are career and college 
ready, and Perkins provides the largest Federal investment in 
CTE across the country.
    In the 2013-2014 school year, more than 12 million students 
participated in CTE programs. According to the Bureau of Labor 
Statistics, many of the fastest-growing jobs through 2022 will 
be CTE fields, including STEM, skilled trades, and IT. However, 
half of employers report that they unable to recruit workers 
for open positions.
    Perkins grants ensure students learn the skills needed for 
these jobs. They development strong educational pathways for 
students in careers and strengthen career counseling, provide 
professional development for educators, and purchase vital 
equipment for classrooms. This bipartisan deserves strong 
support for 2018.
    Lastly, I respectfully request $50,000,000 for programs 
under the Adoption Opportunities Act. Every day, over 427,000 
children are living in foster care across the country. 
Unfortunately, children who enter the child welfare system 
after age 14 are much more likely to age out of foster care 
than be adopted. Already at a disadvantage, these children end 
up without a network of support, especially in times of crisis.
    More than half of children who age out of foster care 
experience episodes of homelessness, and 25 percent do not 
receive a high school diploma or GED. Only 6 percent complete a 
2- or 4-year college degree.
    Adoption Opportunities grants support permanent solutions 
for foster children. They encourage the adoption of older 
children, minorities, and children with special needs, and 
provide post-adoption support. So, I urge you to support the 
Adoption Opportunities because, quite simply, every child 
deserves a family.
    So, thank you for listening to my testimony and taking my 
requests into consideration for the Fiscal Year 2018 Labor, 
Health and Human Services, and Education bill. Each program I 
highlighted provides American families with crucial tools to 
achieve success in today's society.
    From finding loving homes for foster children to providing 
crucial career, and education service, to ensuring caregivers 
who serve those in need receive care themselves, these programs 
matter. They strengthen our communities, and they uphold our 
Nation's promise of compassion, equality, and opportunity.
    Mr. Cole. I want to thank my friend for his testimony, one 
of my fellow former secretary of state. We served together at 
the same time.
    Mr. Langevin. Yes, sir.
    Mr. Cole. And always thoughtful as usual. You will be happy 
to know that your good friend, Mr. Thompson from Pennsylvania, 
was in here also pushing for Carl Perkins money earlier, so 
bipartisan on that.
    Just so the members know because we have got several that 
have arrived. We are not going to normally do questions, but at 
the end of each person, if there is a comment or question that 
you want to make, I am just going to throw that open to the 
committee. But we will try to move on schedule, but, again, I--
--
    Mr. Langevin. Mr. Chairman----
    Mr. Cole [continuing]. Everybody is free to make a comment 
or ask a question.
    Mr. Langevin. I was remiss in not acknowledging G.T. and 
his great work, G.T. Thompson from Pennsylvania. We have been 
great bipartisan partners in career and technical education 
programs, and I thank him for his leadership. Thank you.
    Mr. Cole. Well, we thank the gentleman for his testimony. I 
see my friend--oh, I am sorry.
    Ms. DeLauro. No, no, I just want him to just keep fighting.
    Mr. Cole. My friend, the gentlelady from Kansas is here, 
and she is next up on our agenda. As she is working her way, I 
am going to take personal privilege as chairman to chastise her 
for announcing that she is not going to be running again next 
time. This is one of our most thoughtful and best leaders on 
our side of the aisle and, I think, in Congress. And there is 
nobody I am going to miss more around this place than my good 
friend from the neighboring State, so.
    [The statement of the Hon. James Langevin follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.008
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.009
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.010
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.011
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.012
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. LYNN JENKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KANSAS
    Ms. Jenkins. Well, thank you, Mr. Chairman. Thank you, 
Chairman Cole, Member DeLauro, and honorable members of this 
committee.
    In December of 2016, Congress passed the 21st Century Cures 
Act, which contained the Mental Health First Aid Act, which was 
on the top priorities of mine since coming to Congress back in 
2009. And today, I simply ask that that funding level of nearly 
$15,000,000 be fully appropriated in the Fiscal Year 2018 
budget.
    Section 9010 reauthorizes grants to States and 
municipalities, Indian tribes, and nonprofit groups to train 
teachers and school personnel, emergency service personnel, and 
others to recognize the signs and symptoms of mental illness, 
to become familiar with resources in the community for people 
with mental illness, and to safely de-escalate crisis 
situations involving someone with a mental illness.
    This grant program has been included in appropriations 
bills in years past and has enjoyed broad bipartisan support 
from Congress and the public. I cannot overstate how important 
these grants are to law enforcement and first responders.
    The first step to helping someone suffering with a mental 
illness to get the help he or she needs is to be able to 
quickly spot the signs of that mental illness and know where to 
point that friend, the colleague, neighbor, or family members. 
These funds will help police officers, first responders, 
veterans advocates, and educators, and other spot the signs 
that get people the help that they need.
    We hear about the state of our mental health system every 
day and the state of the VA dealing with injured veterans. We 
hear about police and first responders called to a scene where 
someone has become dangerous and they are not sure of the best 
way to respond. Section 9010 will help those people know 
instinctively how to respond so that the situations stay in 
control, and the risk of harm is decreased.
    The kinds of education programs that this legislation will 
fund have been shown to be effective and efficient in teaching 
people the signs of mental illness and how to drop the stigma 
of that illness so that the people they live and work with can 
receive the appropriate help necessary.
    I am thankful for the opportunity to address you here today 
and ask that the stated funding level be given to SAMHSA so 
that it may in turn help those that need the training the most.
    I appreciate your time and the opportunity to address the 
committee. Thank you, Mr. Chairman.
    Mr. Cole. Great to have you here, and acknowledge the 
gentlelady's great work on Cures and on the mental health 
component of that that our mutual friend, Mr. Murphy, did such 
great work on and you reported out in such wonderful bipartisan 
fashion, I think unanimously, out of your committee. So, I 
think he will be here later to talk about that.
    Ms. Jenkins. Great. Thank you.
    Mr. Cole. Any questions or comments from anybody else on 
the committee?
    [No response.]
    Mr. Cole. Well, I see my good friend, Ms. Kelly, has 
arrived. I am sorry I did not see you over there when you first 
got in, and good to have you here on the committee. I want to 
thank you for coming before, we will just call it the Labor-H 
Committee because it is a mouthful if you try to get it all 
out.
    But we are delighted to have you here, and the gentlelady 
is recognized for 5 minutes for whatever testimony she cares to 
give.
    [The statement of the Hon. Lynn Jenkins follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.013
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.014
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. ROBIN KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Ms. Kelly. Thank you, Mr. Chair, and Ranking Member, and 
all the committee members. I would like to thank you for the 
opportunity today to speak before you and testify on behalf of 
the families of Illinois' 2nd Congressional District, and on 
behalf of millions of Americans whose livelihoods are adversely 
impacted due to health inequities that exist in our Nation.
    To those who do not know me, my name is Robin Kelly, and I 
chair the Congressional Black Caucus Health Brain Trust. I have 
never been of the belief that the zip code you are born in 
should never determine how long you live in this country or how 
healthy you are. Grandmothers have to decide between paying 
their electrical bill or paying for their diabetes medicine.
    Parents should not have to decide between food in their 
refrigerator or paying for an $80 dental procedure. But those 
are decisions that are being made every day for far too many 
Americans, and too often they have devastating and fatal 
consequences.
    Last Congress, I authored a report, the Kelly Report on 
Health Disparities in America, an official congressional 
analysis of the state of African-American health in the United 
States, that offers a blueprint for reversing negative health 
trends in communities of color. The Kelly Report outlines the 
grim state of black health in America and remedies to reverse 
the negative health statistics plaguing communities of color.
    Consider this, African-Americans have higher rates of 
mortality than any other racial or ethnic group for eight of 
the top 10 causes of death. African-American cancer rates are 
10 percent higher than white Americans. Blacks are nearly twice 
as likely to have diabetes than whites. African-Americans are 6 
times more than likely than whites to be victims of homicide, 
and black youth especially do not have consistent access to the 
culturally sensitive trauma-informed mental healthcare that 
would alleviate their burden.
    While blacks account for just 13 percent of the total U.S. 
population, they account for nearly half of all new HIV 
infections. Those are startling facts. In a broader public 
health context, there is still much to be done to address the 
fact that an estimated 1.5 million Americans suffer from Lupus. 
There is no reason we should not be able to find the root cause 
of Lupus and a cure.
    We also must invest in and address the fact that mental 
illness is the leading cause of disability in developed 
countries like the United States. And we must address the often 
overlooked problem of oral health in America. People of color 
suffer from disproportionate rates of tooth loss, untreated 
dental care, and untreated tooth decay.
    This committee has a tall task in ensuring that our 
appropriations priorities reflect the health needs of the most 
vulnerable in this Nation. It is a worthy goal, but it should 
be our mission. I ask that the committee support my request to 
invest in our most vulnerable. Fund health delivery sites in 
medically underserved areas whether they are urban, suburban, 
or rural, and my district is all three, and place support 
programs that encourage primary care providers to practice in 
communities with shortages.
    The request you will receive from me will ask that you 
prioritize health professional training programs, like the 
Minority Centers of Excellence and Health Careers Opportunities 
Program. Additionally, my office has put together a list of 
what we see as the most beneficial and impactful health 
programs for you to appropriate funds for this Labor, HHS 
cycle.
    I thank the committee for the opportunity to testify today.
    Mr. Cole. I want to begin by just thank the gentlelady for 
testifying not only behalf of her district, but on behalf of 
the Congressional Black Caucus as well. As I know the 
gentlelady recognizes, we actually have a champion on this 
committee from California, who has done probably more than----
    Ms. Kelly. My mentor.
    Mr. Cole [continuing]. Anybody in this Congress to focus on 
racial disparities, and treatments, and outcomes. My good 
friend, Ms. Lee, has been a leader in that for a long time. So, 
but we are delighted to have you there. Does anybody else care 
to make a comment or ask a question?
    Ms. DeLauro. Just I would love to have the list of what 
your office put together on what the priorities are.
    Ms. Kelly. We will get to that you.
    Ms. DeLauro. Thank you very much. Thank you.
    Mr. Cole. We thank the gentlelady, and I see my good friend 
from Pennsylvania, Mr. Fitzpatrick. You are next up. It is good 
to have you here.
    [The statement of the Hon. Robin Kelly follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.015
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.016
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.017
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. BRIAN FITZPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Fitzpatrick. Thank you, Mr. Chairman, Ranking Member 
DeLauro, and members of the subcommittee. Thanks for your time 
today.
    And I wanted to take the opportunity to address the 
subcommittee, and I know there are a lot of challenges that we 
face as a Congress. One of the most significant ones affecting 
our district and I know affecting so many of our districts is 
the grip of opioid abuse and heroin addiction, overdose deaths.
    And I just wanted to thank the committee first and foremost 
for your time, and strongly encourage full funding for this 
opioid epidemic and related cancer research programs. The 
provision in the CARA Act, the Comprehensive Addiction and 
Recovery Act, as well as NIH Innovation Projects and state 
responses to opioid abuse in the 21st Century Cures Act are in 
need of full funding, as well as the NIH.
    Mr. Chairman and Ranking Member, prescription opioid misuse 
continues to devastate Americans nationwide. According to the 
Centers for Disease Control and Prevention, drug overdoses 
involving prescription opioid and heroin overdoses have 
quadrupled since 1999, and it continues to claim lives in all 
of our districts. I know from north to south in our district, 
just last year alone we saw a 50 percent increase in heroin-
related overdose deaths, which is unbelievable.
    And at the same time, while we have seen this significant 
increase, law enforcement officials and first responders have 
tirelessly worked to save lives. Diana Rosati, who is the head 
of the Bucks County Drug and Alcohol Commission in our 
district, recently reported that police departments throughout 
our district saved 263 residents in our district through the 
use of Narcan, which is an opioid overdose emergency treatment.
    And her statement was, ``While the number of lives saved 
from accidental overdose is an amazing number, it speaks to the 
magnitude of this issue and the need for treatment to follow 
through.'' And many of our police chiefs have likened it to 
putting a band-aid on a bleeding artery. Narcan is a great 
treatment to save lives, but prevention is really the key, and 
that's why I am here to talk to you today.
    Thoughtfully designed, the CARA statute utilized a balanced 
strategy encompassing six pillars: prevention, treatment, 
recovery support, criminal justice reform, overdose reversal, 
and law enforcement. Within the jurisdiction of the 
subcommittee, authorized funding by CARA for HHS included 
grants that will significantly aid States with much-needed 
resources and tools.
    Just to name a few things that grant funding will 
accomplish, first it would reduce the number of opioid-related 
deaths by assisting States and expanding access to opioid 
overdose reversal drugs, such as Narcan, and also educating 
healthcare professionals by developing and providing training 
manuals and developing new strategies for pharmacists to 
dispense opioid overdose reversal medication.
    It will also help accomplish reducing relapses and help 
fully recover patients by expanding availability of evidence-
based medication, assisted treatment, and other clinical 
appropriated services to areas with high rates of rapid 
increases of heroin or opioid abuse. And it will also, through 
building connections between recovery community organizations 
that will strengthen outreach, reduce substance abuse disorder 
stigma, and reduce substance abuse cases in pregnant or 
postpartum women by demonstrating a pilot program that will 
better support family-based services, identify gaps along the 
continuum of care, and encouraging new approaches for service 
delivery.
    In addition, the 21st Century Cures Act also contained 
funding to combat the opioid epidemic. Specifically, the 
remaining $500,000,000 would supplement opioid abuse prevention 
and treatment activities by providing funding for States to 
improve prescription drug and monitoring programs, implement 
prevention activities, train healthcare providers, and expand 
access to treatment programs.
    And I just want to thank the committee for their time today 
and just bring to your attention this really important issue 
that is affecting all of our districts. Certainly it is 
affecting mine in a staggering way.
    Thank you, Mr. Chairman, and thank you, Ranking Member 
DeLauro.
    Mr. Cole. Thank you. I want to thank you for your 
thoughtful testimony, and particularly in the areas that you 
focused on. Probably as a former FBI agent, you saw the opioid 
crisis up close and personal, the way that a lot of us have 
not. We did, you know, appropriate the Cures portion of that 
and the continuing resolution, I think, on the opioid issue. 
And if we can ever get our bill out. It is something I will 
continue to harangue on, and I know my good friend shares my 
frustration.
    This year, we had a very substantial increase in NIH 
funding. We will have a very substantial increase again if we 
can just get the bill out in some form and across the floor. 
So, we appreciate you highlighting them because on a bipartisan 
basis, this committee shares those priorities.
    Ms. DeLauro. Mr. Chairman, just to tell you that just to 
increase what the chairman has said. In our 2017 budget 
request, there is a rural opioid overdose reversal. It is 
$10,000,000. There are several SAMHSA programs, Medicaid 
Assistance Treatment Program, $50,000,000. You have got opioid 
treatment programs. SAMHSA, while it did not do the 
buprenorphine program, grants to present prescription opioid 
drug overdose. There is that effort under SAMHSA, strategic 
prevention for prescription drugs.
    And CDC is what you spoke about in terms of helping States 
to set up this monitoring. I just would add one more point to 
you. Take a very hard look at what may be coming down the pike 
with regard to Medicaid and Medicaid expansion and overall 
Medicaid funds, because Medicaid is one of the prime ways in 
which people are getting the opportunity to have their 
treatment and it being insured and covered.
    Thank you, Mr. Chairman.
    Mr. Cole. Would anybody else care to ask a question or make 
a comment?
    [No response.]
    Mr. Cole. Well then, my good friend is excused. Thank you 
very much for your testimony.
    I see my good friend and fellow Appropriations Committee 
member, Mr. Price from North Carolina, is here. And, Mr. Price, 
it is always a pleasure to have you on either side of the dais 
under any circumstances. So, we look forward to whatever 
testimony you care to give us.
    And my good friend is recognized for 5 minutes.
    [The statement of the Hon. Brian Fitpatrick follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.018
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.019
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.020
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.021
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.022
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. DAVID PRICE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Mr. Price. That is a rather expansive welcome, so thank 
you. I appreciate the chance to be here.
    Ranking Member DeLauro, colleagues on both sides, thank you 
so much for this chance to testify on behalf of the National 
Service Program. I am a co-chair along with Doris Matsui of the 
National Service Caucus. That is a bipartisan group of nearly 
80 members, and I bring Doris' regrets for not being able to 
testify with me here today.
    National Service has a proud history in the U.S. President 
Kennedy first called for a domestic volunteer program to 
complement the Peace Corps in the early 1960s, and that 
inspired President Johnson to create the Volunteers in Service 
to America, VISTA, under the Economic Opportunity Act of 1964. 
VISTA quickly expanded and was codified by Congress in the 
early 70s with the bipartisan Domestic Volunteer Service Act, 
legislation that outlined the specific mission and goals of 
national service in relation to the needs of the country.
    Some years later, the Corporation for National and 
Community Service, or CNCS, was founded to consolidate these 
efforts, support the programs that we are familiar with today: 
AmeriCorps, Senior Corps, and what was formerly known as Serve 
America.
    Today, the Corporation for National Service is guided by 
the principles of putting the needs of local communities first, 
strengthening public/private partnerships, and assisting with 
the accessibility of grant funding to rural. And I know there 
are economically distressed communities.
    Most colleagues are familiar with the benefits and success 
of AmeriCorps, a program established to provide opportunities 
for motivated and dedicated Americans to specifically engage in 
State and local projects. Every year, over 80,000 Americans 
immerse themselves in these programs that address community 
needs or respond to disasters.
    And I say most colleagues are aware of this. I actually do 
not think the general public is necessarily aware of the reach 
of AmeriCorps, and the extent to which local organizations they 
participate and value are undergirded by AmeriCorps support. 
Habitat for Humanity would be a good example. You can scarcely 
imagine those Habitat projects being organized in the efficient 
way they are without the support of AmeriCorps.
    Senior Corps, largely developed under President Nixon, has 
connected our Nation's older generations with people and 
organizations in need across the country. Senior Corps members 
become coaches, mentors, contributing their career skills and 
expertise to the community. Here, the trademark program is 
Foster Grandparents, and most of us have heard of that, and we 
know that it enriches the lives of young people with volunteers 
age 55 and over serving local organizations committed 
particularly to the betterment of children.
    And then finally, the Social Innovation Fund catalyzes and 
mobilizes public and private funds to transform the impact that 
local nonprofits have on communities. As of March of last year, 
the Social Innovation Fund leveraged $295,000,000 of Federal 
investment to reach commitments of more than twice that value.
    So, National Service works by engaging young people, 
providing services to military families, helping communities 
succeed. Through service, and we need to understand the benefit 
this has to those who serve as well as those who are served. 
Through service, highly motivated young Americans can 
participate in career-related service opportunities, such as 
working with the Community Health Corps, increasing their 
experience, their earning potential, as they give back to the 
community.
    Additionally, a generation held back by increasing student 
debt can now seek alternatives to paying for their education. 
And we know National Service leverages substantial private 
investments from a small public investment.
    In my district, we host over 350 AmeriCorps volunteers, 162 
Senior Corps volunteers, working with local universities, 
housing authorizes, various nonprofits. The young people who 
serve and the not so young people who serve have a lasting 
impact on my district and on the State, sustaining communities, 
allowing them flourish for future generations.
    So, my colleagues, in this time of political uncertainty, 
we need to remember that National Service is not partisan. Its 
roots are not partisan, and the way it operates is not 
partisan. Republican Presidents from Nixon to George W. Bush 
supported these programs, and President Bush encouraged all 
Americans to devote 4,000 hours of their lives to service in 
the aftermath of September 11th.
    So, I believe this a goal implemented by a series of 
programs that we can agree on, give a new generation of young 
people a means to make a difference for their country.
    So, thank you for the opportunity to advocate on behalf of 
the Corporation for National Service and its good works and to 
support the funding. Thank you.
    Mr. Cole. Good to have my friend's testimony as always, and 
just to make a quick point, reinforce a quick point that he 
made on the bipartisanship of this program. The last director, 
who has since retired, Wendy Spencer, I think is known by this 
committee very well, and served under both Democratic and 
Republican administrations with great distinction in a very 
bipartisan way. So, I thank my friend for his testimony.
    Are there any other comments or questions?
    Ms. DeLauro. Just to say thank you. Thank you for your 
continued support and advocacy for a program that really helps 
our young people understand what their responsibilities are and 
the moral responsibility they have to their communities and to 
their country. We both have lived through a time when this 
money was eliminated, but we saw the light on both sides of the 
aisle to make sure that the funding is there and it continues 
to be there, and including the Social Innovation Fund because 
of what it does with third parties.
    And our hope is that we have got, I think except for the 
Senate on the Social Innovation Fund, the House side is very 
much in support of what you are doing, Mr. Price. And we will 
wait to see what 2018 is about, and we will advocate again, and 
I know you will be. Thank you so much.
    Thank you.
    Mr. Cole. Any other questions or comments?
    [No response.]
    Mr. Cole. With that, Mr. Price, thank you very much for 
your testimony.
    I see my good friend, Mr. Long, from Missouri is arriving, 
and so he is recognized and is next up. It is good to have my 
friend here, and the gentleman is recognized for 5 minutes to 
make whatever remarks he cares to to the committee.
    [The statement of the Hon. David Price follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.023
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.024
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.025
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. BILLY LONG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI
    Mr. Long. Good morning, Chairman Cole, and Ranking Member 
DeLauro, and members of the subcommittee. Thank you for 
allowing me to come before the subcommittee today to speak in 
support of AmeriCorps.
    A lot of you all have met my oldest daughter, Kaleen, who 
is a pediatrician, and I know Rosa helped her along the way. 
And she was born on May the 22nd, my oldest daughter.
    On May 22nd, 2011, we were celebrating her birthday party, 
along with another friend of ours who had a birthday on the day 
before or the day after hers. And we were over at some friends' 
home that did not have a basement in it. And it came over the 
news that there was a tornado right outside of town, 
Springfield, Missouri.
    There were debris, so we said, hey, this house does not 
have a basement, we need to run home. So, we went to our house 
with a basement. It was not a tornado right outside of 
Springfield. It was a tornado that had struck an EF-5 70 miles 
away from Springfield. But there were hospital X-rays that 
traveled 70 miles and set down right outside of Springfield, so 
that was the power and strength of this tornado.
    That was May 22nd, 2011, a devastating EF-5 tornado. And 
the tornado killed 161 people, injured over a thousand, 
destroyed 7,000 homes. This is in a town of 50,000 people with 
a population of more than 50,000, and 1,500 square miles of 
tornado. It affected a considerable part of the city.
    People did not know how to get around. The first thing the 
city did was go out and write street names and names on the 
street. People who lived in Joplin, Missouri their whole lives 
could not find their way around. There were no trees. There 
were no landmarks, nothing left. The tornado tore a path 22 
miles long, 6 miles wide, majored EF-4 to EF-5. It resulted in 
the greatest death toll from a single tornado in 6 decades, 7th 
worse in recorded history. Last night, we had another tornado 
in Missouri that killed at least one individual.
    I will never forget this catastrophic event, and I am here 
today to testify to the subcommittee on how AmeriCorps and the 
Corporation for National and Community Services resources 
helped my congressional district recover. And I have got to 
tell you that this event changed my attitude on a congressman's 
role, a senator's role, a President's role, a governor's role 
because before I had always thought, when I see a natural 
disaster and the President rolls in, or the governor rolls in, 
or the senator rolls in, or the congressman, my attitude was I 
bet the local people wish the President had not come, and the 
senator had not come, and the congressman because they are 
right in the middle of the way trying to fix things.
    But I was 180 degrees wrong on that. My role as a 
congressman was cemented in my mind that week. I spent 8 days, 
I missed a full week of votes here in Washington. I stayed 
home. I was on the ground for 8 days in a row there in Joplin, 
Missouri.
    AmeriCorps. As many of you know, the Corporation for 
National and Community Service, CNCS, is an independent Federal 
agency and one of the largest programs is AmeriCorps. CNCS acts 
much like a foundation and is the Nation's largest grant maker, 
investing in locally-driven service and volunteering efforts 
focused on several high priority areas, including disaster 
relief.
    CNCS funds more than 3,000 organizations and is constantly 
expanding their reach and impact. The result of this investment 
are more engaged citizens, greater economic opportunity, less 
dependence on government and stronger communities.
    National Service has a strong bipartisan history as you 
know. National Service is a historically bipartisan, 
politically popular, and cost-effective strategy for engaging 
citizens, strengthening communities, creating jobs, and uniting 
the Nation.
    Over the past 8 decades, Presidents from both political 
parties have proposed and created with Congress programs that 
have enabled Americans to serve local communities for a 
significant period of time. National Service helps local 
leaders solve community challenges. Through participation in 
AmeriCorps, National Service members help communities recover 
after natural disasters, just like they did in Joplin, 
Missouri.
    National Service is extremely cost effective. In 2015, CNCS 
generated $1,260,000,000 in outside resources from private 
businesses, foundations, and other sources, an amount exceeding 
the Federal appropriation. Every Federal dollar invested in 
AmeriCorps is matched by more than 2 dollars from donations and 
in-kind support from non-CNCS sources, including business and 
philanthropy.
    For every $1 the Federal government invests in National 
Service, there is a nearly $4 return on the investment. Federal 
agencies can utilize National Service Corps members to perform 
duties that align with the Agency's mission, a low cost, like 
FEMA Corps, which is estimated to save $60,000,000 annually.
    AmeriCorps members and volunteers were indispensable in the 
recovery efforts after the Nation's deadliest tornado in nearly 
60 years ripped through Joplin, Missouri in my district. Within 
hours after the tornado struck, AmeriCorps members arrived in 
Joplin to begin working with local authorities assisting in 
every way possible. They established a missing persons hotline, 
removed tons of debris, provided homeowner assistance and case 
work, operated donation and distribution warehouses, 
coordinated donations, and managed a large-scale volunteer 
operation.
    I would like to share some fast facts about AmeriCorps and 
the Joplin tornado. 359 AmeriCorps members served in Joplin. 
76,000 hours served by AmeriCorps members. 75,000 volunteers 
coordinated through the AmeriCorps Recovery Center. 520,000 
volunteer hours reported by AmeriCorps Recovery Center. 2,200 
volunteer groups registered. 2,200 completed homeowner 
requests. 6,000 damaged or need assessments completed. 20,000 
meals served in the disaster area. 732 homes mucked or gutted. 
130,000 total volunteers, including volunteers serving through 
other groups. 798,000 total volunteer hours, including 
volunteers serving through other groups.
    In addition to all of this, Joplin city officials reported 
that the city received donations, resources, and volunteer 
hours totaling $17,700,000. AmeriCorps members were 
instrumental in coordinating this influx of volunteers and 
donations, which effectively aided the recovery and saved the 
city more than $17,700,000 in disaster costs. As you can see, 
the impact AmeriCorps members and volunteers had in my 
congressional district after this devastating tornado were 
indispensable to recovery efforts in Joplin.
    Again, I appreciate the committee's continued willingness 
to listen to the views of members like myself. I know the full 
Appropriations Committee will face some tough decisions on 
spending priorities. For this reason, I respectfully ask for 
support of continued level funding to AmeriCorps and 
Corporation for National and Community Service.
    Mr. Cole. I want to thank the gentleman for his testimony, 
and just note for the record, as he knows, 2 years later, 
almost to the day, my community went through precisely the same 
experience that yours did in Joplin. And we got the same 
tremendous, splendid help from AmeriCorps that you did. They 
deployed dozens of people on the ground who were absolutely 
invaluable in the recovery.
    So, I appreciate you being here and making that statement. 
It is very important to the committee to hear things like that.
    Mr. Long. Thank you.
    Mr. Cole. Any other comments?
    Ms. DeLauro. No.
    Mr. Cole. Okay.
    Mr. Long. Thank you all.
    Mr. Cole. We appreciate it very much.
    I am going to recognize my good friend from Maryland just 
in the order of people who have arrived. Next up, good to have 
you here.
    Just so the committee knows, we got the joint host Red 
Bear, you know, the new splendid book on Eisenhower, so a 
little plug there.
    Mr. Delaney. Thank you again for that, Mr. Chairman.
    Mr. Cole. And someday you guys need to look at Mr. 
Delaney's bill and my bill on social security so we can fix 
that problem, too. It is a very bipartisan approach that I 
think would be well advised for the Administration and Congress 
to pick up and move along.
    But with that, it is good to have my friend here. He is 
recognized for 5 minutes for whatever remarks he cares to make.
    [The statement of the Hon. Billy Long follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.026
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.027
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.028
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. JOHN DELANEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Delaney. Thank you, my good friend from Oklahoma and 
the chairman of this committee, and I want to also thank the 
ranking member. And I want to applaud the whole committee for 
doing a members' day like this. I am not sure what other 
committees do such a thing, but under the category of someone 
who always seeks best practices, this is obviously a best 
practice that every committee should pursue.
    I come here today to speak about the topic of basic 
research in general and funding for the NIH in particular. I 
think everyone knows that NIH is really a singular institution. 
There is nothing quite like it in the United States, and, quite 
frankly, there is nothing quite like it in the world. And it is 
very important to my State, the State of Maryland, and it is 
very important to my district. But it really is very important 
for the country and the world for that matter.
    And our country faces very serious and significant issues 
as it relates to public health, human health, and disease. And 
while we have made significant progress across the last several 
decades, I think much of that progress would fall under the 
category of incremental progress, and we have not really been 
able to make the transformative progress we really need to do 
against some of these conditions, such as cancer, Alzheimer's, 
autism, the opioid addiction crisis, terrible crisis in this 
country, and so many rare diseases that go unnoticed, although 
the President did point one out yesterday, and I thought that 
was a high point of his remarks.
    And we are at a unique moment in time if you think about 
the opportunities to really make transformative progress 
against these conditions because several positive things are 
converging in the scientific community right now. Computing 
power, big data, technologies that have emerged from the Human 
Genome Project really position the research community to be 
probably in the best position they have been in a long period 
of time to really make some of those transformative gains that 
we need to make.
    Unfortunately, the private sector, which makes very 
important investments in research, is somewhat constrained 
right now because what has happened in corporate America, 
driven by the dynamics of a market-based system, which I am not 
drawing any judgments against, but it has clearly encouraged 
corporate America to have a much shorter time horizon as it 
relates to the investments that they make.
    So, if you think about it in the context of a time when it 
has never been better to make investments because of the 
technologies that are available, yet the private sector in many 
ways is in the worse position to make investments than they 
have ever been. It feels to me like this is an opportune time 
for the government to really increase its investment in basic 
research, which is what I am encouraging us to do here today.
    And the good news is we have an institution that has a 
remarkable track record, not only in terms of the scientific 
discovery that they make, and that is really their role. They 
really take scientific discovery and they translate it into 
human health, and public health, and disease solutions. So, we 
have an institution that has an unbelievable track record in 
doing this both in terms of improving the lives of the people 
who are affected by these conditions, but also in terms of 
producing actionable research that has really transformed our 
economy.
    In fact, if you look back over 50 years of data, the number 
one investment the United States government has made in terms 
of anything that is material in terms of our budget, the best 
investment has been the investment in basic research. It has an 
economic multiplier of almost 3 to 1, and that is only counting 
the direct investment.
    So, not only is investment in research the humane thing to 
do, the moral thing to do, the thing it will do that will 
change the lives of so many people who are affected by these 
diseases and their families and their communities, but it also 
makes good bottom line sense for the country. If we actually 
scored this differently, if we scored it dynamically, I think 
it would clearly be the conservative thing to do because to the 
extent you can make investments that save money down the line, 
those are generally viewed as prudent, fiscally conservative, 
and smart things to do.
    So, again, I want to thank the chairman for giving me this 
opportunity, the ranking member. I want to thank the whole 
committee for giving members the chance to talk about things 
they care about. Again, NIH is very important.
    I think we are at a unique moment in time when you think 
about externalities that have contributed to a dynamic where 
research can probably have the highest return on scientific 
discovery and investment in our lifetimes. And I think we will 
miss this golden opportunity to really make not the incremental 
progress, not the small steps that so many fabulous 
researchers, and investigators, and physicians, and scientists 
have made across the last 10 years based on what has been 
available to them, but to really make transformative progress, 
move the ball far down the field. And it could really transform 
our society and economy in many ways.
    So, that is what I wanted to chat with you here today 
about, and I appreciate again, Mr. Chairman, you giving me this 
opportunity. And, again, I applaud the committee for creating 
these chances for members.
    Mr. Cole. Well, first of all, we appreciate the testimony. 
And in full, you know, full disclosure, we want to give 
Chairman Frelinghuysen credit here because he is the one that 
mandated that we do this in every subcommittee, and I think it 
is an excellent suggestion on his part, and we benefit from it.
    You are preaching to the choir on NIH here, but it is a 
sermon we like to hear over and over and over again. This 
committee for 3 years in a row on a bipartisan basis has made 
regular visits out to the NIH. Last year we had the largest 
increase in funding for NIH in a dozen years. That sounds like 
a big deal, but we have been flat funded basically. So, we are 
just catching up. We also had the largest increase in 
Alzheimer's funding ever, and very much agree with you. I mean, 
we are spending $170,000,000,000-odd a year taking care of 
Alzheimer's patients. And if we could either cure or just slow 
down----
    Mr. Delaney. Yes.
    Mr. Cole [continuing]. That disease, we could save billions 
of dollars, and obviously, much more importantly, improve 
millions of lives. So, it is something this committee takes 
seriously.
    If we can get the 2017 bill out, the good news is that we 
will have another substantial increase for NIH. And I want to 
compliment, frankly, my good friend, Roy Blunt, in the Senate 
and Patty Murray, his ranking member, because they have worked 
hand-in-hand with us on that, and been a leader. So, it has 
been an area of bipartisan cooperation.
    And, believe me, my friend's points are well made, and 
agreed with on a bipartisan basis in this committee.
    Mr. Delaney. Thank you, Mr. Chairman.
    Ms. DeLauro. Thank you very much, Mr. Chairman. And to my 
colleague, this committee has had a history on a bipartisan 
way, several years under the chairmanship of John Porter we 
doubled the amount of money for the NIH. As the chairman 
pointed out, subsequently we have seen, you know, that those 
numbers decreased, but there was a substantial $2,000,000,000 
increase in 2015.
    But so that you do know, and, you know, your comments are 
appropriate that we are still $7,500,000,000 below where we 
were in 2010. And that means those discoveries, those young 
researchers that you are speaking about may not have an 
opportunity, and we are very mindful of that on this committee. 
And advocacy from people like yourself and others will help us 
to close that gap. But as importantly, to get a larger 
allocation for the subcommittee that is one-third of the non-
defense discretionary budget in this country.
    Thank you.
    Mr. Delaney. Great. Thank you again.
    Mr. Cole. Thank you. I see my good friend from New Jersey 
is here, so Mr. MacArthur, you are recognized. It is great to 
have you here to appear before this committee. And look forward 
to your testimony.
    The gentleman is recognized for 5 minutes for whatever 
remarks he cares to make.
                              ----------                              --
--------

                                          Wednesday, March 1, 2017.

                                WITNESS

HON. THOMAS MACARTHUR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. MacArthur. Thank you, Mr. Chairman. Well, thank you 
again, Mr. Chairman. I am here today as the co-chairman of the 
bipartisan Heroin Task Force, and I appreciate the opportunity 
to testify today.
    I am here basically to strongly urge the subcommittee to 
remember and to take to heart the dire urgency of our heroin 
and opioid epidemic. It is claiming 33,000 American lives a 
year. We have taken important steps in authorizing funding in 
the Comprehensive Addiction and Recovery Act, CARA, and in 21st 
Century Cures.
    I have seen, as I am sure some of you have, this epidemic 
up close and personal. In my county, Ocean County, New Jersey, 
and New Jersey has a death rate from overdose 3 times the 
national average, and my home county is the epicenter in my 
State. We are losing somebody from an overdose every 43 hours 
in my county. My constituents are losing friends, loved ones, 
colleagues. I have lost people that I know as well, and perhaps 
you have as well.
    The damage that this crisis causing is no respecter of 
geography, demographic differences, age, race, ethnicity. It 
does not discriminate.
    As the co-chairman of the bipartisan Heroin Task Force, I 
am very grateful for the work that has already been done to 
address the heroin and opioid epidemic. With the passage of 
CARA and 21st Century Cures, we took great steps forward to 
help our communities. Both of these landmark pieces of 
legislation authorized funding to combat the epidemic, and I am 
grateful that we recognize the extreme importance of these 
appropriations by including both funding for CARA and 21st 
Century Cures as budget anomalies in both continuing 
resolutions last year.
    Let me talk about CARA just for a moment. It authorized 
funding for numerous grant programs, including helping States 
purchase opioid reversal drugs, like Narcan; helping States 
train pharmacists in how to dispense opioid reversal drugs; 
helping States improve their substance monitoring programs; 
helping States train their first responders in how to 
administer opioid overdose reversal drugs; helping States, 
local governments, nonprofits, Indian tribes, any group and 
area that has a high rate of heroin or opioid abuse expand 
their evidence-based treatment and intervention activities, 
including medication assisted treatment, or MAT, services.
    CARA helped recovery community organizations to develop and 
expand their services. It helped States treat pregnant and 
postpartum women who suffer substance abuse disorders. It 
helped education efforts, drug monitoring programs. I could go 
on. CARA funded and supported a lot of State and local programs 
that help with prevention, treatment, and recovery. And I am 
grateful again for the work that we have done.
    I would add as an aside that last year in our continuing 
resolution, we included $37,000,000 for CARA grant programs. 
$20,000,000 went to the Department of Justice, and $17,000,000 
went to HHS, specifically the Substance Abuse and Mental Health 
Services Administration, or SAMHSA. That $17,000,000 has yet to 
get out to the communities, and I would encourage us to urge 
HHS to get past the bureaucratic delays and get these funds. 
They have already been appropriated. Let us get them out to the 
communities where they can do some good.
    And then, 21st Century Cures also authorized a billion 
dollars over 2017 and 2018 to support State responses to the 
opioid abuse crisis. Congress appropriated $500,000,000 of that 
in our CR budget anomaly last year. It is critically important 
that we appropriate the remaining $500,000,000 of those funds.
    144,000,000 Americans die every day to a drug overdose. Of 
those, 91 are dying from heroin or opioid-related overdose. 
Drug abuse is killing our communities, and heroin and opioid 
abuse is driving the problem.
    On behalf of myself, my bipartisan Heroin Task Force, co-
chair, Representative Annie Kuster from New Hampshire, which 
has also been hit hard by this, on behalf of the over 80 
members of the Heroin Task Force, and on behalf of all of the 
communities we represent, I beg you to consider fully funding 
the Comprehensive Addiction and Recovery Act and the 21st 
Century Cures Act as it relates to opioid and heroin addiction 
in 2018.
    And with that, I thank you for the opportunity to be here 
and to make my case. It is really a disturbing problem, 
Chairman, and we all need to do everything we can.
    Mr. Cole. Well, I thank the gentleman for his testimony. 
And, again, this is an area that this subcommittee does have 
tremendous interest in, tremendous bipartisan support for. We 
were happy to do what we did last year. We would prefer a 
regular order bill where we could do more.
    And as my good friend from Connecticut has pointed out, 
appropriately and correctly, a lot of what we can do will 
depend on what kind of allocation we get. It really is that 
simple. We cover a wide range here, and, you know, if we have a 
very substantial cut in our top line funding in some of the 
things that I know that my friend would want to do and this 
committee would want to do, it simply will not be possible. So, 
we are waiting to see how that all plays out.
    But your advocacy makes a big difference, and we are 
delighted you came to make the case that, again, the committee 
very much on a bipartisan basis agrees with.
    Ms. DeLauro. Thank you very much, Mr. Chairman, and thank 
you for your testimony. Earlier today, Congressman Fitzpatrick 
testified on this issue. And I would just let you know that as 
the chair has said, there are several initiatives in the 2017 
Labor, HHS budget that deal with mental health services through 
SAMHSA and the CDC, and taking a look at assisting and trying 
to deal with monitoring programs with regard to opioids.
    I would be remiss if I did not mention this as I did to 
him. You need to take a hard look at what may be coming down 
the pike with regard to Medicaid and Medicaid expansion. There 
has been a lot of discussion about that. Sometimes people do 
not realize all that that includes, including the opportunity 
for people who are in these circumstances with regard to 
addiction to be able to get treatment. That is the way they are 
getting their healthcare.
    And if that is curtailed or cut back, that we may see 
larger numbers of people who are untreated. Certainly that is 
not the direction you want to go or this committee wants to go 
in. And so, I would just mention that to you as well.
    Thank you very much.
    Mr. MacArthur. I share your concern on Medicaid.
    Ms. DeLauro. Thank you.
    Mr. Cole. The chair recognizes for her first words in an 
official session here, a new member of our committee, the 
gentlelady from Massachusetts.
    Ms. Clark. Thank you, Mr. Chairman. And I just want to 
again thank you for your advocacy and your work in picking up 
the leadership role on the caucus that none of us want to 
belong to, but we are forced to because this is really is an 
equal opportunity killer. And we will work with you in any way 
we can to help open up treatment and help our neighbors and 
community members who are dying in our States.
    And I also associate myself with the comments of the 
ranking member because Medicaid really is a lifeline for many 
of the families who are struggling.
    So, thank you again for coming today. Thank you, Mr. 
Chairman.
    Mr. Cole. With that, the gentleman is excused. Thank you 
again for your testimony.
    The gentlelady from Texas. It is wonderful to have our good 
friend here, so we look forward to Ms. Jackson Lee's testimony. 
The gentlelady is recognized for 5 minutes for whatever 
comments she cares to make to the committee.
    [The statement of the Hon. Thomas MacArthur follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.029
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.030
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.031
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.032
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Jackson Lee. Mr. Chairman, thank you. To the ranking 
member, thank you. To all of the members, thank you very much. 
The evidence of your selection on this committee already 
indicates your understanding and your passion on these issues.
    I am a fan of Hubert Humphrey, so just allow me to just 
offer his words: ``The moral test of government is how it 
treats those who are in the dawn of life, the children, those 
who are in the twilight of life, the aged, and those in the 
shadows of life, the sick, the needy, and the handicapped.'' 
And you have both the joy and pain, having a committee that 
deals with all of these issues.
    I want to highlight this morning educational opportunity, 
health research, and security, economic opportunity, and 
workforce safety, and other programs that I think that are very 
important.
    Over the past 48 hours, the President has met with 
historically black colleges. I would imagine that they speak 
for a number of colleges that serve underserved individuals. 
And so, the whole idea of having access to year-round Pell 
Grants, it really meets people where they are in life. And so, 
I would hope that, as you said, Chairman Cole, it is all in the 
allotment, the appropriation that you get as a committee, but 
if you would consider that. And as I understand it, the 
President indicated his interest in year-round Pell Grants.
    $370,000,000 for strengthening historically black and 
universities and PBIs, which, again, deals with opportunity, 
preparing the workforce for the 21st century. There are a 
hundred historically black colleges in America, and we believe 
each of them has found its niche of serving people who are 
really first time generation students, along with, coming from 
Texas, Hispanic-serving institutions as well.
    And I know your both affection and advocacy for Native 
Americans. We need to be able to include them in the 
educational stairs. Certainly in Texas, they have a strong 
presence there as well.
    I support the robust funding for the Child Care Development 
Block Grant, and I thank you, Congresswoman DeLauro, for your 
advocacy on those issues. The Federal TRIO Program, which is 
low-income and serves about 760,000.
    I would like to emphasize $500,000,000 for individuals for 
disabilities. I am a strong advocate of community colleges and 
those with disabilities are able to access those colleges. 
$25,000,000 for minority centers of excellence, provide health 
professional schools, magnet school assistance. It is the only 
Federal education grant program designed to reduce racial and 
socioeconomic segregation. There have been some questions about 
magnet programs, but I have seen them bring people of disparate 
economic backgrounds together.
    $25,000,000 for construction for historically black 
colleges, a huge commitment. My daughter is on the Harris 
County School Board, and there was a rumor that they were going 
to get rid of Head Start. And they had more people in their 
board meeting than they have ever seen in their life of service 
fighting to not eliminate Head Start. And so, I vigorously 
support it. It is 50 years old plus, but there is such evidence 
that it works. $10,000,000,000 for Head Start.
    $5,100,000,000 for community health centers. I want to 
focus a little bit on that. I cannot tell you how effective 
federally qualified health community centers are. I do not 
think I have enough in my congressional district or the State 
of Texas, and I remember President Bush and I, G.W., had a 
debate about how many were in Texas. And I think he found out 
that I won, that at that time of his leadership that we had not 
grown them. They are growing now, and they really do serve in 
the capacity that we want them to do.
    The National Institutes of Health, there is no doubt about 
medical research. Last evening, the President spoke about rare 
disease. $34,500,000,000 I think with the Cures Act and a 
number of other advocacies that we need to get in front of the 
healthcare system. I just heard a report this morning of more 
people born in the 1990s have the rectal cancer, and we are 
seeing new diseases every day. So, I would appreciate your 
consideration.
    $302,000,000 for the National Institute of Minority Health 
and Health Disparities. One of the first amendments I offered 
as a new member of Congress was around the health disparities 
and that agency or that area in HHS. $35,000,000 to fully 
support the CDC's Childhood Lead Poisoning, which still exists. 
$10,000,000 for the Violence Against Women.
    I am a strong supporter for school-based health clinics. 
They have sort of, some that go up, some go down. Some schools 
are doing it, some are not, but 2 million students nationwide 
are being helped. And there are many students in schools where 
school nurses can detect conditions at home, and also school-
based clinics can help the family have access to healthcare.
    $50,000,000 for the Homeless Veterans Reintegration 
Program. That is one of the major areas on behalf of veterans 
is particularly homelessness. Once they get housing, how do 
they get reintegrated, their health conditions, and all that is 
important.
    $327,000,000 for family planning, of course, in compliance 
with the law, 4,200 health centers nationwide. Provides 
important screening for cancer, HIV, family planning services.
    On the economic opportunity and workforce, I am a big 
supporter, and I hope that you will consider it. It has been 
around for 50 years, but that is the Job Corps Program. I think 
more of our youth need to be in the Job Corps Program as 
opposed to the gang corps program. And Job Corps, of course, is 
people go away, 126 campuses in 50 States. I do not know 
whether we have an ability to expand them, but I would just say 
that they generate more than it might seem in terms of cost.
    If you can get people out of their element and give them 
skills, this $1,700,000,000. It is an amazing reformation to 
get a city kid and put him in a rural area, and focus on 
changing their life, their skills, and what their commitment.
    Certainly, the support of the Nursing Workforce. I support 
$600,000,000 for OSHA. We are known for a safe workplace.
    Finally, let me offer the support for services for 
survivors of torture, $400,000,000 for our trafficking victims, 
and $2,000,000 for refugee and entrant assistance.
    So, I close with two points, and that is on the refugee 
resettlement. We have been dealing with refugees in my 
community for decades. Let me be very frank. In the course of 
all of the discourse and hysteria, my State is not 
participating, but my agencies are, and they are settling 
Syrian refugees. They are settling over the years Vietnamese 
refugees. They are settling refugees from Somalia. They are 
settling refugees from China to a certain extent, people who 
are fleeing persecution, but the point is that they are very 
important.
    And I hear the gavel, so the last point is, Mr. Chairman, 
is this is not the authorization committee, but I am absolutely 
opposed to the repeal of the Affordable Care Act, and I think 
there will be a greater burden on the Appropriations, HHS 
Subcommittee if the Affordable Care Act is repealed and we are 
without the safety net for the American people.
    And I thank you for your indulgence. I yield back.
    Mr. Cole. No, I thank the gentlelady as usual. Her 
testimony is thoughtful and comprehensive, and we are very 
grateful to have it.
    Ms. DeLauro. Just many, many thanks. The programs you 
mentioned have a profound effect on people's lives, and that is 
what this committee does, so we are mindful. Thank you very 
much.
    Mr. Cole. Appreciate it.
    Ms. Jackson Lee. Thank you.
    Mr. Cole. The gentlelady from New Hampshire is now 
recognized. It is good to have you here, Ms. Kuster. You are 
recognized for 5 minutes to address whatever concerns or make 
whatever remarks you care to make to the subcommittee.
    [The statement of the Hon. Sheila Jackson Lee follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.033
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.034
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.035
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.036
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.037
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. ANN KUSTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    HAMPSHIRE
    Ms. Kuster. Thank you so much, Mr. Chair. I appreciate it. 
And to our ranking member and all my colleagues, thank you so 
much. Now, it is an honor to be before all of you, and my 
remarks will be succinct.
    I am here to request full funding of all addiction programs 
across all agencies within Department of Health and Human 
Services. And I also ask the committee to ensure full funding 
for both the Comprehensive Addiction and Recovery Act and the 
21st Cures Act.
    I am the founder and co-chair, and I think you just heard 
from my co-chair, Mr. MacArthur, of the very successful 
bipartisan Heroin Task Force. We represent more than 85 members 
of Congress, both sides of the aisle, and we are very proud of 
the work that we did last year passing 18 bills in the House. 
And the funding in CARA, thank you for all your work on that, 
and 21st Century Cures. But these programs are incredibly 
important to address really what has become a nationwide crisis 
around substance use disorder, and particularly opiate abuse 
and misuse.
    In 2015, the Centers for Disease Control and Prevention 
found that over 50,000 people died due to drug overdoses, and 
the primary driver is opiates and heroin use. This crisis is 
not showing any signs of slowing down. In fact, the National 
Institute on Drug Abuse reports that opiate misuse is on the 
rise, and at a rate that overshadows all over controlled 
substances.
    The epidemic transcends all demographics at this point and 
all regions of the country, not just in urban areas by any 
means, but rural communities, red States, blue States. I 
frequently say to my colleagues, the heroin does not choose the 
R's and D's, and neither can we.
    My largely rural home State of New Hampshire has become a 
new focal point for the crisis. In 2015, the Granite State 
suffered the second most overdoses per capita in the Nation for 
opioid overdoses. And I include in that a new drug synthetic 
opioid known as Fentanyl that has given a new cause for 
concern.
    Our Task Force has a hearing just two weeks ago on 
synthetic drugs, and Fentanyl is known for extreme potency, 10 
times or more stronger than heroin, and we are suffering the 
largest loss of life per capita.
    We have become truly a trafficking corridor, and it has led 
to many tragic deaths, including my constituent, Carl 
Messinger, who was a young man, just finished college. He 
actually had been to treatment and was in recovery, but sadly 
he got a chest cold and took a medication that contained the 
opiate codeine. And unbeknownst to him or his family, that 
triggered drug seeking behavior, and he ended up within 24 
hours reaching out, calling a dealer. His mother, who is with 
us in D.C.--she was my guest last night--found him on the 
bathroom floor from a death due to overdose of 100 percent 
Fentanyl.
    So, we have a bill that is unrelated to your committee, but 
called Carl's Law about labeling. But I do bring that up just 
because the funding in the Comprehensive Addiction and Recovery 
Act and the 21st Century Cures Act is so important. Education, 
prevention, expanding, treatment, long-term recovery, and, of 
course, the law enforcement.
    In CARA, Congress authorized dozens of new grant programs 
designed specifically to address this crisis. And in total, 
CARA authorized $181,000,000 in annual funding. In the Cures 
Act, Congress authorized an unprecedented $1,000,000,000 over 2 
years, dedicated specifically to combating this public health 
crisis. And the money would be given straight to the States and 
provided flexibility to design programs best suited for the 
response in their community.
    And I am pleased to note last week the Granite State 
submitted its request for over $3,000,000 in funding allocated 
to New Hampshire for 2017, but 2018 will need to be 
appropriated by this committee. Of course, CARA and Cures 
represent only a part of the coordinated response. 
Organizations like SAMHSA, the CDC, the FDA, and certainly NIH 
are critical for addressing the crisis.
    And while opiates are the most clear and present danger 
surround substance abuse today, it is certainly not the only 
danger, and, more importantly, it does not occur in a vacuum. 
And I want to point out that the testimony to our task force 
from the CDC is that 4 out of every 5 heroin users has a co-
occurring mental health disorder. And so, I also urge you to 
fully fund mental health treatment as well.
    And I thank you, and I have ended up on time. [Laughter.]
    Ms. Kuster. Thank you so much. I appreciate it.
    Mr. Cole. Exactly. Thank you for your very good work in 
this area on a bipartisan basis and your advocacy. Again, in a 
contentious Congress, this has made us united, Republicans and 
Democrats, as you appropriately pointed out in your testimony. 
And this committee will continue to work on a bipartisan to try 
and address those concerns which all of us share, and all of us 
have in our respective districts. It is just a tragedy 
unfolding before us, and it would be a tragedy if the committee 
did not have the means to do what needs to be done in this 
area.
    Ms. Kuster. Thank you very much.
    Ms. DeLauro. Many, many, many thanks for your advocacy, and 
they are not just words. You are what they call operational. 
You make things happen, which is outstanding. And I to say to 
you, and I know Congresswoman Clark is on the Task Force and 
others, you need to help us with calling for what is a bigger 
allocation for this subcommittee----
    Ms. Kuster. Yes.
    Ms. DeLauro [continuing]. So that we can address some of 
the incredibly serious needs that you have outlined, including 
mental health services and other kinds of services that we are 
addressing.
    Ms. Kuster. And this notion of long-term recovery. And I 
was pleased last night that the President mentioned treatment. 
He and all the other candidates got quite an education in our 
first in the Nation primary. I do not think they expected to 
come to New Hampshire and talk about heroin, but they learned a 
lot.
    And I just had a meeting this week with the interim 
director of the Office of Drug Policy. I am hoping we will get 
the director soon. So, we will continue to work with you.
    Thank you very much for your kind words. Thank you.
    Mr. Cole. We appreciate it very much. Next, my good friend 
from New York, Mr. Faso, is recognized. It is great to have you 
here. And the gentleman is recognized for 5 minutes for 
whatever comments he cares to make.
    [The statement of the Hon. Ann Kuster follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.038
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.039
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.040
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.041
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. JOHN FASO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK
    Mr. Faso. Thank you, Mr. Chairman, and Ranking Member 
DeLauro, and members of the committee. It is a pleasure to be 
here.
    I have prepared remarks, which I will just ask to be 
submitted for the record.
    And I would just like to, recognizing the committee's time 
constraints, so I would just like to summarize my remarks.
    And this relates to the Low Income Home Energy Assistance 
Program funded through the Department of HHS. As you know, this 
program was created in 1991. It is really important in the 
northeast, in areas of our State in New York, and I know many 
other areas of the northeast. Rural do not have access to lower 
cost natural gas. Home heating oil, and propane, or wood are 
often the primary sources of heating one's home.
    A recent of LIHEAP, the Low Income Home Energy Assistance 
Program, participants showed that these households are the most 
at risk in the Nation. According to HHS, more than 70 percent 
of LIHEAP recipient households contained at least one 
vulnerable person. This includes seniors over 60, children 
under 5, or individuals with disabilities. Many of these 
recipients have a history of just simply not being able to pay 
their home energy needs in the northeast for the winter. Nearly 
50 percent skipped or paid less their entire bill, and almost 
40 percent received a notice to disconnect or to discontinue 
their electricity or their home heating fuel.
    Two years ago, we had a ferocious winter. It was very cold 
in the northeast. And it has been a bitter winter, although our 
ski areas perhaps are not as happy as that in the last winter 
certainly. This winter they had a little bitter of a reprieve 
on that.
    But home heating oil is an extraordinarily expensive form 
of energy. It was nearly $4 a gallon 2 years ago. I know 
because I pay it myself at our home in Kinderhook. And it is 
vitally important the committee take cognizance of this 
important program for our low-income residents, and seniors, 
and disabled people throughout the Nation, but particularly in 
the northeast.
    So, I would appreciate the committee's consideration and 
serious thought about the funding level for LIHEAP, and make 
sure that we have a level that is adequate and sufficient to 
meet the needs for folks in the winter.
    And with that, I will conclude my testimony and give you an 
extra 2 minutes and 30 seconds, Mr. Chairman.
    Mr. Cole. Well, of course, we will take advantage of your 
generosity. And just I want to first begin by thanking the 
gentleman for his testimony. It is an important issue. And, 
frankly, the prior Administration actually reduced LIHEAP 
funding in its budget request by about $3 to $400,000,000. We 
restored that in our bill on this committee and added 
$100,000,000 beyond it because, again, on a bipartisan basis we 
do think it is a serious problem. And so, the gentleman's 
advocacy is certainly noted and appreciated.
    And at the end of the day, number one, help us get the 2017 
bill out. If we do, you will like what is in it, and then from 
this perspective certainly. And then beyond that, you know, 
what we can do next year ultimately depends on what our 
allocation is going to be.
    Ms. DeLauro. Thank you so much, and thank you for telling 
the tale of the northeast. We both have experienced the case 
where we are looking at particularly older Americans, seniors, 
where they do not heat their food to the temperature that is 
healthy. They are putting towels in front of doors in order to 
keep the cold out. And LIHEAP is so critically important, and 
it really is a lifeline for so many.
    So, I appreciate your advocacy. If we can get the 2017 bill 
out, we want you to get to your friends on the Senate side and 
tell them to accede to the House number, which is a higher 
number. [Laughter.]
    So, you have got your job cut out for you there, and help 
us get a higher allocation for 2018, my friend.
    Mr. Faso. Well, Ms. DeLauro, I have only been here 2 
months, but I will do my best. [Laughter.]
    Ms. DeLauro. All right. Hear, hear. Thank you.
    Mr. Cole. And just for the record, I spent 2 years in the 
gentlelady's district going to college actually, so it is cold 
in the north----
    Ms. DeLauro. It is cold.
    Mr. Cole. It is cold. We thank the gentleman.
    Mr. Faso. Thank you so much.
    Mr. Cole. Thank you.
    Ms. DeLauro. Wisconsin, too.
    Mr. Cole. With that, I see my good friend from Pennsylvania 
has arrived, and we want to recognize him for whatever 
testimony he cares to give. And on his way, I want to thank him 
for his extraordinary advocacy for the mentally ill and what he 
was able to accomplish in the Cures bill, and making sure that 
his legislation was merged into that, and this country begin to 
address a problem that, frankly, at the Federal level we have 
long ignored.
    So, my friend is recognized for 5 minutes for whatever 
testimony he cares to give.
    [The statement of the Hon. John Faso follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.042
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.043
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.044
    

                                          Wednesday, March 1, 2017.

                                WITNESS

HON. TIM MURPHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Murphy. Well, you have laid out the problem that is 
before us, and we still have far to go.
    We should all remember that innocence was shattered on that 
cold day in Connecticut just over 4 years ago in Sandy Hook 
Elementary School in Connecticut. But out of that darkness, the 
darkest of tragedies, has arisen a glimmer of hope as we did 
pass that landmark mental health reform signed into law on 
December 13th, 2016 as part of the 21st Cures Act.
    As I wrote in the Pittsburgh Post Gazette back in 2012 
following the Newtown tragedy, I said, ``The common factor in 
too many mass tragedies is an underlying mental illness. The 
lessons for Americans from a horrifying tragedy is that we had 
better take off our blinders and deal with such illnesses, or 
we are sure to face the same problem again. It is not only 
what's in a person's hands that make their acts violent, it is 
what is in their mind.''
    Against that backdrop, in 2013 the Committee on Energy and 
Commerce, spearheaded by the Subcommittee on Oversight and 
Investigation, which I chair, began a national conversation, 
jump starting the process which resulted in the enactment of 
the first comprehensive reforms in 50 years. Our multi-year 
bipartisan, bicameral effort revealed a broken system, and 
informed our legislative response to overhaul the antiquated 
patchwork of ineffective programs.
    Mental illness is no longer a subject whispered in hushed 
tones in the shadowy silence, but while more remains, 
tremendous strides have been made to help families and 
individuals in mental health crisis.
    At the end of November 2016, while bill language was still 
being finalized, I made the observation that these problems are 
too large and the work so dear that we will not solve the mess 
of our mental health system with one bill. But the final bill 
came a long way. We did not get everything we wanted, but we 
wanted everything we got. And it was my pledge to the patients 
and families in mental health crisis now that I will not stop 
fighting to deliver treatment before tragedy.
    And that is why I am here this morning to ask your help to 
translate the historic promises we made to families in mental 
crisis and to commitments and actions that will improve and 
save lives. The top changes are the improvements it makes to 
leadership and accountability at the Federal level for mental 
health and substance abuse programs being with the new office 
of the assistant secretary of mental health and substance abuse 
disorders. It is a position that I hope and trust will be 
filled by a doctor, psychiatrist, or a psychologist.
    Now, helping families in mental crisis, the act authorizes 
a number of existing programs. They will be at SAMHSA or in 
HHS. These include support for the Assisted Outpatient 
Treatment Grant Programs, which is a court-ordered treatment 
for individuals with serious mental illness who meet very 
strict legal criteria.
    Often they are too ill to recognize they need medical care, 
but assuring timely and effective treatment, we have found that 
while protecting their right, we also find it reduces re-
arrests, and re-hospitalizations, and homelessness, and other 
negative outcomes by over 70 percent. Studies have shown how 
court-ordered treatment in the community reduces taxpayer costs 
and cuts them in half. With that in mind, the legislation 
increases and extends an existing authorization for a grant 
program at AOT at SAMHSA for some $20,000,000. It is essential 
we do this.
    In addressing pressing concerns there is a shortage of 
qualified mental health professionals. Half the counties in 
this country have no psychiatrists, no psychologists, no 
clinical social worker. And where there is no help, there is no 
hope. This bill also strengthens the mental and behavioral 
network workforce through education and training grants, 
clarification on eligibility for loan repayment programs, and 
codification of the Secretary's Minority Fellowship Program.
    And it acts decisively to strengthen programs supporting 
mental health and substance abuse disorders, care for women, 
children and adolescents; an area that is a priority for all of 
us, including the White House.
    Now, these are a few of the programs I mentioned. I will 
hand things over to you, Mr. Chairman, for this. But I do want 
to say that I understand budgets are tight, but with over 
350,000 people dying in this country last year related to 
mental health problems, that is more people than have died in 
the combined U.S. combat roles in World War I, Vietnam, Korea, 
Bosnia, Desert Storm, Iraq, and Afghanistan. This investment of 
money will save lives.
    And with that, I will take any questions.
    Mr. Cole. Well, I want to again thank my good friend for 
his distinguished advocacy here. You have pushed Congress in 
the right direction in this area probably more than anybody 
that has served here in half a century. So, believe me, we take 
what you have to say very seriously.
    And if the means are available, we are going to do what we 
can to address the problem. And we will hopefully begin to do 
in a sustained, ongoing fashion because it is a problem that 
obviously you do not solve in a year. And we are going to have, 
you know, problems in perpetuity, but my friend has made a 
really good start in focusing congressional interest on this, 
and, frankly, educating the rest of us about this with your own 
distinguished background in psychology.
    So, I thank my friend.
    Mr. Murphy. I wish my parents would have been here to hear 
you say that. Thank you. [Laughter.]
    Ms. DeLauro. I very much thank my colleague, who many years 
ago when I had a stress fracture of my hip, at the time of 
right after 9/11, we were told to evacuate the Capitol, who, 
Mr. Chairman, along with another member, literally picked me up 
and got me out of the building and on to where we needed to be. 
That having happened 3 times, I figure the next time I was just 
going to stay and take my chances. [Laughter.]
    But thank you. Thank you for your great work and your 
commitment to this effort. Over and over again the issue 
becomes there are not enough services, not enough treatment 
centers, not enough places for people to get the kind of 
treatment that they need. And it is particular true for 
children, in my view. And this is a public health crisis, and 
we need to treat it that way.
    I would ask your help with regard to advocacy for the 
Mental Health Block Grant. And in this case, Mr. Chairman, the 
Senate is higher than the House is in this regard, but we know 
that this block grant, which is a mainstay for States and the 
services that they can provide, is historically below levels 
which it has been. And we need to look at that in a way that 
prioritizes the resources for the biggest problems that we have 
in this Nation. And this is clearly one of the biggest problems 
in this Nation.
    So, I thank you for your great work and your advocacy.
    Mr. Murphy. Thank you. And I will continue in my capacity 
and to my commitment to do that. I know I have met with some 
governors and told them that outpatient care for the mentally 
ill is 20 times cheaper than jail. And so, but I should also 
tell you the Energy and Commerce Committee, what we found out 
is States are not keeping that data. They simply do not know 
what they do not know.
    As they do that, I think they will do a better job of this, 
and I believe as part of the legislation we need----
    Ms. DeLauro. Do we require that?
    Mr. Murphy. No. They have got to start collecting data on 
individuals to look at their lifetime of the illness costs 
because when they go into emergency rooms at $2 or $3,000 a day 
versus outpatient care, which is a few thousand a year, a 
couple thousand a year, versus jail, which could be $40,000 a 
year. That does not even include all the other criminal justice 
activities that goes with it, and really turning mental illness 
into a criminal justice problem.
    It is not a crime to be mentally ill. We make it a crime, 
and that is a despicable thing we do in this country. These are 
small grants. Like I said, you can reduce arrests and 
incarcerations by 70 percent. And this is not to do all of it, 
but it is to get States to start that, then I believe they will 
discover themselves.
    Ms. DeLauro. Well, maybe we can talk about how, you know, 
not talking about unfunded mandates on States, et cetera, 
because we cannot go down that road. That is always a problem. 
But to think about how we might be able to look at collecting 
the data then which allows us to make determinations----
    Mr. Murphy. Absolutely.
    Ms. DeLauro [continuing]. That are beneficial. I would love 
to talk with you about it.
    Mr. Murphy. I would be happy to work with you on that.
    Ms. DeLauro. Thank you.
    Mr. Murphy. Thank you.
    Mr. Cole. We thank the gentleman for his testimony.
    Mr. Murphy. Thank you. I will leave these other materials 
here.
    Mr. Cole. Thank you very much. And we have our last witness 
of the day, Mr. Panetta. Welcome to the committee. You must get 
tired of hearing this, but we all admire your father so much 
that, you know, we are always going to mention his 
distinguished service in this institution before he went on to 
serve the country so well as White House chief of staff, and 
director of the CIA, and obviously Secretary of Defense. Just 
an extraordinary career, and a heavy burden for you, I am sure. 
But, you know, what a wonderful mentor and role model you have, 
so we are delighted to have you here.
    Mr. Panetta. Thank you, Chairman Cole. I appreciate that.
    Mr. Cole. And then recognized for 5 minutes for whatever 
testimony he cares to give.
    [The statement of the Hon. Tim Murphy follows:] 
    [GRAPHIC] [TIFF OMITTED] T7126P7.045
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.046
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.047
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.048
    
                                          Wednesday, March 1, 2017.

                                WITNESS

HON. JIMMY PANETTA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Panetta. Thank you very much, Chairman Cole and Ranking 
Member DeLauro. I appreciate those opening comments. It is 
something I have grown up with. I am used to it. And I admit 
there are some pretty big shoes to fill, but I just look at it 
that it makes me a better person and it makes me work harder. 
So, thank you.
    As you know, I am new to Congress, although I grew up with 
my father in this position for 16 years. It is still new to me, 
and it quite an honor that I get the chance to sit here in 
front of you and provide this testimony. So, thank you for this 
opportunity.
    I hail from, I grew up on the Central Coast of California, 
the 20th Congressional District in California, a place where 
you may know John Steinbeck hailed from. He wrote a lot about 
that area, and he also wrote in his writings a lot about the 
quest for the American Dream.
    Today I submit to you that that dream and our values are 
best served when we fund our educational programs. That is why 
I am here to urge you to provide strong funding for Title I, 
Head Start, CAMP and HEP, and the TRIO Programs. In districts 
like mine that have large gaps in educational attainment, these 
programs are crucial to supporting student development so that 
every child may write their own version of that American Dream.
    The Head Start Program serves children who would not 
otherwise benefit from early education, with hands-on learning 
and wraparound services. That is why I respectfully request no 
less than the Fiscal Year 2017 funding level for that program.
    In my district, Head Start operates seven programs and 
serves 2,680 children from infancy to age 5. Head Start's 
community engagement in particular lifts families up from 
poverty. For example, there is a family in my district that 
started their own daycare business after receiving job training 
from Head Start. That is an excellent example of leveraging a 
modest investment in Head Start into an economic livelihood for 
a formerly low-income family.
    Before I came to Congress, I was a gang prosecutor in 
Monterey County. I saw firsthand the effects of limited access 
to a quality education and wraparound services. I saw too many 
kids appear in front of me in the courtroom when they should 
have stayed and been in the classroom. Title I levels the 
disparities between schools that are overwhelmed by a diverse 
set of students, like limited proficiency learners.
    I represent 47 Title I school districts, and I do firmly 
believe that the kids in those kids need to be better served. I 
urge this committee to increase Title I funding above the 
Fiscal Year 2017 level and to also fund up to $1,000,000,000 
for the student support and the academic enrichment grants. I 
believe that those two complementary funds target the 
underserved schools, and that can ensure an equitable education 
for all students.
    The Central Coast is also appropriately named, not just the 
most beautiful district in the Nation, but also the salad bowl 
of the world. There is a lot of agriculture there, and it 
relies and directly benefits from seasonal worker populations. 
I realize that many of them are from Latin America, but I have 
to tell you that their roots are now in our communities. They 
work hard. They pay taxes. And, yes, they do it in the pursuit 
of the American Dream.
    One of my local community colleges, Hartnell College, has 
close to 800 students who can be called DREAMers, who fall 
under the DACA Program. CAMP HEP and the TRIO Programs serve 
those populations with the targeted support that they need, 
including one-on-one counseling to ensure at-risk students stay 
in school, and the financial aid assistance to ensure high 
school students graduate, attend, and succeed in college.
    These programs drive economic mobility for these first 
general low-income students, as well as their families. That is 
why I request no less than the Fiscal Year 2017 funding level 
for those critical programs.
    And finally, I come before you today to promote student 
loan forgiveness through public service. I am the grandson of 
Italian immigrants, and we learned that the American Dream is 
to give your children a better life. We were always told in my 
family, though, because we were allowed to live the reality of 
that dream, that we darn well better give back to the country 
and community that gave us so much.
    That sentiment is why I am in front of you today. I believe 
that firmly. And I believe that young people want to live up to 
that ideal and to serve as well, yet I believe that they are 
hindered by the cost of their own education, including an 
enormous student loan debt. That is why I would like to see the 
expansion of student loan forgiveness through public service, 
so I urge the committee to strengthen and expand the public 
service programs that fall under that jurisdiction.
    As members of Congress, all of us strive to improve the 
wellbeing of our constituents and, of course, our country. 
Education is the incubator of American innovation, prosperity, 
and economic quality. Education builds a foundation of success 
for our future generations. All of the programs I have 
referenced are crucial not only to my district, but to our 
country because all of the programs helps our children and our 
families achieve the American Dream.
    Thank you very much.
    Mr. Cole. I want to thank the gentleman for his testimony. 
I do know some of your areas because I read your dad's book, 
Worthy Fights. It is actually one of the best one of these 
things that there is to read. And so, I know a little bit about 
your roots and your community through that.
    And I want to thank you for your advocacy here for these 
programs. Frankly, you know, the prior Administration put an 
emphasis on early childhood. We could not always match every 
dollar, but we increased every year. And particularly where 
early Head Start was concerned, I think they broke some new 
ground that--the research is pretty clear on this--that needed 
to be broken. And I think at that level we matched them dollar 
for dollar or pretty close. I know we did at least last year.
    The TRIO Program, I share your admiration for. This 
committee actually has gone well above the prior Administration 
and the Senate both last year, and if we can get that 2017 bill 
out, we will again at some level. I have seen the same thing. I 
represent a district that has these same kind of challenges in 
terms of a lot of first generation kids that nobody has ever 
gone to college before, so things like GEAR UP and things like 
TRIO that prepare them so that if they get the opportunity, and 
obviously if they are in the TRIO Program, they have the 
opportunity, they go ahead and succeed because they need a 
level of support and mentorship, frankly, that with the best 
will in the world, the most supportive family. If nobody has 
ever gone to college before knowing exactly how to prepare to 
get there and exactly what you need to succeed there is, you 
know, terra incognita for a lot of our young people.
    So, these are great programs. These are things this 
committee believes in very strongly on a bipartisan basis, and 
we look forward to working with you to try and do them. And, 
you know, again, what we can do, and I am going to say this in 
my closing remarks and then allow my good friend to say 
whatever she cares to, really does depend on the allocation 
that we get. And we are still in a little bit of suspense about 
that. We will be for a while.
    But, again, if we get a good allocation, then a lot of the 
concerns that my friend has expressed in the programs that he 
has championed are programs that you will find bipartisan 
support for on this committee. But, you know, that will be the 
big issue for us. We will live within the allocation we have, 
but, you know, higher is better. It is a little bit easier for 
us to make this.
    You know, we try to prioritize appropriately on this 
committee, and we try to do it in a bipartisan way. But, you 
know, again, these are tough decisions sometimes we have 
competing goods out there. We do not think we have a lot of bad 
programs to fund. We just think we have competing needs and a 
limited amount of resources.
    But, you know, I thank my friend for being here.
    Mr. Panetta. Thank you.
    Mr. Cole. I want to recognize my good friend, the ranking 
member for whatever remarks she cares to make in closing the 
committee hearing.
    Ms. DeLauro. Thank you very, very much. It is really a 
delight to have before the subcommittee.
    I want to thank you for your eloquence. We share a common 
heritage, and I can recall vividly visiting my mother, and I 
did not realize the method to her madness until I was an adult 
when she worked in the old sweatshops as a garment worker in 
the City of New Haven. She had me go up to see her and what it 
was about, and she would admonish me and say, get an education 
so that you do not have to do this.
    Those words ring in my head every day as I know that they 
do with you and with your family background. And it is so true 
of so many families of our ethnic heritage and others.
    And the chairman is right. This has been a committee that 
has been a strong supporter of Title I, of TRIO, of GEAR UP, 
all of these efforts. And I think we both fought with or at 
least had discussions with the prior Secretary of Education, 
and the role of early childhood education, and how we ought to 
spend substantial amounts of money on early childhood 
education.
    I would just say this to you, and we mentioned this 
earlier, and the chairman did as well. If we are going to be 
looking at a $54,000,000,000 increase in defense, and I come 
from a defense dependent State, I say this, that that means 
that this subcommittee, which is about one-third of non-defense 
discretionary spending. So, after defense, we are the committee 
with the largest portfolio.
    That means we are looking at about $18,000,000,000 in a cut 
if that were to occur. That just would be truly devastating. We 
could not sustain the needs of the programs that are under our 
jurisdiction.
    So, I think we have to look very, very carefully at our 
budgets in terms of our values and our priorities, and 
education, in my view, has to be the highest priority that we 
are engaged in, in a commitment because it is the great 
equalizer. It really does not focus on your background, your 
income, your religion, your political party. It is about your 
God-given talent. That is what it is about.
    And I think we have to look very carefully at the benefits 
of the budget and largesse of the budget and where those 
dollars are going, and education should not be short changed.
    So, as the chairman pointed, we look for your advocacy when 
we are talking about what the share of the Labor, HHS 
Subcommittee should receive in terms of an allocation in order 
to meet the needs, so many of which you have outlined here this 
morning.
    So, thank you so much for being here. I appreciate it.
    Mr. Cole. Will the gentlelady yield for just one quick 
comment?
    Ms. DeLauro. Yeah, be happy to.
    Mr. Cole. I hate to hand you more ammunition, but, you 
know, you talk about defense and non-defense----
    Ms. DeLauro. I will use it wisely.
    Mr. Cole. I know you will. Actually, that is why I am 
handing the clip over to you. But, you know, it is not like we 
are going to cut veterans or homeland, so actually the share 
that would fall on this committee would be greater probably 
than even my friend has suggested.
    And, you know, I say again, we will live within our 
allocation. We will do our job with what we have. But, yeah, 
you cannot balance the budget on the back of non-defense 
discretionary, and veteran-related, and homeland. There is just 
not enough money there. We could take every single dime of all 
the other subcommittees, and you would still be running. We are 
really talking about roughly a $400,000,000,000 pot of money 
here. It is a lot of money, but you could eliminate it all, and 
you would still be running deficits of about $200,000,000,000 a 
year. So, we are going to have to look to other ways, in my 
view.
    But, again, governing is about making choices, and choices 
are made, we will live within those choices. But I want to tell 
my friend that I appreciate her advocacy. We do not always 
agree on everything, but we agree more than most people around 
here realize. And I appreciate the passion with which she 
approaches her job and the manner in which she represents the 
interests of the people that this committee is really important 
to because they are in many, many cases the most vulnerable 
people, the most needy people amongst us. And my friend's 
passion and concern is genuine and well placed.
    Ms. DeLauro. Thank you very much.
    Mr. Cole. With that, we close the hearing.
    Mr. Panetta. Thank you.
    Mr. Cole. Thank you.
    [The statement of the Hon. Jimmy Panetta and Members of 
Congress follow:]
[GRAPHIC] [TIFF OMITTED] T7126P7.049

[GRAPHIC] [TIFF OMITTED] T7126P7.050

[GRAPHIC] [TIFF OMITTED] T7126P7.051

[GRAPHIC] [TIFF OMITTED] T7126P7.052

[GRAPHIC] [TIFF OMITTED] T7126P7.053

[GRAPHIC] [TIFF OMITTED] T7126P7.054

[GRAPHIC] [TIFF OMITTED] T7126P7.055

[GRAPHIC] [TIFF OMITTED] T7126P7.056

[GRAPHIC] [TIFF OMITTED] T7126P7.057

[GRAPHIC] [TIFF OMITTED] T7126P7.058

[GRAPHIC] [TIFF OMITTED] T7126P7.059

[GRAPHIC] [TIFF OMITTED] T7126P7.060

[GRAPHIC] [TIFF OMITTED] T7126P7.061

[GRAPHIC] [TIFF OMITTED] T7126P7.062

[GRAPHIC] [TIFF OMITTED] T7126P7.063


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                          Wednesday, March 8, 2017.

                 CONNECTICUT CHILDREN'S MEDICAL CENTER

                                WITNESS

JAMES E. SHMERLING, PRESIDENT AND CEO, CONNECTICUT CHILDREN'S MEDICAL 
    CENTER
    Mr. Cole [presiding]. Good morning. It is my pleasure to 
welcome everyone--thank you--to the Subcommittee on Labor, 
Health, Human Services, and Education for a very special 
hearing. This is our public witness day, and it provides an 
opportunity for members of the public to come before this panel 
and draw our attention to particular issues of importance to 
them. I always look forward to hearing from our public 
witnesses as we learn as much about the challenges facing our 
people and what this subcommittee can do to help solve them.
    Before we begin, I want to remind everyone that we need to 
strictly adhere to the 5-minute rule so that we will be able to 
keep closely the schedule and hear from everyone before votes 
are called. For our witnesses a 5-minute minute block will 
count down on the microphone box in front of you. When you have 
one-minute remaining, the light will turn yellow and you should 
begin to wrap up your testimony at that point. Remember that 
your full written statement will appear in the hearing record.
    And just for purposes of the committee, this will obviously 
not be a question and answer and dialogue, although at the end 
of each witness I will certainly allow anybody that wants to to 
make a remark or ask a quick question. But let us try and move 
along just for the convenience of all the folks who have come a 
long way to be with us and to offer testimony.
    And with that, I would like to turn to our ranking member, 
who has laryngitis today, so you guys be kind.
    Ms. DeLauro. Thank you. Thank you, Mr. Chairman. This is 
really a delight to have this public witness hearing this year, 
express my gratitude as well to all of the witnesses. And thank 
you for taking the time to speak to us, but for all the work 
that you do on behalf of American families. And we are eager to 
hear from all of you, so I will be brief and I apologize for my 
voice. Nineteen witnesses, all aspects of the committee's 
jurisdiction: education, healthcare, programs that benefit 
everyone from infants to seniors, universities, STEM education, 
and much more.
    The Labor HHS bill is called the people's bill. The reason 
for that is because it is about providing constituencies and 
people with opportunities to be able to get ahead. And they are 
the programs that directly impact the lives of Americans. So, I 
say thank you to you.
    And I just want to make a point, that the range of programs 
here are so important, but you are all tireless in your 
advocacy on these issues, and we thank you for that.
    The hearing that we had last week, both the chairman and I 
mentioned that we have got the potential for a $54,000,000,000 
cut to non-defense discretionary spending. This would have a 
profound effect on the programs under the portfolio of Labor, 
Health, Education, and Human Services, because Labor HHS is 
one-third of non-defense discretionary spending, so that could 
potentially be a cut of about $18,000,000,000.
    The chairman said last week, and I agree with him and I 
know he has been saying this, is that we cannot afford to 
balance the budget on the back of non-defense discretionary 
efforts. So, I think you will explain why you believe that the 
programs that you are espousing or the efforts that you are 
espousing are worthy and why we should be reinvesting urgently 
in your priorities.
    So, I very, very much look forward to hearing your 
testimony this morning. Many thanks.
    Mr. Cole. I thank the gentlelady, and with apologies ahead 
of time I may well mispronounce names. Feel free to correct me.
    We have as our first public witness, is it Shermie?
    Mr. Shmerling. Shmerling.
    Mr. Cole. Shmerling, okay. James Shmerling, the president 
and chief executive officer of the Connecticut Children's 
Medical Center. Sir, you are recognized for 5 minutes to offer 
whatever remarks you care to the committee.
    Mr. Shmerling. Thank you. Chairman Kohl, Ranking Member 
DeLauro, and members of the subcommittee, thank you for the 
opportunity to testify in support of the Children's Hospital 
Graduate Medical Education Program, or CHGME.
    I am Jim Shmerling, president and CEO of Connecticut 
Children's Medical Center in Hartford, Connecticut. On behalf 
of Connecticut Children's and the Children's Hospital 
Association, I respectfully request that the subcommittee 
provide $300,000,000 for the CHGME Program in Fiscal Year 2018.
    A robust pediatric workforce is essential to ensuring that 
all children can access high-quality medical care. CHGME 
supports this goal by providing funding for the training of 
pediatric providers at independent children's hospitals. Much 
as Medicare supports training and teaching hospitals that 
primarily serve adults, CHGME benefits children across the 
Nation by supporting the training of doctors who go on to care 
for children living in every State.
    Since the program's beginning, CHGME has enjoyed strong 
bipartisan support in Congress under both Republican and 
Democratic leadership. For Fiscal Year 2016, Congress provided 
$295,000,000 for CHGME, the program's first funding increase 
since Fiscal Year 2010. For Fiscal Year 2017, both the House 
and Senate Labor Health and Human Service Appropriations 
Subcommittees recommended $300,000,000 in funding for CHGME.
    Furthermore, bipartisan legislation reauthorizing CHGME 
through Fiscal Year 2018 was enacted in 2014, demonstrating the 
high level of ongoing support among lawmakers for the program. 
Children's hospitals are extremely grateful for the strong 
commitment to the health of America's children.
    Congress created CHGME in 1999 because it recognized that 
the absence of dedicated CHGME funding for freestanding 
children's teaching hospitals created gaps in training of 
pediatric providers, potentially threatening children's access 
to care. At that time, independent children's hospitals, like 
Connecticut Children's, were effectively left out of the 
Federal GME support provided through Medicare because we treat 
children, not the elderly.
    Since 1999, the CHGME Program has had a tremendous impact. 
Although the 58 hospitals that currently receive CHGME funding 
compromise only 1 percent of all hospitals, they train half of 
all pediatric residents, more 7,000 annually, including 44 
percent of all general pediatricians and 57 percent of all 
pediatric specialists.
    To provide an example of the impact from my own hospital, 
Connecticut Children's is the academic home for the Department 
of Pediatrics at the University of Connecticut School of 
Medicine, and we serve as the principal training site for the 
university's pediatric residency program, the pediatric 
fellowship programs, and medical student pediatric education. 
We have 63 pediatric residents at any given time. They are 
engaged in learning onsite and in the Greater Hartford area.
    CHGME funding supports the provision of their curriculum 
under the expertise of a highly-qualified faculty with a 
diverse population of patients and health needs. In 2016, 126 
of our residency and fellowship program graduates were 
practicing in Connecticut. While many of their colleagues have 
moved on to practice all over the country, America's children 
rely on the training provided by hospitals like ours that 
receive CHGME funds.
    CHGME has allowed children's hospitals to develop training 
programs in highly-specialized disciplines that target the 
unique needs of children. Some examples include pediatric 
surgical oncology, radiation oncology, pediatric pathology, and 
bone marrow transplantation. Only a small number of 
institutions provide training in those areas. CHGME is vital to 
maintaining and expanding programs focused on those sub-
specialties.
    However, while much has been achieved in strengthening the 
pediatric workforce, still more remains to be done. The 
national population of children continues to increase, and the 
number of children with complex medical conditions is growing 
at a faster rate than the overall child population, requiring 
an increasing number of specialty care providers. Nationwide, 
serious pediatric workforce shortages persist, most acutely 
among pediatric sub-specialties. Localized shortages of 
pediatric primary care providers also continue particularly in 
certain rural areas. Strengthening funding for CHGME will help 
all children and their families, including those with rare and 
complex conditions.
    Even with CHGME, children's hospitals incur significant 
additional costs in support of their teaching missions. Without 
CHGME, hospitals will be at risk of having to cut back training 
experience in patient care services. This would negatively 
impact children's access to care and the future of the 
pediatric workforce.
    We recognize that the current budget climate is 
extraordinarily challenging and Congress has a responsibility 
to carefully consider the Nation's spending priorities. 
However, continued needs of the pediatric workforce, in 
particular with respect to specialty shortages, point to the 
necessity of strengthening funding for the program. Now is the 
time to take a step forward in pediatric medicine to ensure our 
children have access to health services they need.
    On behalf of Connecticut Children's Medical Center, the 
Children's Hospital Association, and the children's families we 
serve, thank you for your past support for this critical 
program. We request we respectfully request that the 
subcommittee continue its bipartisan support of children's 
health and CHGME at its authorized funding level of 
$300,000,000 in the Fiscal Year 2018 Labor Health and Human 
Services Appropriations Bill. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.064
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.065
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.066
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.067
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.068
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.069
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.070
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.071
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.072
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.073
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.074
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.075
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.076
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.077
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.078
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.079
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.080
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.081
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.082
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.083
    
    Mr. Cole. Thank you. That is pretty good, only 12 seconds 
over. [Laughter.]
    You set the bar high for everybody else. We thank you very 
much for your testimony.
    Mr. Shmerling. Thank you.
    Mr. Cole. We will hear from our next witness, please. 
Welcome.
    We have, is it Erin, is it Shiffring?
    Ms. Siefring. Siefring.
    Mr. Cole. Siefring. Thank you very much. Again, forgive me 
for butchering names, to testify on behalf of the Computer 
Science Education Coalition. So, the gentlelady is recognized 
for 5 minutes, and we would be delighted to receive your 
testimony.
                              ----------                              

                                          Wednesday, March 8, 2017.

                  COMPUTER SCIENCE EDUCATION COALITION


                                WITNESS

ERIN SIEFRING, CHAIR, COMPUTER SCIENCE EDUCATION COALITION
    Ms. Siefring. Thank you. Chairman Cole and Ranking Member 
DeLauro, I am Erin Siefring, chair of the Computer Science 
Education Coalition. Thank you for the opportunity to testify 
before you and all the members of the subcommittee today on a 
critical issue that greatly impacts the economic 
competitiveness and national security of the United States, K 
through 12 computer science education.
    Our country is falling far behind in this area with real 
impacts to our homeland security and our economic base. 
Prioritizing funding at the Department of Education for 
computer science education by the subcommittee can address this 
problem and give Americans the tools they need to protect our 
country and grow the economy.
    Computer science is a foundational skill for 21st century 
jobs. This skill is in high demand in our military and 
throughout the private sector. However, the United States is 
failing to take the necessary steps to equip our current and 
future workforce with the computer science skills needed to 
fill these positions to remain globally competitive.
    The crisis in computer science funding extends to defending 
the homeland against cyber threats. Cybersecurity attacks 
against the United States are on the rise. But as the Center 
for Strategic and International Studies explains, there are 
only about a thousand security specialists in the United States 
who have the specialized skills to operate effectively in 
cyberspace. However, the United States needs about 10,000 to 
30,000 such individuals.
    This shortage decreases our country's ability to defend 
itself in a time where a single bad actor with an advanced 
knowledge of computers, networks, and cybersecurity can do 
immense damage to the United States just by hitting the enter 
key on their laptop. To reverse this trend and bolster our 
national security, an investment in computer science education 
is needed now. Failure to make this investment in a timely 
manner will only compound the problem going forward and 
increase the national security risk to the United States.
    Already less than half of K through 12 classrooms in the 
United States teach computer science. Yet according to 
Code.org, computer science-based employment will make up two-
thirds of all projected new jobs in the science, technology, 
engineering, and mathematics, or STEM, fields. The United 
States K through 12 education system simply is not graduating 
students with the computer science skills needed to meet the 
current or growing demand for computer science jobs.
    Today's students need to be learning about algorithms, how 
to make an app, code, or do robotics. These are the critical 
thinking skills today's students need to become the innovators 
and cyber warriors of tomorrow. These skills are needed 
throughout the economy. There are currently over 50,000 good 
paying computing jobs unfilled across the country. They are 
unfilled in large part because we are not making the investment 
necessary in computer science education. Indeed, computing jobs 
are the number one source of new wages in the United State.
    To fill these job openings in recent years, American 
companies have often had to import talent from across the 
globe. In fact, the majority of high-skilled immigration is for 
computer scientists, and almost 60 percent of skilled worker 
visas granted were for computer science operations. Our failure 
to invest in our future has forced U.S. businesses to recruit 
overseas for positions that could be filled domestically.
    To address this issue, last year America's leading CEOs, 
educators, and nonprofit leaders united with 28 Republican and 
Democrat governors, including then Governor Mike Pence, to send 
a letter to Congress asking for funding to provide every 
student in every school the opportunity to learn computer 
science. The signatories included Fortune 100 CEOs across 
multiple industries, which illustrates how many sectors of our 
economy are impacted by the current skills gap in computer 
science.
    State and private efforts are vital, but not enough on 
their own to fix the skills gap in computer science. We are 
lagging behind other nations that have prioritized the teaching 
of this critical subject. A Federal investment is necessary to 
amplify and accelerate the work already being done around this 
issue in the United States.
    Since the Computer Science Education launched a year ago 
today, there has been significant bipartisan support for 
computer science education in both the House and the Senate. 
The coalition appreciates the robust demonstration of 
bipartisan leadership.
    An investment in computer science education by this 
subcommittee will be an investment in our country's future. The 
Computer Science Coalition urges the members of this 
subcommittee and Congress to prioritize an investment in 
computer science education to help defend the homeland and keep 
our economy strong.
    Thank you for your time and attention to this critical 
matter.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.084
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.085
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.086
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.087
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.088
    
    Mr.  Cole. You might care to comment quickly on this or ask 
a question.
    Mr.  Fleischmann. Thank you, Mr. Chairman, and Ms. 
Siefring. I appreciate this, and to my Democratic colleagues as 
well. This is an area where we've had tremendous bipartisan 
cooperation and support.
    Just about a week and a half ago in Chattanooga, my 
hometown, we went over to the Howard High School. The members 
of your coalition were there. I went to an elementary school 
where second graders actually taught me how to code. It is 
really incredible the enthusiasm that the students have. 
Employers need this. The students need it, and I am going to be 
working with Ms. Lee, my colleague from the other side of the 
aisle--she is not here yet today--from Oakland.
    One of the other areas, too, that I would respectfully 
suggest we all work together is in the inner city because we 
have a lot of underserved schools in the inner city. I was just 
so impressed again at Howard High School.
    But thank you for your efforts. I am going to continue to 
be an advocate and look forward to the bipartisan cooperation 
on this key issue. And I thank the chairman for his continued 
support as well.
    Mr.  Cole. Certainly well-behaved second graders could 
teach this Congress a great deal actually. [Laughter.]
    Ms.  DeLauro. Mr. Chairman, just for the record----
    Mr.  Cole. Certainly.
    Ms.  DeLauro [continuing]. Ms. Lee is at the MilCon hearing 
this morning, so otherwise she would be here joining Mr. 
Fleischmann. Thank you.
    Mr.  Cole. Absolutely. We want to thank you for your 
testimony, and we will certainly take it under consideration. 
And next witness, please.
    Welcome. Good to have you here, you bet. Ms. Pyper Davis, 
the executive director of Educare, Washington, D.C. The 
gentlelady is recognized for 5 minutes to deliver remarks.
                              ----------                              

                                          Wednesday, March 8, 2017.

                        EDUCARE WASHINGTON, D.C.


                                WITNESS

PYPER DAVIS, EXECUTIVE DIRECTOR, EDUCARE WASHINGTON, D.C.
    Ms.  Davis. Thank you. Chairman Cole, Ranking Member 
DeLauro, and members of the subcommittee, thank you for the 
opportunity to testify today on the critical need for all 
children, especially low-income children, to have access to 
affordable, high-quality early learning and care.
    My name is Pyper Davis, and I am the executive director of 
Educare of Washington, D.C., a nonprofit just across the 
Anacostia River serving children and families living in poverty 
with a high-quality early childhood education program.
    For context about me, I grew up in Michigan, earned an 
M.B.A. from Harvard Business School, and worked in the private 
sector for 15 years both on Wall Street and in the television 
industry. In 2003, I decided to leave the private sector and 
harness my business experience to work on improving education 
outcomes for low-income children. This is what brings me here 
today.
    Educare D.C. opened nearly 5 years ago and offers full-day, 
year-round, high-quality early childhood education services to 
children as young as 6 weeks old through age 5. The ounce of 
prevention, which includes the First Five Years Fund, opened 
the first Educare in Chicago in 2000. Today Educare D.C. is a 
part of a 21-school high-quality research-based network across 
the country, a network which includes two Educare programs in 
your home State of Oklahoma, Chairman Cole, one in Wisconsin, 
and one in California as well.
    All Educare schools braid together Federal Head Start and 
child care grants with State, local, and philanthropic dollars 
to create true public/private partnerships. Private funds 
account for about one-third of Educare D.C.'s funding, and the 
other two-thirds come from public funding streams that I have 
mentioned.
    Of the 160 children at Educare D.C., 15 percent experienced 
homelessness in the past year, and 73 percent live in a family 
with reported annual income of $9,000 or less. We know these 
risk factors can derail a child's physical, social, emotional 
and cognitive development. Without intervention, these factors 
often lead to a lack of school readiness and are linked to 
illiteracy, teen pregnancy, high dropout rates, and 
unemployment later in life.
    According to Nobel Laureate economist, James Heckman, every 
dollar invested in high-quality early learning for 
disadvantaged children provides a 13 percent yearly return on 
investment. As brain science and multiple longitudinal studies 
show, investing these dollars in our youngest children is smart 
policy and smart economics.
    I would like to share just one example of success from the 
programs that you support. A few years ago, one of our teen 
moms was encouraged to enroll her infant in Educare so that she 
could finish high school. Last June, not only did mom complete 
high school, but she graduated as valedictorian, and she is now 
a full-time college student. Mom told me that she was able to 
focus on her own education because she knew that her daughter 
was safe, healthy, and learning at Educare. This is just one 
real illustration of that 13 percent return on investment, with 
two generations, both child and parent transformed.
    Educare is able to serve these families because of the 
funding we receive, especially from the Federal government. 
More and more Federal investments in high-quality early 
childhood education programs are being matched by governors and 
legislatures in blue and red States alike. But States and 
private investors cannot do it alone. This is hard work, and 
only by having nationally coordinated efforts and national 
talent helping to lead can we continue to make progress.
    We appreciate the bipartisan support that you have shown 
these programs, and we hope that will continue as you wrap up 
Fiscal Year 2017 and work on Fiscal Year 2018, because access 
to high quality early learning programs can close the 
achievement gaps. I am requesting that the subcommittee 
continue to increase support for early childhood programs for 
Fiscal Year 2018.
    Specifically, it took bipartisan support to reauthorize the 
Child Care Development Block Grant, and it will take bipartisan 
efforts to fund the reforms that the new law requires. 
Implementing this law without reducing slots for children will 
require an increase of $1,200,000,000, and I ask that you 
increase the appropriation in line with this need.
    Head Start and Early Head Start are only able to serve 41 
percent of eligible 3- and 4-year-olds and 4 percent of 
eligible infants and toddlers. I urge the subcommittee to 
support funding for Head Start above current levels to ensure 
that the new outcomes-driven Head Start performance standards 
are implemented with fidelity.
    Additionally, I request that the subcommittee help put 
Early Head Start on a path to reach 10 percent of eligible 
children over 4 years, starting with an increase of 
$500,000,000 in Fiscal Year 2018 to expand Early Head Start and 
Early Head Start child care partnerships.
    The Every Student Succeeds Act authorizes a new preschool 
development grant program within HHS. I request that you 
provide sufficient funding to allow for new preschool 
development grant competition. These grants will improve 
collaboration and coordination at the State and local level.
    Parts B and C of the IDEA make early intervention services 
available to children with disabilities. Thanks to Part B, 
753,000 children with disabilities were able to access 
necessary services in Fiscal Year 2015. I request that you 
consider increase in funding for both Part B and Part C to 
ensure that all young children with disabilities have access to 
vital services.
    Access to high-quality early childhood education helps low-
income children enter kindergarten ready to learn, and offers 
entire families greater opportunities and a pathway out of 
poverty.
    Thank you for the opportunity to testify today. I extend an 
open invitation to all of you to visit Educare D.C., which is 
just down the road. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.089
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.090
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.091
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.092
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.093
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.094
    
    Mr.  Cole [continuing]. Testimony, and I loved the 
testimony. And my one suggestion would be get one of those 
Educare centers open someplace in Connecticut, you know. It 
would probably help us a lot. [Laughter.]
    Ms.  Davis. Happy to. Happy to.
    Ms.  DeLauro. My further suggestion, Mr. Chairman, is given 
the prospect both the chairman and I know is very real of 
serious cuts, make your voices heard loud and clear. This is an 
institution that responds, especially to something that is 
successful. But please come to Connecticut.
    Ms.  Davis. Thank you.
    Mr.  Cole. The gentlelady, as always, is correct.
    If we could, we will have our next witness, please. 
Welcome. Good to have you here. Mr. Ted Cornelius, the 
executive director of the Tennessee State Alliance of YMCAs. 
You are recognized for 5 minutes for whatever testimony you 
care to offer.
                              ----------                              

                                          Wednesday, March 8, 2017.

                   TENNESSEE STATE ALLIANCE OF YMCAS


                                WITNESS

TED CORNELIUS, EXECUTIVE DIRECTOR, TENNESSEE STATE ALLIANCE OF YMCAS
    Mr.  Cornelius. Thank you. So, thank you, Chairman Cole and 
Ranking Member Fleischmann of Tennessee, and the rest of the 
members of the subcommittee. I am very thankful for the 
opportunity to talk with you today about some of the exciting 
work that the YMCA is doing.
    I am the executive director of the Tennessee State Alliance 
of YMCAs. And on behalf of the 2,700 YMCAs across the country, 
I am here to talk about some of the work that the Tennessee 
YMCAs and also YMCAs across the country are doing to prevent 
diabetes and also save millions of lives, and also save 
billions of dollars.
    So, I am specifically here to ask for $25,000,000 to go 
towards the Center for Disease Control and Prevention's 
National Diabetes Prevention Program. We have supported the 
priority of Congress placing on the National Institutes of 
Health to be able to look at investing in medical 
breakthroughs. And I am here to tell you about an investment 
that the National Institute of Health made in 1996. That was a 
clinical research trial, and it actually aimed at delaying the 
onset of type 2 diabetes through weight loss and also the 
treatment with the drug Metformin. I am here to tell you that 
the outcomes were extremely successful. We showed 58 percent 
lost 5 to 7 percent weight loss, and over 60 years of age 
reduced by 71 percent.
    So immediately, Secretary Tommy Thompson called off the 
trial and urged the Nation to scale the program immediately. 
The barrier was that it was expensive, and so we were not able 
to do that. But fast forward a couple of years, the academic 
institution that was involved in the trial came to the YMCA. We 
looked at Indianapolis and the local Y's, and we were able to 
identify delivering this at a 10 to 20 percent reduction, some 
of the cost.
    So, with that then the United Health Group in 2010 were 
able to start paying for the program for Y's to scale. So then, 
fast forward 7 years later, we are now in 1,700 community 
sites, 47 States. 30 private insurers are covering the program. 
10 State employee programs are now covering it as well. And I 
am here to say that we are extremely confident in this program, 
and that it works, and that we operate in a pay for performance 
basis, and receive payment only when outcomes are achieved.
    So, I just want to emphasize that we could not do this 
without the partnership with the Centers for Disease Control. 
It is a public/private partnership that is absolutely critical 
to this work.
    So, we urge Congress to continue to support the CDC's 
National Diabetes Prevention Program so more of the community 
organizations, like the YMCA, can go ahead and continue to 
scale this extremely important program. We do understand that 
there are challenging budget times right now. We are urging you 
to invest in taxpayer dollars where you get the most return.
    And I can tell you this has been a proven program. So 
again, we are asking for support for $25,000,000 into the CDC, 
and here is why. We are spending $322,000,000,000 annually. In 
Tennessee specifically, $6,600,000,000 is being spent on this 
disease. And then $1 out of every $3 is being spent on Medicare 
spending for the care of diabetes.
    So, CDC absolutely needs these resources in order to build 
capacity with organizations to be able to scale this, to 
educate the 86 million that are in a pre-diabetic condition who 
sometimes do not even know that they are in a pre-diabetic 
condition. And then also to run the CDC Recognition Program.
    Fast forward to 2012, the YMCA of the USA had a CMMI 
Innovation Grant Award with CMS and demonstrated cost savings 
of $2,650 per Medicare patient as far as a return on 
investment, and marks the first time in history that a 
community intervention produced a cost savings from a 
prevention service. Then fast forward to November 2016, CMS 
finalized a rule enabling scale of program for Medicare with 
pre-diabetes, which really includes half of all seniors 
nationwide. So, this benefit will be available starting January 
1 of 2018.
    So, for the many community organizations like the Y and the 
CDC Recognition is essential and another reason why funding the 
Center for Disease Control's Diabetes Prevention Program is so 
critically important. So, we urge Congress to support a robust 
investment in diabetes, in chronic disease prevention at the 
CDC. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.095
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.096
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.097
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.098
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.099
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.100
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.101
    
    Mr.  Cole. Thank you for your testimony. I understand my 
friend from California, Ms. Roybal-Allard, has a question or 
comment.
    Ms.  Roybal-Allard. Okay. Thank you very much Mr. Chairman. 
Mr. Cornelius, thank you for highlighting a program that is 
prioritizing real proven prevention efforts in the community.
    You did not mention that in your testimony, but I recall 
that the National Diabetes Prevention Program was originally 
funded by the Prevention and Public Health Fund, and the NDPP 
was given its own line item within the CDC. Since the 
Prevention and Public Health now back fills approximately 12 
percent of the CDC budget, what would be the impact for the 
NDPP if that fund is eliminated as part of repealing the ACA?
    Mr.  Cornelius. Thank you for your question. It would be a 
great impact. So, it would be about 40 percent to the CDC's 
budget, which is extreme. And I will tell you, chronic disease 
in our country is one of the number one killers of disease, 
costs us an extreme amount of money. That is why I would say it 
is absolutely critical that we continue to keep having 
appropriations and this investment into the Centers for Disease 
Control's budget in order for us to continue to keep scaling 
this program. Thank you for your question.
    Mr.  Cole. I thank the gentleman for his testimony, and we 
will certainly take it under advisement. Thank you again.
    Mr.  Cornelius. Thank you.
    Mr.  Cole. If we could, next witness. Welcome, sir. It is 
good to have you here.
    Mr.  McPherson. Yes, sir. Nice to be here.
    Mr.  Cole. Good.
    Mr.  McPherson. Mr. Chairman----
    Mr.  Cole. Peter McPherson, president of the Association of 
Public and Land Grant Universities. The gentleman is recognized 
for 5 minutes.
                              ----------                              

                                          Wednesday, March 8, 2017.

            ASSOCIATION OF PUBLIC AND LAND-GRANT UNIVERSITIES


                                WITNESS

M. PETER MCPHERSON, PRESIDENT, ASSOCIATION OF PUBLIC AND LAND-GRANT 
    UNIVERSITIES
    Mr.  McPherson. Good to be here. Thank you.
    My association is a group of 194 universities systems 
around the country representing the universities that are in 
every one of your States. They educate over 5 million students, 
$40,000,000,000 research. It is a large public and the land 
grants around the country.
    I am here to talk about Pell and about NIH funding.
    A few comments about college and Pell. Since the Great 
Recession, almost all the jobs, the new jobs, were taken by 
people that had some college, and some 72 percent of those new 
jobs went to people with a 4-year degree. It is clear that 
these are very important degrees to get for our population.
    A few comments about Pell, of course. The low-income 
minority students in our country simply are not getting the 
degrees anywhere near the percent that higher-income people 
are. We certainly applaud getting something like 85 percent or 
more of the top quintile of income in this country get college 
degrees. But at the lowest quintile, it is like 8 percent, and 
it gradually moves up. Pell is just so key to make this work.
    When you look at who gets the jobs, we cannot have income 
people not have some post-secondary education, and those 4-year 
degrees are very important for so many people. Certainly, they 
are competent to get them when you look at income distribution.
    Well, I look at Oklahoma, for example, where Oklahoma, 
Oklahoma State, and Langston have 12,000 Pell students. 
University of Connecticut has 4,000. And I could around the 
room and give the figures for every one of the States here. 
They are doing impressive work these are public institutions, 
and we need to support them. We need to have this discretionary 
mandatory minimum. I hope you can keep it, it if not increase 
it, realizing that certainly is difficult in these days.
    We think that the yea-round Pell is just central. I know 
every one of you understand year-round Pell, and I really think 
you would love to do it. I appreciate the chairman when it was 
included in the markup last year for up 2017. You said, well, 
maybe it can be worked out in the final agreement. We hope so. 
And I appreciate the ongoing interest here.
    The NIH funding is, of course, very critical, and you have 
all been so supportive of it. We hope that there can be a 
$2,000,000,000 increase for 2017. And, of course, we think that 
you need to continue to build us up. I am struck by how often I 
say to my wife, you know, when some friend is ill or has a 
problem, you know, they would not have been able to deal with 
that a few years ago. When you think about it, it is really 
true. We just sometimes forget how much medical technology has 
advanced, and so much of that is NIH founded.
    When we think about our economy, we have all had the 
benefits of this information technology that has changed our 
lives, but also changed the economy of this country. There are 
many people who think that the information technology is going 
to build and expand upon the biotech nature of this. I believe 
that in 15 years or so, the investment here is just not only 
key for the health of every one of us actually, but for the 
growth of this economy.
    So, Mr. Chairman, the ranking minority, friends, members, I 
hope these are helpful to you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.102
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.103
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.104
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.105
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.106
    
    Mr.  Cole. I appreciate the comments very much, and I know 
you will help us. If we got the 2017 bill out, I think you 
would be very happy with some of your requests.
    Mr.  McPherson. We will work hard. Our members are 
intensely interested, as you know. They are happy to chat with 
you and whatever could be helpful. And, more important, members 
beyond this table I am sure.
    Ms.  DeLauro. Thank you very much for your testimony. You 
are spot on. And I would say that, as Connecticut being one of 
the oldest land grant colleges in the country. So, thanks for 
all you do.
    Mr.  McPherson. Well, I know it well.
    Ms.  DeLauro. Thank you.
    Mr.  McPherson. I have been up there. It is a strong 
institution. Susan is doing nice job.
    Ms.  DeLauro. Right. Thank you for your support of Pell. It 
makes a difference. Thank you.
    Mr.  McPherson. You bet.
    Mr.  Cole. Thank you very much for your testimony.
    Our next witness? I believe, Mr. Kingston? Chairman 
Kingston, are you here? Why do you not come on up to the dais 
as well?
    Mr.  Kingston. Thank you, Mr. Chairman.
    Mr.  Cole. Well, as many of you here know, Mr. Kingston is 
the former chairman of this committee, my good friend and 
colleague. To all of us here, it is a particular pleasure to 
have you back, and I know you have got a witness that you would 
like to speak as well. But I wanted to recognize you for the 
wonderful work you did here and what a terrific friend you 
were, and allow you to make any remarks you care to make as you 
introduce the next witness.
    Mr.  Kingston. Well, thank the chairman for that, and the 
ranking member, and my friends on the committee. I wanted to 
say I did have an opportunity to tour the room right after you 
renovated it, and I looked up and I saw the Native American 
artwork with the Italian Renaissance influence. [Laughter.]
    And I said to the clerk, I said, Ms. Ross, this is 
obviously the work of Mr. Cole and Ms. DeLauro. And she said, 
no, it came from the U.S. Capitol. [Laughter.]
    But I thought, you know what? I am still right because it 
still was Italian Renaissance and Native American influence 
that helped shape that. But the room looks great, and I am glad 
to be here.
    As you know, Job Corps has 50,000 grads a year. 80 percent 
of them find work. It is focused on really disadvantaged and 
sometimes troubled youth, dropouts, and so forth, and many 
times homeless people. They have trained 3 million people, and 
one of them is here today.
    And if the committee will indulge, Thomas Franklin, if you 
could just stand up. Let them see what a fine young man you 
are. [Laughter.]
    And Thomas is on his way to be a railroad clerk and 
studying all things transportation, logistics, and railroad.
    But the witness who is here today that I am going to 
introduce is Susan Fallon. And rather than have somebody from 
the Job Corps to tell you how great they are, I thought it 
would be more effective to have one of their partners, a 
business, Monster, Inc., who works very closely with them in 
helping people. And, Ms. Clark, you will recognize where they 
are located as your hometown.
    And so, our witness is Susan Fallon, and I am going to 
introduce her. She is one of the vice presidents of Monster, 
Inc. But if the name rings a bell, her father, Bill Fallon, has 
been a witness. You know Admiral Fallon has testified before 
many of our committees on appropriations in the Department of 
Defense for many years.
    So, with that, I will yield the floor.
    Ms.  DeLauro. Mr. Chairman if I might just before the 
witness comes, I thought that was you in the back row there, 
Jack, and I said maybe I am not, you know, seeing correctly. 
But former Congressman Kingston chaired and co-chaired the Ag 
Committee, and we did the same with Labor-H. And there are 
always the discussion about how people on both sides of the 
aisle cannot get along but Jack Kingston I have gotten along 
for many, many, many years whether it's on the floor of the 
House or serving in these positions.
    It is great to see you here this morning, Jack.
    Mr.  Cole. See, Jack, you make me feel like the second 
husband that cannot quite measure up----
    [Laughter.]
    Ms.  DeLauro. We have been through a lot of battles. We 
were each chair of the Message Committee in the early, early 
days.
    Mr.  Kingston. We came together over conflict.
    Ms.  DeLauro. Conflict, right.
    Mr.  Kingston. We bonded, and we horrified both Democrats 
and Republicans with our lasting friendship.
    Ms.  DeLauro. And now he is the star of stage, screen, and 
television. We see him all the time. Thanks, Jack.
    Mr.  Cole. It is good to----
    Mr.  Kingston. It is great to be with you.
    Mr.  Cole. Good to see my friend again. Ms. Fallon, if you 
would come up, we would love to have you. That was a very 
clever twofer, you know? [Laughter.]
    But it is a delight to have you here, and the gentlelady is 
recognized for 5 minutes to deliver her testimony.
                              ----------                              

                                          Wednesday, March 8, 2017.

                      MONSTER GOVERNMENT SOLUTIONS


                                WITNESS

SUSAN FALLON, VICE PRESIDENT OF GLOBAL STRATEGY AND BUSINESS 
    DEVELOPMENT, MONSTER GOVERNMENT SOLUTIONS
    Ms.  Fallon. Great. Thank you, Mr. Chairman, Ranking Member 
DeLauro, members of the Subcommittee for inviting me to 
testify.
    Monster is headquartered in western Massachusetts, which is 
located in the district of your subcommittee colleague, 
Congresswoman Katherine Clark. I am thrilled to see our 
hometown congresswoman here today. And, of course, thank you, 
Chairman Kingston for that kind introduction.
    I am honored to have the opportunity to speak to you on 
issues that are of critical importance not only to Monster 
Government Solutions, but also to millions of employers across 
the country. And those are the issues of jobs, our youth, and a 
skilled workforce.
    According to the U.S. Chamber of Commerce, there are 5.6 
million jobs that remain unfilled because employers simply 
cannot find workers with the right set of skills. Some 
estimates show that this skills gap cost our economy 
$160,000,000 annually. These are essentially lost jobs in our 
communities that we could easily reclaim through upskilling and 
investing in workforce development.
    At the same time, there are 5.5 million young Americans 
aged 16 to 24 who are out of work and out of school. These 
youth are untapped economic assets who could potentially 
provide returns of as much as $5,000,000,000,000 dollars to our 
communities in terms of wages and activity, as well as a 
reduced dependence on taxpayer support. But these young people, 
many like Thomas, are not just a statistic. They are our 
future.
    We at Monster, like the dozens of national employers 
participating in the Hundred Thousand Opportunities Initiative, 
believe it is a critical priority for our Nation to invest in 
these young men and women. Towards that end, last year we 
worked with the Job Corps Program to launch an initiative we 
call Youth Opportunities 2020.
    As you know, Job Corps offers training in more than 100 
different high demand occupations in 125 rural and urban 
communities nationwide. In Program Year 2015, nearly 80 percent 
of students left with an industry-recognized credential. The 
result: 86 percent of graduates secured jobs or enrolled in 
higher education. The bottom line? Job Corps works.
    We have learned that small business trust Job Corps to meet 
their talent needs, which is why over 100 local chambers of 
commerce, from Connecticut to Oklahoma to Washington, have 
signed letters of support for the program. Building on this 
interest, Monster worked with Job Corps last year to launch the 
Youth Opportunities Portal, which provides students with online 
career tools and resources, and employers with the tools to be 
matched to thousands of skilled young Americans at no cost.
    For example, our data shows that last month in your 
district, Mr. Chairman, there were 15,131 job openings 
published. Last month in New Haven, Ranking Member DeLauro, 
there were more than 22,126 job openings published. Many of 
these are middle-skilled jobs that require the technical 
skills, industry-recognized certifications and training that 
our youth are receiving from the Job Corps Program. These 
include transportation and material moving occupations, which 
account for more than a quarter of the job postings in the 
chairman's district, to nursing and other healthcare related 
professions that account for the largest share of postings in 
the ranking member's district.
    We at Monster are mission driven to expand employment 
opportunities for job seekers, and to help employers find the 
skills- and work-ready employees they need to grow their 
businesses. We urge the subcommittee, which has provided 
incredible bipartisan support to Job Corps for more than 50 
years, to continue to provide sufficient funding in Fiscal Year 
2018, and help as many of these young people and the employers 
that need their skills as possible.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.107
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.108
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.109
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.110
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.111
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.112
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.113
    
    Mr.  Cole. The gentlelady from Massachusetts is recognized 
for her comments.
    Ms.  Clark. Thank you, Mr. Chairman, and thank you for 
being here today. Mr. Chairman, I am glad you noticed the 
twofer approach. That is how we roll in CD-5. [Laughter.]
    Ms.  Clark. And we are just delighted to be here, and thank 
you for making the connections. Creating jobs, allowing people 
to have that matched with good employment is the most critical 
function we can have. And thank you for your work and being 
here today to underline the importance of this line item.
    Ms.  Fallon. Thank you, Congresswoman.
    Mr.  Cole. Thank you very much for your testimony.
    Ms.  Fallon. Thank you, sir.
    Mr.  Cole. Next witness, and it is good to have my good 
friend, Robert Egge, the chief public policy officer for the 
Alzheimer's Association. In full disclosure, we have done a lot 
of work together. Appreciate his good work. And the gentleman 
is recognized for whatever testimony he cares to deliver to the 
committee.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                        ALZHEIMER'S ASSOCIATION


                                WITNESS

ROBERT EGGE, CHIEF PUBLIC POLICY OFFICER, ALZHEIMER'S ASSOCIATION
    Mr.  Egge. Thank you very much. Good morning, Chairman 
Cole, Ranking Member DeLauro, and members of the Subcommittee. 
On behalf of the more than 5 million Americans living with 
Alzheimer's disease and their 15 million caregivers, thank you 
for the opportunity to testify before you today.
    I would like to begin by thanking you for the extremely 
important leadership the subcommittee demonstrated in 
addressing Alzheimer's during the 114th Congress. You were 
integral to delivering a much-needed historic increase in 
Alzheimer's funding in Fiscal Year 2016. And for Fiscal Year 
2017, you completed the work to do so again. On that note, we 
ask you to continue to pursue this very important Alzheimer's 
research funding over the coming 2 months.
    The Alzheimer's community is very grateful for your work. 
You have given new hope to Americans that the realities that 
define this disease today can and will change in the years 
ahead. As you are well aware, however, today the realities that 
define this disease remain grim.
    Alzheimer's is a terminal disease with no survivors. Recent 
failures of high-profile Alzheimer's trials underscore that 
Alzheimer's retains the unacceptable distinction of being the 
only one of the top 10 causes of death in America without a way 
to cure, prevent, or even slow progression. It should be no 
surprise then that Alzheimer's has become a top priority of 
Americans. In fact, those middle-aged and older identify 
Alzheimer's by a significant margin as the disease they fear 
most.
    Alzheimer's is also very costly. Another regrettable 
distinction held by Alzheimer's is that according to the NIH 
funded study conducted by Rand economists and published in The 
New England Journal of Medicine, Alzheimer's has grown to 
become the most expensive disease in America. More than two-
thirds of this cost is paid for by Medicare and Medicaid.
    As if all this were not enough to justify an urgent 
response, America's Alzheimer's crisis is set to grow much 
worse in the years ahead. Because Alzheimer's is predominately 
a disease associated with aging and America is predominantly an 
aging society, these numbers will skyrocket between now and 
2050. By 2050, those with Alzheimer's will as much as triple, 
and the associated costs will quadruple to $1,100,000,000,000 
per year, unless, that is, we can change the trajectory through 
the development of effective treatments and a means of 
prevention.
    These facts underscore that America urgently needs this 
subcommittee's continued decisive leadership. But all these 
facts make only half a case. We understand that you not only 
must ensure that you direct limited resources to where the 
needs are great, but also to where the opportunities are great.
    What is more, you need to decide not just whether funds are 
warranted, but how much funding is warranted. These are 
important and difficult questions to answer. Fortunately, in 
the case of Alzheimer's specifically, Congress has put in place 
a policy framework that has provided you with this exact 
information for Fiscal Year 2018, and we urge you to rely on 
it.
    In 2011, the bipartisan National Alzheimer's Project Act 
became law, requiring the creation of a comprehensive national 
Alzheimer's plan. The U.S. Department of Health and Human 
Services released this plan in 2012, containing the lead goal 
to prevent and effectively treat Alzheimer's by 2025.
    Then in 2014, Congress enacted the Alzheimer's 
Accountability Act. This Act requires the National Institutes 
of Health prepare for Congress and the President an annual 
professional judgment budget, sometimes called a bypass budget. 
In this bypass budget for Fiscal Year 2018, NIH director, 
Francis Collins, has stated that the NIH will require 
additional $414,000,0000 in funding to remain on track to 
achieve the plan's 2025 goal. The NIH has done excellent work 
carefully detailing a plan-based budget to decisively address 
this disease. We ask you to fund this plan for the coming 
Fiscal Year.
    When coupled with the facts about the burden of this 
disease that I outlined earlier, we believe that together those 
arresting facts and this thorough NIH budget do make for a 
complete and compelling case for this subcommittee to stay the 
course, a course that has every potential to change the future 
of Alzheimer's disease.
    In sum, on behalf of the Alzheimer's Association and our 
sister organization, the Alzheimer's Impact Movement, we 
commend Congress for creating a process that has equipped this 
subcommittee in an unusually thorough way to answer the 
question of what to provide for Alzheimer's research in Fiscal 
Year 2018. Following this process, NIH scientists have 
indicated to you that they require an increase of $414,000,0000 
in Alzheimer's research funding for the coming year. The 
Alzheimer's Association and the Alzheimer's Impact Movement are 
pleased to adopt this determination by the NIH as our request 
for this subcommittee.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.114
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.115
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.116
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.117
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.118
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.119
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.120
    
    Mr.  Cole. Thank you. I thank the gentleman very much for 
his testimony, and reiterate two points that he made that I 
suspect my good friend from Connecticut would also agree with. 
The first one is we do need to finish up the 2017 bill. And I 
am very worried that the temptation when we hit the deadline on 
April 28th will be to simply continue a CR. If that happens, we 
will lose the opportunity for a significant boost in funding 
for NIH in general, Alzheimer's in particular.
    So, I know you are working hard on this, and so, I do not 
need to urge you to do it, but I want to thank you for doing 
it. And this is a really critical thing. We are thinking a lot 
about 2018, but we need to literally get the work done because 
both the Senate and the House have agreed to prioritize both 
the NIH and Alzheimer's funding.
    So, if we do not get the 2017 bill and we CR, we will spend 
exactly the same amount of money. It just will not go to the 
NIH and Alzheimer's. So, this is something we need to work on 
together. And, again, I know what my friend has been a tireless 
advocate on this as well on her side of the aisle.
    The second thing is, the 2018 budget, as my friend would 
point out, and I will agree with her again, only happens if we 
have, you know, an appropriate allocation level. And, you know, 
I am all in favor of the defense buildup. I am not critical of 
that at all. I think it needs to happen.
    But this is not the place to fund it in my view because, 
you know, I did not think it was particularly good policy when 
President Obama argued that if defense goes up, domestic has to 
go up exactly the same amount. It is just as bad to say if 
defense goes up, domestic spending has to go down exactly. We 
should evaluate each of them independently in my viewpoint, 
sort of break that chain.
    But, again, I thank my friend for making a good case not 
only for the particular cause, but for the larger case of just 
the general allocation this committee receives.
    Does my friend from Connecticut care to----
    Ms.  DeLauro. Well, I think this is an institution that has 
a lot of very well-meaning people on both sides of the aisle to 
do things, but it really moves when there is external pressure. 
I will say this to everybody in the audience. You are the 
external pressure.
    And, you know, I think Chairman is right. We would do well 
if we did 2017. There would be an increase, and then we are 
both very concerned about 2018 and what this might mean. And it 
would be, to say the least, devastating to your interests and 
others here as well.
    So, you need to go back to your groups and associations, 
people who hear from you.
    Mr.  Egge. We will do so.
    Ms.  DeLauro. Thank you.
    Mr.  Cole. Again, appreciate the gentleman's testimony. And 
with that, we will move to the next witness.
    Welcome. It is good to have you here.
    Mr.  Longmire. Good to be here.
    Mr.  Cole. Mr. Joseph Longmire. He is a student with the 
Council for Opportunity in Education, better known around here 
as TRIO. There is no cause that has probably been more 
bipartisan on this committee than that. We have worked hard on 
this program, and we appreciate you very much being here to 
testify.
    The gentleman is recognized for 5 minutes.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                  COUNCIL FOR OPPORTUNITY IN EDUCATION


                                WITNESS

JOSEPH LONGMIRE, JR., STUDENT, COUNCIL FOR OPPORTUNITY IN EDUCATION
    Mr. Longmire. I want to start by thanking Chairman Cole and 
all of the members of the subcommittee for the opportunity to 
be here today to discuss TRIO. I would be remiss if I did not 
also acknowledge my congresswoman, Representative Martha Roby, 
and express my thanks for her support.
    I am a witness to the fact that TRIO is making a huge 
difference in shaping the future of students like me across the 
2nd District of Alabama. TRIO has led so many firsts for me, 
including this visit to Washington, D.C., which marks my first 
experience flying on an airplane and my first time visiting the 
Nation's Capital.
    I grew up in Greenville, Alabama as the oldest of four 
children ranging from ages 8 to 20. My parents have always 
worked extremely hard to provide for my siblings and me. My 
father maintains several jobs, including full time as an order 
filler at the Walmart Mart Distribution Center, as well as a 
barber, mechanic, and handyman. My mother works at a childcare 
center. My parents always encourage my siblings and me to 
achieve as much education as possible.
    Despite their enduring love and support, I had to look 
beyond my immediate family for help in pursuing my higher 
education goals. This is where TRIO stepped in and became like 
another family for me.
    In order to save money, I decided to begin my college 
career at Lurleen B. Wallace Community College. During my early 
days as a student there, I met with the counseling services 
provided by the college, but found that I needed more 
consistent and personalized support. Thankfully, I stumbled 
upon a flyer inviting students to come to an orientation for 
the TRIO Student Support Services Program.
    I did not realize it at the time, but that first meeting 
was my welcome to an educational family that would push me to 
excel. My first year in TRIO was amazing. The director, staff, 
and fellow students consistently proved to be reliable sources 
for help. TRIO's tutoring services were especially critical. 
Even though they performed well academically in high school, I 
struggled with several of my college courses and, at times, 
fear that I would receive failing grades. This was especially 
true of my English class. However, because of the academic 
assistance provided by TRIO, I not only passed these classes, 
but I also earned a few A's along the way.
    As my graduation from community college approached, I found 
myself frustrated about what I wanted to do next. While I knew 
I wanted to be an occupational therapist, I did not know how to 
get there. Once again, it was my TRIO family that helped me 
find my way. The program director and the staff helped me 
navigate the complicated process of transferring to a 4-year 
institution. From deciding where to go to waiving my 
application fees, they were there every step of the way. 
Without their help. I would have found myself among the 72 
percentage of low-income first generation community college 
students who failed to transfer without additional support.
    Nationally, TRIO Student Support Services participants 
chance or at a rate that is 46 percent higher. Thanks to the 
assistance of the TRIO Program at Lurleen B. Wallace Community 
College, last fall I enrolled as a junior at Alabama State 
University where I majored in health rehabilitation. The change 
to a 4-year institution has been dramatic. Coming into a 
situation where I did not know anyone, I felt like a guppy in a 
huge ocean of fish.
    On my first day of classes, I found the TRIO office, and I 
felt like a weight was lifted off my shoulders. I knew that I 
had found my life support for the rest of my college career.
    Today, the TRIO Program at Alabama State continues to give 
me the academic and social support I need in order to succeed. 
This support system has been extremely critical for me as I 
must juggle both my studies and my finances. In addition to 
benefiting from TRIO, I am also a Pell Grant recipient. 
However, financial aid alone does not fully meet my needs.
    So, my course load as a student, I work 30 hours a week as 
an office clerk at Super Foods Grocery Store and as a 
merchandiser for a magazine retailer. While my schedule can be 
overwhelming at times, I know that these years of struggle and 
sacrifice will be worth it. When I graduate, I will be the 
first person in my family to earn a bachelor's degree. However, 
I know with certainty that I will not be the last.
    Because TRIO played such a big role in my college life, I 
made sure that my younger brother, who is now a freshman at 
Lurleen B. Wallace, also got involved with the TRIO Program on 
campus. I can truly say that becoming part of TRIO is one of 
the best decisions that I have made while attending college.
    I would enthusiastically recommend participation in TRIO to 
every college student. It can truly be the difference between 
failing or passing classes, dropping out or persevering to see 
another semester, succumbing to overwhelming pressures or 
learning to thrive amidst adversity.
    I hope this subcommittee will do everything possible to 
increase funding for TRIO so that more students like me will 
have the opportunity to achieve their college dreams.
    Thank you again for the opportunity to testify here today.
    [Applause.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.121
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.122
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.123
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.124
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.125
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.126
    
    Mr. Cole. We want to thank the gentleman for his testimony, 
welcome him to Washington for his first trip up here. I 
certainly hope it is not his last. And just make the point, 
which I know this committee knows well, but since its 
inception, TRIO has produced over 5 million college graduates. 
And I would suggest that is one terrific investment for the 
United States of America to have made because I can assure you, 
those 5 million grads have paid a lot more taxes than we have 
ever spent on Trio.
    This is a program that has a great return for us. Thank you 
for offering such compelling personal testimony for the 
difference it has made in your life, and through you and your 
family's life. It is a very powerful reinforcement for a very 
important program.
    Ms. DeLauro. I would just say thank you very, very much, 
Joseph. What you do is to provide for us and for everyone here 
the veracity that the Federal government has a role in people's 
lives, that it can create, help to create opportunity. And that 
is why this institution of the United States Congress exists. 
And we need to continue to provide opportunity so that we can 
have just remarkable young men like yourself, who will work 
hard not only for yourself, but for your family as well.
    Our congratulations to you, and thank you for being such a 
great role model. Thank you.
    Mr. Cole. Thank you very much. The gentleman is excused. If 
we could have our next witness.
    Welcome. Good to have you here.
    Ms. Campbell. Thank you. Thank you for----
    Mr. Cole. You bet. This is Ms. Autumn Campbell, a former 
caregiver, speaking on behalf of the Older Americans Act. The 
gentlelady is recognized for 5 minutes.
                              ----------                              

                                          Wednesday, March 8, 2017.

                          OLDER AMERICANS ACT


                                WITNESS

AUTUMN CAMPBELL, FORMER CAREGIVER, ON BEHALF OF THE OLDER AMERICANS ACT
    Ms. Campbell. Great. Thank you, Chairman Cole, Ranking 
Member DeLauro, and members of the committee. My name is Autumn 
Campbell, and I sincerely appreciate the opportunity to discuss 
my support for the Older Americans Act.
    I am here today to share my experience as a caregiver for 
my mother and the importance of OAA services in helping me keep 
her at home. However, I should note that my caregiving 
experience also deepened the passion for aging issues, and I 
currently work for the National Association of Area Agencies on 
Aging, on behalf of local aging agencies that coordinate and 
deliver OAA programs across the country.
    So, I always knew that at some point I was going to take 
care of my mom. I am an only child, and she was a single parent 
for most of my life. As she approached her 60s on a teacher's 
salary, I knew that she did not have the financial resources to 
live out her retirement independently, and that I would 
eventually have to meet her care needs. However, I never 
thought that would come when I was 32.
    Unfortunately, shortly after my mom turned 60, she 
developed a quickly progressing and devastating 
neurodegenerative disorder that robbed her of her physical and 
cognitive capacities. This diagnosis also sent me scrambling to 
figure out how to take care of her. After moving her in with me 
and securing Social Security Disability support, I knew that I 
was ultimately facing a choice of quitting my job to care for 
her or putting her in institutional care under Medicaid.
    I called on the local area Agency on Aging, funded in part 
through the Older Americans Act, and they connected me to a 
number of services that helped me keep my mom at home and 
allowed me to continue working full time. For example, 3 days a 
week I dropped my mom off at an adult daycare center where I 
knew she would be loved, fed, entertained, and cared for while 
I went to work.
    The local Aging Agency also provided caregiver respite when 
I desperately needed a break. When my mom's needs became too 
severe to take her to adult daycare, the Aging Agency helped me 
navigate the complicated world of Medicaid, and the local 
ombudsman office, also funded by the Older Americans Act, 
ensured that her application for a Medicaid home and community-
based services waiver was shepherded through the cumbersome 
approval process so that she was not facing institutional 
placement. I could not have navigated my caregiver role without 
Older Americans Act services and the local aging agency. There 
is no doubt that without them I would have left the workforce 
to care for my mom or put her in institutional care funded by 
Medicaid.
    My mom passed away in late 2015, but I am forever grateful 
that I was able to be there for her when she needed me, and 
that OAA programs made this possible. But my story is just one 
of millions about how critical Federal Older Americans Act 
programs are to seniors and caregivers. These essential 
programs help us as a country keep our promises to previous 
generations and care for the people who cared for us.
    OAA is the cornerstone of the Nation's non-Medicaid Home 
and Community-Based Services System. There are dozens of OAA-
funded services that enable seniors to age at home and in the 
community, and a few examples that show the range of the help 
that OAA provides are: in-home care to help with bathing and 
dressing; home delivered meals and congregate meals that 
prevent malnutrition and social isolation; transportation such 
as rides the doctor or the grocery store, information or 
referral assistance; case management and care coordination 
assistance; adult day care to relieve family caregivers; legal 
services to prevent abuse and exploitation; and support and 
training for often overwhelmed family caregivers such as 
myself.
    These services are in high demand nationally, but they have 
very limited Federal resources. Meanwhile, we're facing an 
unprecedented demographic shift as the Nation's baby boomers 
age at a historic pace. Every day 10,000 people turn 65, and by 
2030, 73 million people, or 1 in 5 Americans, will be 65 or 
older.
    For years, funding for Older Americans Act programs has not 
kept pace with annual inflation, let alone a growing need. This 
rapid erosion of funding coupled with this growing need has 
made it increasingly difficult, or even impossible, for local 
agencies to even maintain existing services. As a result, local 
waiting lists are long and they are growing longer.
    This dire situation only intensifies the need for Federal 
investment, especially considering that OAA programs help 
offset future mandatory spending. When seniors are healthier, 
Medicare saves money. When frail older adults get the in-home 
services and support that prevent or delay nursing home 
admission, Medicaid saves money. Why would we not invest in 
flexible, targeted, cost-effective, person-centered care on the 
front end to avoid greater longer-term costs among a growing 
population?
    So, I urge appropriators to carry out the promise that your 
colleagues on both sides of the aisle made last year by 
reauthorizing OAA, and ensure that OAA programs are protected 
from brutal funding cuts. Specifically, I ask that you focus on 
restoring funding to critical programs, such as OAA Title 3(b), 
Supportive Services, and Title 3(e), National Family Caregiver 
Support Program, which have had little to no relief from 
previous cuts despite recent budget deals.
    So, on behalf of the millions of older Americans and their 
caregivers in every community, on behalf of the hundreds of 
local agencies coordinating and delivering services, on behalf 
of one daughter trying to do her best to care for her mother, I 
urge you to protect investments in the Older Americans Act that 
are in the best interests of a rapidly aging population and our 
fiscal health as a country.
    Thank you.
    [The information follows:] 
    [GRAPHIC] [TIFF OMITTED] T7126P7.127
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.128
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.129
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.130
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.131
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.132
    
    Mr.  Cole. I thank the gentlelady for her compelling 
personal testimony as well as the very persuasive case she 
makes. Thank you for being here and testifying today.
    Ms.  Campbell. Thank you.
    Mr.  Cole. I will call on our next witness, please.
    Welcome. Good to have you here. I hope I do not butcher the 
name. It is Ms. Victoria, is it Kitchyan?
    Ms.  Kitchyan. Kitchyan.
    Mr.  Cole. Kitchyan. Thank you. Great, and actually for me 
that was pretty good, though. That was not bad. [Laughter.]
    Great Plains Area Board of Representative of the National 
Indian Health Board. The gentlelady is recognized for 5 minutes 
for testimony.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

VICTORIA KITCHYAN, GREAT PLAINS AREA BOARD REPRESENTATIVE, NATIONAL 
    INDIAN HEALTH BOARD
    Ms.  Kitchyan. Good morning, Chairman Cole, Ranking Member 
DeLauro, and members of the subcommittee. Thank you. On behalf 
the National Indian Health Board, thank you for allowing me to 
testify on the Fiscal Year 2018 Health and Human Services 
budget. My name is Victoria Kitchyan, and I am a member of the 
Winnebago Tribe in Nebraska, and I am also a tribal council 
member. I serve as Treasurer.
    First, I would like to thank the subcommittee for the great 
work that it has done to increase the profile of American 
Indian and Alaska Natives health issues over the last several 
years. Your commitment to these issues has been enormously 
helpful to the tribes, and it has allowed us to work directly 
with the agencies and have some of these hard discussions. So, 
we thank you for that.
    As you are aware, a Federal promise was to provide Indian 
Health Service was made long ago. Our ancestors entered into 
these treaties and agreements, and part of these treatment 
agreements were to provide health service in exchange for 
tribal land and peace. The land and peace was given by the 
Federal government has yet to live up to its trust 
responsibility.
    Our people live sicker. We die younger, on average, 4.5 
five years earlier, and, in some States, up to 20 years 
younger. So, the time has long since passed to address some of 
these shortcomings.
    Though the Indian Health Service continues to serve as the 
primary health provider for American Indians and Alaska 
Natives, funding for that Agency has always been far below the 
need. Additionally, IHS was never designed to be a public 
health system; rather, direct primary care. So, agencies like 
the Center for Disease Control and Prevention, Substance Abuse 
and Mental Health Services Administration, and Centers for 
Medicare and Medicaid Services, all play a crucial and critical 
role in this trust responsibility, and should offer a 
complementary role to Indian Health Service to uphold that 
trust responsibility.
    Public health infrastructure in Indian country is one of 
the most severely underfunded and underdeveloped areas. Like 
States and territorial governments, tribes have both the rights 
and responsibilities to offer vital public health services for 
the communities. Currently tribes are regularly left out of 
these opportunities. State-run health programs simultaneously 
were left and overlooked at the Federal level when agencies 
have opportunities. So, these health initiatives are needed and 
not funded or overlooked.
    One example of this in my tribe is with the Community 
Health Representative Training Program. We are very thankful to 
have that opportunity and to have that funding, but the program 
is driven by the State of Nebraska. It is not tribal 
priorities. So, the grant supports one position where in our 
community we know that cohorts are more successful. Cohorts 
work better, yet we have one position. So, the tribe and other 
tribal have to supplement that where they can and if they can 
to be successful and increase those positions.
    So essentially, we are trying to fit into someone else's 
program, and it is just not working for Indian Country. So 
rather, we would like programs to be designed for the tribe. 
Government should respond to the local needs, and this means 
empowering tribes to have the ability to make their own funding 
decisions on programs like this CHR one I am talking about.
    One way we could do this and help support public health 
infrastructure is supporting direct funding from CDC. NIHB 
requests on behalf of all tribes that in Fiscal Year 2018 
Congress create base funding for tribal communities through the 
Public Health and Health Service Block Grant by allocating at 
least 5 percent directly to tribes. This will enable the public 
health systems in Indian Country to develop consistent, 
sustainable healthcare infrastructure dollars that are driven 
by the tribal interests and the tribal parties, and what 
communities know best are their needs, and not so much an 
opportunity that we try to navigate through, and fit into, just 
for funding purposes. It does not work.
    So, it is well time that tribal communities catch up to 
other Americans when it is the expectation of public health. 
Nowhere is the lack of solid infrastructure and support more 
acute than when it comes to the Mental and Behavioral Health 
Service. American Indians and Alaska Natives grapple with 
complex behavioral health issues. Restructured Federal policy 
through the years, changing political climate, unresponsive or 
harmful human services systems have created unresolved 
historical trauma, intergenerational trauma.
    These wounds created by kill the Indian, save the man, 
these things have left scars, and without the proper resources 
or flexibility to design the programs that we need, we are just 
going to continue to perpetuate this problem and never achieve 
healthier outcomes.
    Tribes request that automatic direct funding go to the 
Mental Health Service Grant and the Substance Abuse Grant. At 
the very minimum, we would like statutory requirements that 
would require the States to consult with the tribes, and also 
show how that is going to roll out and benefit our communities.
    We also request they give priority to Circles of Care 
Program and tribal behavioral health programs. These are some 
of the only ones that are going to tribes, so we would also 
like to protect those and ensure that those continue.
    And last but not least, I would like to touch on CMS and 
the over 40 years the acknowledgment to support tribes with 
CMS, within CMS. So, we need to authorize Medicaid 
reimbursement at IHs and the tribally-operated facilities, and 
to help these facilities continue to provide that 100 FMAP 
where available. And we are pleased to see that this week the 
House healthcare reform legislation included that, so we 
appreciate that, and we look forward to, you know, those 
continue discussions.
    However, with Medicaid given more authority, we also want 
to ensure that the committee has oversight over CMS so that any 
of the applications submitted, waivers are consulted with the 
tribes, and that any of the barriers, like, work, life, time 
limits, or work requirements do not affect the American Indians 
and Alaska Natives, because these barriers only force a bigger 
burden on the Indian Health Service that I also said was 
underfunded.
    So, in conclusion I would just like to reiterate our 
appreciation for the bipartisan commitment. Chairman Cole is 
very active in our issues. And I just want to say that the 
National Indian Health Board believes that with a few dedicated 
resources and a few targeted investments, we can begin to 
address this persistent disparity that is prevalent in Indian 
Country.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.133
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.134
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.135
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.136
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.137
    
    Mr.  Cole. I want to thank the gentlelady for her 
testimony. As she knows, this is something I care very deeply 
about, and we have made significant progress on. But we are so 
far behind that we could make progress for a lot of years and 
not catch up.
    You know, the direct funding, even though it is 
administered by HHS, comes out of the Interior Subcommittee for 
many of these programs, a great majority, Indian Health Service 
in particular, and they have exactly the same challenge we do. 
If we have the kind of allocation for non-defense 
discretionary, they are going to face the same sort of pressure 
in the Interior Committee where I sit as a member. And Chairman 
Calvert, who has been very supportive of these issues is there, 
and our ranking member, Betty McCollum, also is very 
supportive.
    So, your testimony is very timely. The problems are 
terrific. We made a little progress, not enough. And I would 
say it is at risk if we do not do the right thing. So, I 
appreciate the gentlelady's work. I certainly appreciate my 
friends at the Indian Health Board, including my former 
staffer, Catrons, back there who worked for me and has gone on 
to bigger and greater things, but has continued to advance 
important issues in an effective way. With that, I would 
recognize my friend.
    Ms.  DeLauro. Thank you very much, Mr. Chairman. And thank 
you so much for your testimony. And the chairman, this is an 
issue that is near and dear to his heart, and I think you know 
that. But there is also bipartisan support for these efforts.
    And I think one of the other areas that you need to take a 
hard look at is, and I do not know the numbers and I would like 
to know the numbers, of folks who are dependent on Medicaid in 
the community, because I think there is going to be a serious 
challenge with regard to Medicaid as we see with, at least the 
early stage of the healthcare proposal, both to the Medicaid 
Expansion Program, but overall to Medicaid. And if we are not 
careful in that regard, if you are going to shift those funds 
or those responsibilities to our States, and I know that people 
talk about the flexibility of States, but oftentimes what the 
results can be is a rationing of care with regard to this 
effort.
    And so, I think we have to be very, very careful in looking 
at that. And I know you will do that because the need is so 
great in the community that you represent. And we should not go 
back on some of the gains that have been made, but only try to 
move forward.
    So, thank you for your commitment. Appreciate it.
    Mr.  Cole. Again, thank you for your testimony. The next 
witness please.
    Hi. It is great to have you here. This is Jazmin Goodwin, a 
GEAR UP alumni and Howard University student, National Council 
for Community and Education Partnership. The gentlelady is 
welcome and is recognized for 5 minutes to deliver whatever 
testimony she cares to give to the committee.
                                          Wednesday, March 8, 2017.

       NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION PARTNERSHIPS


                                WITNESS

JAZMIN GOODWIN, GEAR UP ALUMNUS AND HOWARD UNIVERSITY STUDENT, NATIONAL 
    COUNCIL FOR COMMUNITY AND EDUCATION PARTNERSHIPS
    Mr.  Goodwin. Chairman Cole, Ranking Member DeLauro, and 
distinguished members of the subcommittee, thank you for 
inviting me to testify on the Gaining Early Awareness and 
Readiness for Undergraduate Programs, or GEAR UP Initiative. I 
am honored to be able to share how GEAR UP transformed my life.
    GEAR UP is a competitive grant program administered by the 
U.S. Department of Education that serves 635,000 students 2,800 
low-income schools across 46 States. GEAR UP empowers local and 
State leaders from K-12, higher education, and community 
organizations to develop partnerships to increase the number of 
low-income students who are prepared to enter and succeed in 
higher education.
    In a nutshell GEAR UP provides students with academic 
interventions, supports families along the complex path to 
college and career, and builds the capacity of schools to 
strengthen the quality of instruction and counseling.
    GEAR UP begins early in the 7th grade, then follows entire 
classes of students through high school graduation and often 
through the first year of post-secondary education. Most 
importantly, the GEAR UP is succeeding. 77.3 percent of the 
GEAR UP class of 2014 enrolled in a post-secondary immediately 
following high school graduation, a rate nearly 32 percentage 
points higher than low-income students nationally.
    My parents were in the U.S. Army. I was born on a base in 
Germany, and my family eventually settled at Fort Jackson in 
Columbia, South Carolina. My mother and grandmother valued 
education, and they made it clear that an education beyond high 
school was critical. My mom even went back to school while 
raising me and working full time, becoming the first in our 
family to earn a college degree.
    Yet, in school not everyone was perceived as college 
material, myself included. I struggled to find my footing in 
middle school and had a very low GPA in 9th grade. The idea of 
higher education seemed out of reach. Yet the GEAR UP staff 
helped change the culture of our schools. They helped me 
discover my talents and interests, challenged me to reach for 
goals I would not have thought possible, and provided me with 
tutoring, mentoring, and support to help me and my family make 
my goals a reality.
    Looking back, GEAR UP changed my trajectory. In the 10th 
grade, my future came into focus when I met admissions officers 
from Howard University through GEAR UP. I made my mind up that 
Howard was my goal, but my path there was not a clear one. Were 
it not for that in-school, after school, and summer programs 
that GEAR UP offered, I likely would not have had the academic 
qualifications to be admitted or to even know how to finance my 
education.
    With GEAR UP, I turned my grades around and made it to 
Howard University where I applied my GEAR UP mindset to pursue 
every opportunity I can. I have earned $31,000 in academic 
scholarships this year, and I am planning on attending law 
school following my graduation in 2018. I remain active in the 
GEAR UP community and met GEAR UP alumni from nearly all the 
States represented by this distinguished committee.
    I have learned that my story is not the exception. GEAR UP 
is improving outcomes in rural and urban communities alike. 
GEAR UP truly works everywhere.
    As students, we frequently hear from policymakers that we 
need to prepare more young people for the complex skills and 
knowledge required by employers. We know that this requires 
education beyond high school, and, frankly, we are ready to 
rise to the challenge. GEAR UP is closing the opportunity, 
preparation, and attainment gap. At an annual investment of 
$505 per student served, GEAR UP pays huge dividends.
    I urge the subcommittee to consider a modest increase for 
GEAR UP to $350,000,000 for Fiscal Year 2018. This will bring 
54,000 new students into the program, continue transforming the 
lives of students and families, and help ensure that our great 
Nation is better prepared for the demands of tomorrow.
    Thank you for the opportunity to speak with you this 
morning.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.138
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.139
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.140
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.141
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.142
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.143
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.144
    
    Mr.  Cole. Well, I want to begin by thanking you. Judging 
from your testimony, you are going to be a pretty formidable 
lawyer someday. [Laughter.]
    It is great to have you here. This is a program where we 
did in 2016 increase the investment, and if we can get that 
2017 bill, there will be another increased investment. And 
then, obviously 2018 depends on the overall allocation.
    But you are exactly right. I have seen this program in 
action. It is very heavily involved in my State, and has 
delivered tremendous gains for students, frankly, that absent 
this would not have had the preparation, the opportunity to 
pursue a degree. So, again it is a wonderful, wonderful 
program, and you are a terrific example of the kind of people 
that come out of this program.
    So, the committee very much appreciates your testimony.
    Ms.  DeLauro. I would just say what he said to Joseph, Mr. 
Chairman. You know, some days we wonder what we do here. I am 
serious. And the TRIO Program and the GEAR UP Program really 
allow for people to realize their dreams. So, that is a noble 
goal of the Federal government to help to realize people's 
dreams.
    Thanks for being here.
    Mr.  Cole. And speaking only for myself, I wonder what I am 
doing here every day. [Laughter.]
    It is not just some days. But, again, thank you very much 
for your testimony.
    Our next witness, please. Thank you very much. Good to have 
you here.
    Mr.  Webb. Good morning.
    Mr.  Cole. You bet. This is Mr. Edwin Webb, the associate 
executive director of the American College of Clinical 
Pharmacy. The gentleman is recognized for 5 minutes to deliver 
whatever testimony he cares to the committee.
                              ----------                              

                                          Wednesday, March 8, 2017.

                 AMERICAN COLLEGE OF CLINICAL PHARMACY


                                WITNESS

C. EDWIN WEBB, ASSOCIATE EXECUTIVE DIRECTOR, AMERICAN COLLEGE OF 
    CLINICAL PHARMACY
    Mr.  Webb. Thank you, Chairman Cole, Ranking Member 
DeLauro, members of the Subcommittee for this opportunity to 
address the subcommittee.
    In my statement and written testimony, we urge your 
continued support of funding for the Agency for Healthcare 
Research and Quality. In addition, I wanted to discuss briefly 
how the comprehensive medication management services of the 
Nation's clinical pharmacists will help Federal healthcare 
programs, such as Medicare and others, deliver better value and 
quality for patients and for our healthcare system. These, of 
course, are goals that we all share.
    ACCP is the professional society for the Nation's leading 
clinical pharmacists. We are the professional home for clinical 
pharmacy practitioners, residents, scientists, and others 
practicing in more than 60 countries. Like our members, we are 
committed to excellence in clinical pharmacy practice and 
patient pharmacotherapy.
    Unlike pharmacists with which you are likely most familiar, 
clinical pharmacists generally do not engage in the dispensing 
of medications. While the safe and efficient distribution of 
medications is an important component of pharmacy practice, 
clinical pharmacists' practice commonly occurs directly with 
physicians and other health professionals on the patient's 
healthcare team to ensure that the medications prescribed for 
those patients actually achieve the best possible clinical 
outcomes.
    To prepare for this practice, clinical pharmacists are 
educated and trained in team-based direct patient care 
environments. They are frequently granted patient care 
privileges by collaborating physicians and health systems. 
These privileges allow them to perform a full range of 
medication decision making functions and management functions 
for their patients. These privileges are granted on the basis 
of demonstrated knowledge of medication therapy and clinical 
experience gained through post-graduate residency training and 
specialist board certification, both of which are expected in 
addition to standard training for pharmacist licensure.
    An important word about the Agency for Healthcare Research 
and Quality. ACCP strongly supports the mission and goals of 
AHRQ. We urge the subcommittee to protect the AHRQ budget by 
providing at least $334,000,000 in budget authority consistent 
at least with current Fiscal Year levels.
    AHRQ is the only Federal agency with the sole purpose of 
evaluating and disseminating research that determines how to 
make care as effective, efficient, and affordable as possible. 
The work of AHRQ is vital to the work of clinical pharmacists 
and their colleagues, in hospitals, clinical practices, and 
other health care delivery settings.
    Our members are dedicated to helping transform healthcare 
delivery in America by adopting patient-centered, collaborative 
healthcare approaches that deliver better care, smarter 
spending, and healthier people. AHRQ supports research and 
communication programs that help reinforce the value of that 
approach. Therefore, we urge you to support AHRQ and its 
mission through adequate funding.
    As this subcommittee and all of Congress consider ways to 
strengthen and improve the Nation's healthcare system, ACCP 
also urges support for comprehensive medication management 
services. It is practiced by clinical pharmacists as members of 
inter-professional teams. It is a collaborative process that 
helps ensure that all medications taken by the patient are 
effectively coordinated, achieve their intended clinical goals, 
and improve patient outcomes. In short, CMM helps get the 
medications right.
    Top healthcare experts recognize CMM as a significant 
advance in quality of care. It is fully supported by the 
Patient-Center Primary Care Collaborative. It is emerging as a 
standard of care for integrated private sector health systems, 
like the Cleveland Clinic, Geisinger Health System, Kaiser 
Permanente, and others. And it is also recognized within 
important Federal programs, such as the Public Health Service, 
State Medicaid programs, and the VA.
    It can be effectively operationalized under collaborative 
drug therapy management agreements that have been duly 
authorized in 49 States, or through credentialing and 
privileging systems established by individual health systems.
    We believe that coverage for CMM and Medicare is a key part 
of helping move all of healthcare to a more value-based, 
collaborative, and efficient system. We fully understand that 
the Medicare statutes are not within the subcommittee's 
specific jurisdiction, but we know that you are vitally 
interested as a committee and a subcommittee on efficiency and 
value in our Federal healthcare programs. We, therefore, urge 
your support for the dialogue that is beginning two floors down 
today and going forward to advance this notion of quality of 
care.
    Congress has focused many years on addressing problems 
associated with suboptimal and inefficient medication use. We 
believe the time is opportune to truly help patients get their 
medications right by making sure that team-based and patient-
centered care around their medications is part of the care that 
they are being offered.
    Thank you so much for this opportunity.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.145
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.146
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.147
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.148
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.149
    
    Mr.  Cole. I thank the gentleman very much for his 
testimony and being very patient. You have been here from the 
very beginning, so thank you very much.
    I would be remiss, I want to take a point of personal 
privilege. I see in the back room my good friend, Arnold 
Mitchem, who is the president and founder of the, what is it, 
Council for Economic Opportunity.
    Dr.  Mitchem. Council for Opportunity in Education.
    Mr.  Cole. There you go. And nobody has done more to help 
create these TRIO graduates that you have seen around here that 
gave such compelling testimony earlier today than the gentleman 
in the back of the room. So, it is a pleasure to have my friend 
here.
    With that, thank you very much. Next witness?
    Welcome.
    Ms.  Artiga. Good morning.
    Mr.  Cole. Good to have you here.
    Ms.  Artiga. It is an honor to be here. Thank you for 
having me.
    Mr.  Cole. It is an honor to have you. Ms. Samantha, is it 
Artiga?
    Ms.  Artiga. Artiga.
    Mr.  Cole. Artiga, okay. Very good. I would like to take 
credit, but my capable clerk corrected my mispronunciation 
immediately. Ms. Artiga is director of Disparities Policy 
Project at the Henry J. Kaiser Family Foundation. The 
gentlelady is welcome and recognized for 5 minutes to deliver 
her testimony.
                              ----------                              --
--------

                                          Wednesday, March 8, 2017.

                 THE HENRY J. KAISER FAMILY FOUNDATION


                                WITNESS

SAMANTHA ARTIGA, DIRECTOR, DISPARITIES PROJECT, THE HENRY J. KAISER 
    FAMILY FOUNDATION
    Ms.  Artiga. Chairman Cole, Ranking Member DeLauro, thank 
you so much for having me here and for the opportunity to 
testify.
    The Kaiser Family Foundation is a nonprofit health policy 
organization, so I am not taking the advocacy position or 
requesting any specific funding. But I did want to use this as 
an opportunity to emphasize the importance of continuing to 
support efforts to address health and healthcare disparities in 
our Nation. This is a particularly important and timely issue 
to address given the transformation of healthcare in recent 
years under the Affordable Care Act and the changes being 
considered to healthcare right now by this Congress.
    Health and healthcare disparities are differences between 
groups in their health status and their ability to obtain the 
medical care that they need, which are rooted in historic 
economic, social, and racial disadvantages. Addressing 
disparities is not only important from a social justice 
standpoint, but also for improving our overall Nation's health, 
and for reducing unnecessary healthcare costs. With the 
projections estimating that we will be a majority/minority 
nation by 2044, it is increasingly important that we address 
these disparities.
    Today many groups face disparities. People of color and low 
income individuals face more barriers to obtaining the care 
they need and experience poor health outcomes compared to 
whites and those with higher incomes. As an example, blacks 
have higher rates of chronic disease, like asthma and diabetes, 
and their infant mortality rate is more than twice as high as 
the rate for whites. Although disparities are often viewed 
through the lenses of race and income, they also occur across 
other dimensions, including language, location, and sexual 
orientation.
    In recent years, there have been advancements in reducing 
disparities that reflect an increased Federal focus on 
disparities as well as provisions within the Affordable Care 
Act. Specifically, ACA investments through discretionary 
programs to support public health and prevention services and 
enhance the healthcare workforce and delivery system supported 
reduction of disparities. For example, the ACA boosted funding 
for community health centers, included initiatives to increase 
the number of providers, and created the Prevention and Public 
Health Fund, which I believe was already mentioned this 
morning.
    In addition, the Affordable Care Act's Medicaid and 
marketplace health coverage expansions led to large gains in 
health insurance among low-income individuals and people of 
color which helped to narrow the longstanding disparities they 
face in health coverage. If maintained, coverage gains will 
help reduce disparities in access to care as well as health 
outcomes over the longer term.
    Despite this progress, challenges remain. Differing state 
decisions to implement the ACA Medicaid expansion to low-income 
adults widen geographic disparities in coverage. States that 
have expanded have experienced larger gains in coverage and 
more improved access to care than the States that have not. And 
those States that have not expanded are largely concentrated in 
the South, a region home to many people of color that has high 
rates of chronic disease and poor health.
    Moreover, although disparities in coverage by race and 
income have narrowed, low-income people and people of color 
remain significantly more likely to be uninsured, and these 
disparities persist among our Nation's children. For example, 
Hispanic children are twice as likely as white children to be 
uninsured, and the uninsured rate among American Indian and 
Alaskan Native children is nearly 5 times as high as the rate 
for white children.
    As we look forward, there is much at stake for health and 
healthcare disparities as this Congress considers future 
funding decisions and broader healthcare reforms. The newly 
released American Health Care Act would likely erode recent 
progress and have significant negative effects on disparities. 
The changes to Medicaid would disproportionately affect people 
of color and low-income people for whom the program is a 
central source of coverage. Notably, more than half of all our 
Nation's children of color rely on Medicaid.
    Its proposal to cap Federal Medicaid financing would lead 
to a fundamental shift in the Federal commitment to States to 
support care for individuals with the greatest health needs and 
lowest incomes. The cap would limit growth to a pre-set amount, 
and if State costs exceed capped amounts, they would need to 
increase State spending or make program cutbacks. Capped 
funding would also lock in historic differences across States 
and benefits and spending. Moreover, the elimination of the 
enhanced Federal funding for the expansion would likely result 
in eligibility reductions and losses in coverage that would 
disproportionately affect low-income people on people of color.
    Reductions in health coverage would also increase strains 
on other parts of the healthcare system, including community 
health centers and public health programs. However, the act 
would also eliminate funding for the Prevention and Public 
Health Fund, which several governors have cited as a key 
component to support their public health and prevention 
activities.
    Amid this uncertainty to changes in health insurance, 
coverage support for public health and prevention services, and 
a healthcare workforce and delivery system that can adequately 
meet the needs of our increasingly diverse population, is more 
important than ever.
    Thank you again for this opportunity. I hope you find these 
remarks useful for your future deliberations and work.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.150
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.151
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.152
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.153
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.154
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.155
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.156
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.157
    
    Mr. Cole. I thank the gentlelady very much for coming and 
testifying before the committee. We do not often get people to 
come and do not ask for money. [Laughter.]
    Mr. Cole. You know, you are a delightful witness to have.
    Ms. DeLauro. And I just wanted to just add, thank you for 
the information and the data. Oftentimes we speak anecdotally, 
and we cannot where it really will affect the healthcare people 
in this Nation and what the elimination of the Prevention Fund 
would do, and, again, I mentioned earlier what the cutbacks in 
Medicaid would do. But that is based on sound data and 
research, and that is the basis on which we can proceed.
    So, I very much thank you.
    Ms. Artiga. And that is the business of our foundation is 
data.
    Ms. DeLauro. Thank you very, very much.
    Ms. Artiga. So, if we can ever be of assistance, please let 
us know.
    Ms. DeLauro. Thank you. Appreciate it.
    Ms. Artiga. Thank you.
    Mr. Cole. Thank you. Thank you for your testimony. Next 
witness please?
    Our order has changed. Mr. William Kohlhepp, president of 
the Physician Assistant Education Association. I hope I did not 
butcher your name too bad.
    Dr. Kohlhepp. Very nicely done.
    Mr. Cole. Okay, I appreciate that. You have already scored 
points with the chair, whether it is true or not. The gentleman 
is recognized for 5 minutes for whatever testimony he cares to 
deliver to the committee.
                              ----------                              

                                          Wednesday, March 8, 2017.

               PHYSICIAN ASSISTANT EDUCATION ASSOCIATION


                                WITNESS

WILLIAM KOHLHEPP, M.D., PRESIDENT, PHYSICIAN ASSISTANT EDUCATION 
    PROGRAM
    Dr. Kohlhepp. Great. Chairman Cole, Ranking Member DeLauro, 
and members of the subcommittee, thank you for the opportunity 
to speak to you today and to ask for your continued support of 
Title 7 primary care training and enhancement grants. These 
grants provide funding for curricular innovations, faculty 
development, access to care for underserved areas, and 
workforce diversity in the physician assistant profession, 
which I will refer to as PA.
    I am also here today to inform the committee about a 
critical situation that PA education programs face in accessing 
sufficient clinical education sites to train our students with 
patients.
    My name is Dr. William Kohlhepp, and I am president of the 
Physician Assistant Education Association, PAEA, and dean of 
the School of Health Sciences at Quinnipiac University. I speak 
to you today to underscore the importance of PA education and 
how PAs enhance inter-professional teams in our evolving 
healthcare system. We recommend $12,000,000 in funding to 
support PA education in Fiscal Year 2018 to enhance program 
innovation and the recruitment, training, and development of 
students and faculty at PA programs nationwide.
    The PA Program was created 50 years ago in response to a 
shortage of primary care physicians. PAs are educated as 
generalists, and we have a unique flexibility to fill gaps in 
both primary care and in specialties. PAs spend 2,000 hours in 
clinical training, second only to our physician colleagues in 
time devoted to training with patients. PAs enter primary care 
more than any other specialty.
    Increasing demand for PAs has meant rapid growth of the 
profession. We have grown from three graduates to more than 
110,000. PAs are now licensed to practice medicine, including 
prescriptive authority, in every State and D.C. The pipeline to 
our profession is strong with the Bureau of Labor Statistics 
projecting a 30 percent increase in the number of PA positions 
between 2014 and 2024.
    PA programs are well positioned to continue increasing our 
output of PAs who can help meet the changing healthcare needs 
of the nation. However, efforts to increase the number of PA 
graduates must contend with one major barrier: the critical 
shortage of clinical training sites. We are trapped in somewhat 
of a vicious cycle. Projected shortages of clinicians have led 
to health professions to try to increase numbers of clinicians 
they graduate, which in turn increases pressure on clinical 
sites. At the same time, clinicians are facing new demands for 
increased productivity and implementation of new electronic 
health records, which has forced many potential preceptors to 
reduce their commitment to education.
    Finally, supply and demand pressures have led some programs 
to pay for clinical sites. More than a third of programs report 
paying for some or all sites, an increase of 14 percentage 
points since 2012. Surveys indicate that 95 percent of program 
directors are concerned about clinical site opportunities, and 
that nearly half report that the payment trend has negatively 
affected plans to increase enrollment.
    Federal investments can help break this cycle. Title 7 
funds help improve clinical education and help programs to 
recruit applicants from disadvantaged and minority backgrounds. 
But Federal funding has not kept pace with program growth. 
Today there are 218 PA programs, yet the most recent training 
and primary care program competition funded only 13 programs 
out of that 218.
    PAEA's request for $12,000,000 to expand the capacity of PA 
education is an investment in improving access to primary care, 
which can reduce future healthcare costs. Federal incentives to 
encourage clinicians to precept PA and other students are a 
promising strategy for relieving the clinical site crisis, and 
would also promote inter-professional education.
    PAEA welcomes the opportunity to work with you to explore 
policies that will create a supportive environment for 
preceptors and lower barriers to accepting students into their 
practices. The number of PA programs in the congressional 
districts represented by this subcommittee total 55 out of the 
218. This committee has a real interest in PA program 
education. We invite you to see those programs in person.
    Regardless of how healthcare reform plays out, the Nation's 
need for highly-trained will remain. Thank you for the 
opportunity to testify today.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.158
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.159
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.160
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.161
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.162
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.163
    
    Mr. Cole. I want to thank the gentleman very much for his 
testimony and for highlighting a really important issue that we 
have, which is simply the lack of personnel to cover the needs 
of our population, whatever our system of health care delivery 
happens to be. Very valuable and very timely.
    Dr. Kohlhepp. Thank you.
    Ms. DeLauro. Let me just say thank you to you, Bill, for 
the work that you do and for the work that Quinnipiac does.
    Dr. Kohlhepp. Thank you, Congresswoman.
    Ms. DeLauro. Really are outstanding. And as the Chairman 
would point out, if we could get the 2017 bill out, we could 
have the opportunity for some increased or for some, you know, 
flat funding. But nevertheless, we would have some, you know, 
some resources there to deal with. But thank you very, very 
much for your testimony.
    Mr. Cole. Well, on a totally unrelated issue, thank you for 
the polling at Quinnipiac. [Laughter.]
    As an old pollster, I love that stuff, and actually one of 
my friends, Peter Brown, is associated with your program. It is 
very----
    Ms. DeLauro. Mr. Chairman, that program was established 
many, many, many, many, many years ago by a wonderful 
individual, whose name was Paul Falcigno. He has since passed 
on, but he served on the New Haven Board of Alderman with my 
mom all those years ago. So, I feel very proprietary about 
Quinnipiac, the polling, and the great work they do here. 
Thanks.
    Dr. Kohlhepp. Our School of Health Sciences does great 
work.
    Ms. DeLauro. Amen.
    Dr. Kohlhepp. But I will give the prop out to the hockey 
team and to the poll.
    Ms. DeLauro. Amen. Amen.
    Dr. Kohlhepp. Thank you for the opportunity to testify.
    Ms. DeLauro. Thank you.
    Mr. Cole. Thank you very much. Our next witness please? 
Welcome.
    Ms. Renner. Good morning.
    Mr. Cole. Good. Megan Renner, good to have you here. The 
executive director of the U.S. Breastfeeding Committee. And the 
gentlelady is recognized for 5 minutes for whatever testimony 
she cares to give the committee.
                              ----------                              

                                          Wednesday, March 8, 2017.

                      U.S. BREASTFEEDING COMMITTEE


                                WITNESS

MEGAN RENNER, EXECUTIVE DIRECTOR, U.S. BREASTFEEDING COMMITTEE
    Ms. Renner. Thank you. Chairman Cole, Ranking Member 
DeLauro, and members alert and members of the subcommittee, 
thank you for the invitation to present public witness 
testimony today. My name is Megan Renner, and I am the 
executive director of the U.S. Breastfeeding Committee, an 
independent, nonprofit coalition of more than 50 national 
organizations, with a network of State and local coalitions in 
all 50 States working collaboratively to create a landscape of 
support for breastfeeding families across our Nation.
    Breastfeeding is a proven primary prevention strategy, and 
the first food of breast milk builds a foundation for lifelong 
health and wellness. The evidence for the value of 
breastfeeding to children's and women's health is scientific, 
solid, and continually being reaffirmed by new research. 
Compared with formula fed infants, we know that those who are 
breast fed have a reduced risk of several acute illnesses in 
infancy as well as of SIDS and the debilitating disease of 
necrotizing enterocolitis that preemies can suffer from.
    In the longer term, mothers and children have a reduced 
risk of several chronic diseases, including obesity, diabetes, 
and asthma in children, and diabetes, cardiovascular disease, 
and breast and ovarian cancers in women. Yet these impacts 
beyond families, of course, also benefiting our Nation's 
employers and our economy.
    An updated and consolidated study just published in 2016 of 
both the maternal and pediatric health outcomes and associated 
costs showed that if 90 percent of our Nation's infants were 
breastfed according to medical recommendations, annually we 
would prevent 3,340 deaths, $3,000,000,000 in medical costs, 
and $14,200,000 in the costs of premature death.
    Everyone can, of course, agree that the decision to 
breastfeed is a personal one, and a mother should not be made 
to feel guilty when she cannot or chooses not to breastfeed. 
Yet we know the great majority of pregnant women and new 
mothers want to breastfeed, and 81 percent start out 
breastfeeding in the hospital. Despite this initial success, 
however, 6 in 10 breastfeeding mothers stop earlier than they 
intend. They are unable to reach their own personal goals due 
to a number of identified key barriers to breastfeeding.
    These obstacles, dubbed the booby traps by one of our 
member organizations, can be addressed through simple cost-
effective interventions. And that is why in 2011, Surgeon 
General Regina Benjamin launched the Surgeon General's Call to 
Action to support breast feeding, outlining 20 concrete action 
steps that would have the greatest impact across six different 
sectors of society.
    So, our priority recommendations address several of the 
surgeon general's 20 action steps by a robust collective action 
that cuts across multiple sectors. We believe there is great 
promise in the coordinated and collaborative approaches used by 
the Centers for Disease Control and Prevention to further cost-
effective public health actions to increase healthy eating and 
physical activity.
    So, on behalf of the more than 3 million U.S. families that 
choose to breastfeed their newborns every year, I respectfully 
urge the subcommittee to sustain the bipartisan support for 
effective and innovative initiatives to support breastfeeding 
families, especially by a continuation of this funding for the 
CDC's Division of Nutrition, Physical Activity, and Obesity, 
supporting Breastfeeding Families Program at the original 
requested amount of $50,000,000 a year. Congress has dedicated 
funding to this program for more than 5 years, and the impact 
of these investments has already been substantial with a 
special emphasis on maternity care practice improvement and 
continuity of care.
    We know the maternity care experience can influence both 
breastfeeding initiation and later infant feeding behavior, and 
the CDC collects data every 2 years through a national survey 
of maternity practices. The results of the 2015 survey showed 
that on average, U.S. hospitals scored 79 out of a possible 100 
points, which is an increase from an overall national score of 
just 63 in 2007 and 70 in 2011. By another measure over the 
same period, the percentage of hospitals implementing a 
majority of the recommended practices has increased from 29 
percent in 2007 to 62 percent in 2015.
    These current CDC breastfeeding initiatives are also 
addressing the need to ensure healthcare professionals have 
sufficient knowledge and skills to increase access to 
professional and peer lactation support, and to support 
employers and child care providers to implement breastfeeding 
supports that have a critical impact when families return to 
work or school.
    Additional recommendations that we would like to put forth 
include directly funding the HHS Office of Women's Health, 
breastfeeding support programs, especially the initiatives to 
provide resources to employers to support nursing mothers in 
the workplace, and to support and inform breastfeeding mothers 
via the Your Guide to Breastfeeding, the It's Only Natural 
Campaign, and the OWH Women's Health Help Line.
    We also urge the subcommittee to address obstacles to 
greater availability of safe banked donor human milk for 
fragile infants by funding the Agency for Healthcare Research 
and Quality, to conduct a systematic review of evidence and a 
study on federal regulation and support of donor milk banks, 
and by funding the Health Resources and Services Administration 
to establish evidence-based clinical guidelines.
    Finally, we would like to also express support for 
continued funding of several affiliated programs, and ensuring 
incorporation and expansion of breastfeeding support within 
them, including the Reach Program, Racial and Ethnic Approaches 
to Community Health, the National Early Care and Early Care and 
Education Collaboratives under CDC, and within HRSA, the Title 
5 Maternal and Child Health Block Grant, especially the special 
projects of regional and national significance, Healthy Start, 
and the MIECHV Home Visiting Program.
    Thank you again for this opportunity to share our 
recommendations. We are extremely grateful to the subcommittee 
for your sustained efforts to support these programs. Thank 
you.
    Mr. Cole. Thank you very much, the gentlelady, for her 
testimony. Next witness please.
    Welcome.
    Dr. Dalal. Thank you.
    Mr. Cole. Good to have you here.
    Dr. Dalal. Nice to be here.
    Mr. Cole. You will have to bear with me. Dr., is it Mehul 
Dellah?
    Dr. Dalal. Dr. Mehul Dalal.
    Mr. Cole. Mehul Dalal. Well, thank you very much for your 
indulgence, and it is great to have you here as a witness. The 
gentleman is the president of the National Association of 
Chronic Disease Directors. The gentleman is recognized for 5 
minutes for whatever testimony he cares to present to the 
committee.
                              ----------                              

                                          Wednesday, March 8, 2017.

           NATIONAL ASSOCIATION OF CHRONIC DISEASE DIRECTORS


                                WITNESS

MEHUL DALAL, M.D., PRESIDENT, NATIONAL ASSOCIATION OF CHRONIC DISEASE 
    DIRECTORS
    Dr. Dalal. Thank you, Chairman Cole, Ranking Member 
DeLauro, and members of the committee for allowing me to 
testify on behalf of the National Association of Chronic 
Disease Directors, which I will refer to NACDD.
    My name is Mehul Dalal. I am currently serving my term as 
the president of board of directors for NACDD, and I am the 
State chronic disease director in Connecticut. Specifically, I 
want to express our strong support for increased funding for 
key chronic disease programs at CDC. Simply put out the grant 
and support of the CDC, most States would have an extremely 
limited ability to address these critical public health issues.
    These investments, as detailed in our written testimony, 
work to prevent disease in the first place, which in turn 
contributes to the economic productivity of the workforce, 
educational outcomes for children, and fitness levels for 
military recruits, and helps counteract the skyrocketing 
healthcare costs.
    NACDD is a nonprofit public health organization that serves 
chronic disease program directors of each State and U.S. 
jurisdiction, and connects more than 6,000 chronic disease 
practitioners across the country. We represent a core sector of 
governmental public health, and we work closely with our 
executive and State territorial health agency leaders as well, 
as our governors and state legislatures.
    Poor health of the population can exert a tremendous force, 
unemployment rates, interest costs, and other tangible factors 
that ultimately affect our ability to maintain a strong global 
economic position. The primary driver of costs in healthcare is 
chronic disease. According to the CDC, chronic disease accounts 
for approximately 75 percent of the Nation aggregate healthcare 
spending, or an estimated $5,300 for every individual in the 
U.S.
    Treatment of chronic disease constitutes an even larger 
portion of spending, 96 cents per dollar for Medicare and 83 
cents per dollar for Medicaid. As the American population ages, 
more people are categorized as high risk for multiple chronic 
diseases, and these health care costs are projected to continue 
their rise.
    State public health chronic disease prevention and control 
programs are key in improving the Nation's health and 
counteracting the rise in healthcare costs. States are 
implementing diverse and cost-effective strategies that worked 
to prevent diabetes, reduce heart disease and stroke, and 
promote fitness and nutrition in order to reduce the disability 
and costs associated with these conditions. As an example, in 
the New Haven area, CDC resources have supported us to work 
with community health centers and identify over 16,000 at-risk 
patients, and implement programs in the clinics and in the 
communities that educate and empower hundreds of patients to 
take charge of their own conditions.
    In one instance, a community health worker identified a 55-
year-old woman with diabetes who did not have a primary care 
physician. In addition to linking her to a primary care doctor, 
our program provided her with a gym membership and health 
coaching services. And with this support, she herself developed 
her own individualized fitness plan where she focused on Zumba 
and weightlifting. Over time she reduced her need for diabetes 
medications pills from six pills a day to a half a pill a day, 
and she dropped in size from a size 12 to a size four. And from 
the physician's standpoint, what I am interested in, she 
reduced her blood pressure by 10 percent, blood cholesterol by 
23 percent, and her blood sugar by 31 percent. Her family was 
so impressed by the success that she now is a source of 
encouragement and advice to her brother, her sister, her 
sister-in-law, who have all gone on to adopt healthy life 
changes.
    Multiply these examples by the tens of thousands across the 
Nation, and you can see how by working with large groups of 
people outside of the more expensive medical settings of 
clinics and doctors' offices, we are a good investment that 
saves healthcare dollars for Medicaid and Medicare and the 
entire health care system. Many of our program's approaches 
were developed by this committee's investments in NIH and the 
CDC, and without the work of my colleagues some of the 
wonderful findings of Federal research would sit on the shelf 
and never realize its full potential to improve health.
    The Prevention and Public Health Fund, also known as the 
Prevention Fund authorized on the Affordable Care Act, supplies 
more than 12 percent of the CDC budget, providing essential 
funds to help States keep communities healthy and safe. The 
Prevention Fund supports programs like the 317 Immunization 
Program, chronic disease prevention programs, and the entire 
Preventive Health Block Grant, which is the only source of 
flexible funding for the States and U.S. territories to 
American Indian tribes and the District of Columbia to tailor 
preventive and health promotion programs to their population's 
specific needs.
    Today only a small fraction of the United States 
governmental health investment supports prevention and health 
promotion. Substantial investment in the CDC and the state 
health departments are necessary for a real impact to be made. 
These programs must include increased resources for every State 
to address State-specific public health challenges, diabetes 
prevention and control, heart disease prevention, and improving 
physical activity and nutrition.
    Public health programs work to improve care, prevent 
disease, and prevent complications of disease. An investment in 
chronic disease prevention and control programs saves lives, 
improves the quality of life, and saves healthcare dollars.
    Thank you for allowing me this opportunity to appear before 
you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.164
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.165
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.166
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.167
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.168
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.169
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.170
    
    Mr. Cole. I want to thank the gentleman very much for his 
testimony and particularly for the focus on CDC. We get a lot, 
and appropriately, a lot of focus on NIH and the splendid work 
they do. But I always like to say, you know, the CDC is every 
bit as important in defending the lives of Americans as the 
Pentagon is, and in some ways more. You are more likely to die 
in a pandemic than you are in a terrorist attack.
    And these long-term contributions of changing lifestyle are 
really priceless investments. As you pointed out in your 
testimony, the money saved on the back end in Medicare and 
Medicaid is just unbelievable. So, I thank the gentleman for 
his focus on a very important issue for this committee.
    Dr. Dalal. Yeah, thank you for your support.
    Ms. DeLauro. Thank you, Mr. Chairman, and welcome, Dr. 
Dalal. Thank you very, very much for the work that you do. I 
think that the chairman talked about the work of the CDC in 
this area. And what this is about is the strengthening of our 
States and their ability to cope with the issue of chronic 
disease. And it is not situated here, but it is in the States, 
and providing those funds to the States is critical.
    The other point that you make, I think we have to be very, 
very careful if we are looking at eliminating the Prevention 
Fund albeit in 2017. And in addition to that, actually the 
Prevention Fund was a backup and a way in which we could look 
to provide critical funding in a number of areas which the CDC 
has laid out over the years. But if we are going to be in the 
business of cutting back on appropriations, Mr. Chairman, and 
if we are going to eliminate the Prevention Fund, we are really 
going to put people at grave risk and not take advantage of the 
expertise and the dedication of folks who are trying to deal 
with chronic disease when we know that 70 percent of the 
population is dealing with a chronic illness.
    So, thank you very, very much. Where do you live in New 
Haven?
    Dr. Dalal. In the East Rock neighborhood.
    Ms. DeLauro. All right. Okay. Thank you.
    Dr. Dalal. I think we are neighbors.
    Ms. DeLauro. We are neighbors. Thank you.
    Mr. Cole. Next witness, please.
    This is Ms. Lynnetta, is it Kopp?
    Ms. Kopp. Kopp.
    Mr. Cole. Kopp. Thank you for correcting me. President of 
the National Senior Corps Association. The gentlelady is 
recognized for 5 minutes to deliver whatever testimony she 
cares to the subcommittee.
                              ----------                              

                                          Wednesday, March 8, 2017.

                 THE NATIONAL SENIOR CORPS ASSOCIATION


                                WITNESS

LYNNETTA KOPP, PRESIDENT, THE NATIONAL SENIOR CORPS ASSOCIATION
    Ms. Kopp. Thank you. Chairman Cole, Ranking Member DeLauro, 
members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss funding for the three Senior 
Corps programs administered by the Corporation for National and 
Community Service. Those programs are the Foster Grandparent 
Program, the RSVP Program, and the Senior Companion program.
    The funding levels we are requesting today are as follows: 
for the Foster Grandparent Program, $107,702,000; RSVP, 
$63,000,000; and Senior Companion Program, $45,512,000.
    My name is Lynnetta Kopp, and I testified today as 
president of the National Senior Corps Association, 
representing the interest of Senior Corps directors, 
volunteers, and the people and communities we serve. I also 
bring regards from my colleagues in the leadership of the 
National Association of Foster Grandparent Directors and the 
National Association of RSVP directors, who also embrace this 
request.
    Senior Corps is a federally authorized and funded network 
of National Service programs that provide individuals age 55 
and better an opportunity to share their life experience 
through volunteer service, meeting unmet community needs in our 
community. I have had the pleasure of being an RSVP director 
and a foster grandparent director in Lacrosse, Wisconsin for 
the past 14 years. I come before you today advocating for 
funding for the continuance of these three Senior Corps 
programs.
    The requested funding would restore the level to 20 percent 
of the cut, which RSVP lost over 100,000 volunteer positions. 
This funding would also provide sufficient funding to sustain 
the Foster Grandparent Program and Senior Companion Programs at 
their current levels.
    The new Administration will be presenting the Fiscal Year 
2018 budget shortly, which may eliminate funding for the 
Corporation of National Community Service. And to coin a 
phrase, this would be penny wise and pound foolish. Not only 
have these programs enjoyed bipartisan support from members of 
Congress, including those of you who are serving on this 
committee, these programs are incredibly cost-effective. For 
every $1 spent on volunteer service in our Nation, our 
communities reap a nearly tenfold return in the Foster 
Grandparent Program and the Senior Companion Program, and even 
more so from a return on their investment in the RSVP Program, 
given the low cost per volunteer for this program.
    The two stipend programs, Foster Grandparent and Senior 
Companion Program, provide low-income seniors with an 
opportunity to serve. And in the case of the Foster Grandparent 
program, it allows them to serve at-risk students and 
disadvantaged youth and homebound and frail seniors through the 
Senior Companion Program. There is not a day that goes by that 
our Senior Corps directors do not receive testimonials on the 
value of the service that this program provides.
    RSVP matches individuals' personal interests with those 
skills and volunteers with opportunities to fill these unmet 
community needs. As the largest senior volunteer organization 
in the Nation, RSVP has been improving the lives of their 
neighbors and friends since 1971, meeting the unmet needs in 
our communities, whether it is helping prepare tax returns, 
provide transportation services, offer respite to caregivers, 
tutor children, repair homes, support veterans and military 
families, or assist victims of disaster areas. These are just a 
few of the things that these programs help to do.
    RSVP volunteers served 329,000 veterans through 
transportation and employment services, referrals and 
mentored--I am sorry--more than 78,000 children, provided 
independent living services to 797,000 adults, and primarily 
those were frail seniors. Also, provided respite services to 
20,300 families, engaged 20,100 veterans who serve as RSVP 
volunteers, and leveraged an additional 18,500 volunteers to 
support RSVP activities.
    All told, roughly $200,000,000, which funds the Senior 
Corps, provides a $2,300,000,000 return on investment. And 
according to data compiled by the independent sector, more than 
25,000 foster grandparents supported by this request would 
contribute 24 million hours of service. This is valued at over 
$565,000,000. This would enhance 62 million hours of service, 
which is valued at over $1,000,000,460 based on the independent 
sector data, which averages a volunteer hour at $23.56. And the 
more than 12,000 senior companions underwritten by this budget 
would provide 12.2 million hours or service, valued at 
$287,432,000, helping roughly 61,000,000 older frail seniors in 
our community.
    The Senior Corps has over 45 years of successful 
performance measurement, and we do have a return on our 
investment. While great value is derived by the beneficiaries 
of senior service, the benefit to those who serve is tangible 
and measurable. By keeping seniors active and involved, Senior 
Corps keeps older Americans vibrant and in their communities, 
avoiding the cost of institutionalization, keeping bright the 
social connections seniors need to remain vital and truly what 
we define as community in a country too frequently measured by 
our differences these days than by our commonalities.
    Chairman Cole, Ranking Member DeLauro, and members of the 
committee, the commitment that you have previously given to our 
programs is indeed appreciated. On behalf of the thousands of 
volunteers, organizations, and agencies who rely on Senior 
Corps, we ask you to continue your support and join us in 
championing our budget request for these vital programs.
    But on a more personal note, thank you for your public 
service, and remember you do not have to be retired to be an 
RSVP volunteer. Thank you. [Laughter.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.171
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.172
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.173
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.174
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.175
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.176
    
    Mr.  Cole. Very good. I want to thank the gentlelady for 
her testimony, and I am sure most members of this committee, 
probably every member, can testify to the value of these 
programs.
    Ms.  DeLauro. Absolutely. Thank you.
    Ms.  Kopp. Next witness. Welcome. Dr. Jeffrey Shell?
    Dr.  Chell. Chell.
    Mr.  Cole. Chief executive officer of the National Marrow 
Donor Program and To Be Matched. So, welcome. It is good to 
have you here. The gentleman is recognized for 5 minutes for 
her testimony he cares to deliver to the committee.
                              ----------                              

                                          Wednesday, March 8, 2017.

               NATIONAL MARROW DONOR PROGRAM/BE THE MATCH


                                 WITNESS

JEFFREY W. CHELL, M.D., CEO, NATIONAL MARROW DONOR PROGRAM/BE THE MATCH
    Dr.  Chell. Thank you, Chairman Cole, and other 
distinguished members of the committee. My name is Jeffrey 
Chell, and I am proud to serve as the chief executive officer 
of the National Marrow Donor Program/Be The Match.
    We also proudly operate the C.W. Bill Young Cell 
Transplantation Program through three competitively bid 
contracts with the Health Resource Service Administration. 
These contracts include a single point of access and Office of 
Patient Advocacy, the Bone Marrow Coordinating Center, and the 
Cord Blood Coordinating Center. Collectively these contracts 
allow NMBP to operate the National Be The Match Registry and 
provide lifesaving, unrelated transplants using individual 
altruistic adult donors and cord blood units. We also work 
closely with the cord blood banks that receive critically 
important funding directly through the National Cord Blood 
Inventory.
    I would like to thank Chairman Cole, Ranking Member 
DeLauro, and all the members of the Committee for inviting me 
to speak. On behalf of Be The Match and our 565 network 
partners, we want to thank you for maintaining the 
congressional commitment to patients fighting blood cancers and 
other disorders, for the only possible cure is an unrelated 
transplant.
    For each $1,000,000 that Congress adds to the program, 
10,000 donors are added to the program. For each million it 
adds to the NCBI, an additional 667 cord blood units will be 
collected and stored. As you can see, these dollars go directly 
to saving lives.
    Because our funding has been flat for over a decade, for 
Fiscal Year 2018, we ask that Congress modestly increase our 
funding by $5,000,000 for the program. That allows us to 
replenish the registry as donors age off the registry, and also 
increase our efforts to add diversity to the registry as 
patients are most likely to find a donor with someone that they 
share a common ancestry.
    We also ask Congress to increase the NCBI funding by 
$5,000,000 over previous years, consistent with last year's 
numbers from this subcommittee, to fund the additional 
collection of cord blood units. These units have been 
exceedingly helpful in providing lifesaving transplants for 
patients who are difficult to match who are also members of our 
ethnic minority communities. Congress has authorized both the 
national registry and NCBI, most recently unanimously for 
another 5 years, in December of 2015.
    As I testify before you today, I am reminded of the 
foresight that this committee had in the mid-1980s that created 
the program on which Americans rely today. Through the 
leadership of late Congressman Bill Young, the Congress decided 
to establish the national registry where men, women, and 
children with leukemia and other fatal disorders could find 
that unrelated donor that could save their lives. Since 
Congress made this important decision to establish the registry 
30 years ago, Be The Match has formed a highly successful 
public/private partnership and has made tremendous progress. We 
are honored to continue to serve as the steward of this 
critical national resource.
    Today we remain the single point of access for both cord 
blood units and adult volunteer donors, and again provide the 
only hope of cure for 70 different medical conditions, 
including blood cancers and sickle cell disease. The Be The 
Match Registry has grown to nearly 16 million donors and more 
than 238,000 cord blood units, including 93,000 collected 
through the National Cord Blood Inventory. We have facilitated 
more than 80,000 transplants since our founding, and currently 
are track facilitating 60 to 100 transplants per year.
    Because we collect data on all of these transplants, we 
have been able to improve patient outcomes and reduce the 
complication rates of transplants. During the past 20 years, 
the 1-year survival rate from these transplants has gone from 
40 percent now to over 70 percent.
    But there really is so much more that we can do. The need 
for transplant is increasing, particularly for older Americans, 
and we are currently only meeting half the need in the United 
States. New indications, such as curing sickle cell disease, 
also drive the need for more volunteer donors and cord blood 
units. With the Federal dollars that you allocate to the 
program, we continue our efforts to expand the diversity of the 
registry and increase the number of minority cord blood units 
listed on the registry.
    Federal funding remains critical to continue us to provide 
access to transplant, and the funds for the program and NCBI 
continue to allow us to increase the likelihood that each and 
every American can receive that lifesaving transplant.
    We thank you for your ongoing support of the program and 
the NCBI, and while we understand the very difficult budget 
situation, we know that any additional funding for these 
programs will go directly to helping us cure more patients in 
need.
    Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.177
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.178
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.179
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.180
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.181
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.182
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.183
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.184
    
    Mr.  Cole. Thank you. I want to thank you for your very 
valuable testimony, and thank you particularly for mentioning 
our late good friend Mr. Young, who, when he left us, was the 
longest-serving Republican in Congress and, of course, on this 
committee for many years. Chaired the full committee. He is 
often known obviously for the extraordinary work he did on 
defense issues in the capacity of chairing that. But he touched 
this committee and a lot of different ways over many decades, 
and this is a worthy legacy for him. So, thank you very much 
for mentioning his name.
    Dr.  Chell. He often shared with me that one of the things 
he was most proud of in his service was helping develop this 
program and the 80,000 lives that he has helped to save.
    Mr.  Cole. He had a lot to be proud of over many decades.
    Dr.  Chell. Thank you so much.
    Mr.  Cole. Thank you. And our last witness of the morning, 
the early afternoon, but it is early afternoon. We are pretty 
much on schedule. Welcome. Good to have you here.
    Ms.  DeLauro. Good afternoon.
    Mr.  Cole. Susan Ruzenski. I hope I got that right.
    Ms.  Ruzenski. Yes.
    Mr.  Cole. Executive director of the Helen Keller National 
Center for the Deaf-Blind Youth and Adults. So, welcome to the 
committee. The gentlelady is recognized for 5 minutes for 
whatever testimony she cares to give.
                              ----------                              

                                          Wednesday, March 8, 2017.

      HELEN KELLER NATIONAL CENTER FOR DEAF-BLIND YOUTH AND ADULTS


                                 WITNESS

 SUSAN RUZENSKI, EXECUTIVE DIRECTOR, HELEN KELLER NATIONAL CENTER FOR 
    DEAF-BLIND YOUTH AND ADULTS
    Ms.  Ruzenski. Thank you, Chairman Cole, and Ranking Member 
DeLauro, and members of the Subcommittee for providing me with 
this opportunity to testify on behalf of the Helen Keller 
National Center. I am Sue Ruzenski. I have been the executive 
director since 2014, and I am proud to say I have been working 
with Helen Keller National Center for the last 38 years.
    Our mission is to enable each person who is deaf and blind 
to live, work, and thrive in their community of choice. And my 
objective this morning is to provide you with clear and 
specific justification why the Helen Keller National Center is 
requesting an increase in funding of $4,700,000 in Fiscal Year 
2018.
    And why is this funding vital for HKNC's ability to meet 
our five congressional mandates that was set forth 50 years ago 
this past October, as we were made an act of Congress. Our 
current annual appropriation is $10,300,000, and the increase 
is a request that will bring us to $15,000,000 annually in 
2018.
    The five mandates that were set forth in the HKNC Act are: 
to provide specialized and intensive services to any deaf-blind 
person in the United States; to train and support family 
members; to train professionals and equip them with the 
competencies to work effectively with individuals who are deaf-
blind; to conduct applied research and, with respect to best 
practices, disseminate those practices throughout the country; 
and maintain a national registry of individuals who are deaf-
blind.
    We strive to accomplish our mission through three avenues. 
We are the only national vocational rehabilitation program that 
is working exclusively with youth and adults who are deaf-
blind. We have 10 regional offices throughout the United 
States, and we have an information research and professional 
development department.
    Our vision is to solidify a network of qualified service 
providers nationwide who can address the training needs of 
people who are deaf-blind in their local areas throughout the 
United States. The foundation of this national infrastructure 
has already been established over the past 50 years, but now it 
is essential for us to secure adequate resource to ensure that 
the standards of practice of professionals are implemented at a 
national level, and the collaborative efforts in a coordinated 
and sustainable national service delivery.
    HKNC is ready to lead this charge given the $50,000,000 
annual appropriation. Essentially, HKNC has been level funded 
for 16 years. In 2016, we received a $1,200,000 increase, and 
for that we are very grateful. The critical need, however, 
still exists, and the level of funding to commensurate with the 
scope and the importance of this work remains.
    With level of funding spanning over that 16-year period, we 
had to really make some tough decisions. We had to eliminate 
and suspend some of our programs. The comprehensive 
rehabilitation program now serves fewer people on an annual 
basis, and we have more than a 1-year waiting list for people 
coming to the program. For a person who has an experience of a 
sudden change, a loss in vision and hearing, a 1-year waiting 
period is not acceptable.
    I can share with you a story about a gentleman named 
Carlos. He was an ex-Marine, and this happened to Carlos. He 
had tumors which caused a sudden change, total loss of vision 
and hearing. When he arrived at the program, his only way of 
communicating was the use of block letters printed on his back, 
and we would spell out the words to him.
    Through training over a 2-year period, he was able to learn 
Braille, tactile sign language, the use of adaptive equipment. 
He is now living in his own apartment in California and 
attending college on a part-time basis. The provision of those 
timely, quality services made a profound difference to Carlos' 
quality of life.
    HKNC has taken steps. Given that increase of 1,200,000 in 
2016, we conducted five statewide needs assessments in 
collaboration with Mississippi State University and the States 
of Georgia, Arizona, Missouri, Oregon, and New York. And the 
results became the basis of how we develop modules for an array 
of professionals, including VR counselors as well as mental 
health professionals.
    We address many of the training priority areas that were 
identified in adaptive technology, self-advocacy, haptics 
orientational ability, just to name a few. We also established 
a National Community of Practice. We have 38 partner agencies, 
both State and private, who are working with us who are 
interested in strengthening the vocational rehabilitation 
options for people who are deaf-blind. And together we share 
learning, conduct research, and disseminate and implement best 
practices.
    In 2011, Westat Corporation did a 2-year evaluation of 
HKNC, and that was on behalf of the Department of Education the 
Rehabilitation Services Administration. We were identified as 
the gold standard by those that are familiar with our work. And 
what this study did reveal, however, is that most States lack 
services and the resources, reconfirming HKNC's goal to build 
this national sustainable infrastructure.
    The Federal government's 50-year investment has made a 
tremendous impact. We have touched the lives in the past 10 
years of over 16,000 deaf-blind individuals. For those 
individuals with a desire to work, 51 percent are competitively 
employed.
    In summary, we have a plan. For this $4,700,000, what would 
we do? We would maximize the effectiveness of this National 
Community of Practice. We would replicate our community 
services program in four States. We deploy 20 deaf-blind 
specialists, two in each region around the country, boots on 
the ground, working with people who are deaf-blind with our 
field staff. We provide and coordinate further research to 
propel this field, and increase the capacity of our ability to 
offer comprehensive vocational and rehabilitation services to a 
greater number of individuals on an annual basis.
    Congressional leaders 50 years ago shared our commitment 
and our vision for services for people who are deaf-blind, and 
the Helen Keller National Center is at a critical moment in 
their history. The time has come for national service delivery 
to be created so that all American citizens who are deaf-blind 
have an equal opportunity to live self-actualized lives and 
contribute as members of their community.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7126P7.185
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.186
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.187
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.188
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.189
    
    [GRAPHIC] [TIFF OMITTED] T7126P7.190
    
    Mr.  Cole. I thank the gentlelady her testimony and her 
appearance here today, our last witness. And let me just say in 
conclusion before I recognize my friend from Connecticut for 
whatever remarks she cares to make, we appreciate each and 
every one of you, the witnesses in particular, that traveled a 
long way and came here to offer your valuable testimony. We 
certainly will take them under advisement.
    As my friend has pointed out, a lot of this depends on, 
frankly, what kind of allocation the subcommittee gets, and 
that has yet to be decided. We will not know that for several 
weeks yet. But anyway, this really does help us a great deal, 
and we would urge those of you that can to help us persuade our 
colleagues to get the 2017 bill done, and then obviously make 
sure that we have an adequate allocation to meet some of these 
really pressing national needs and priorities as we look 
forward to 2018.
    I recognize my friend for one little comment she cares to 
make.
    Ms.  DeLauro. Thank you very much Mr. Chairman, and thank 
you for your commitment to, you know, making sure we get out 
the 2017 bill, and that we are ready to advocate for an 
increased allocation for 2018 because as you have remarked, the 
array of witnesses this morning demonstrate again, I think, for 
the two of us the expansive role that the Federal government 
has in these various areas that help to make a difference in 
people's lives. And they are all worthy causes.
    And as an adjunct to that, to all of you who spend your 
lives and your professional careers to advocate on behalf of 
people who need the services that your organizations are 
providing to the young people who are making their way, but 
without the continued resources in some of these areas other 
youngsters will not be able to realize their own dreams and 
aspirations.
    But that is why at the outset, I said this is a bill that 
affects every single aspect of a person's life. And after 
defense today, but in the subsequent days, to make sure that we 
have the resources in our allocation to be able to meet your 
needs. We cannot meet every need. The Federal government cannot 
do everything, but its role is to be an advocate, the same way 
that you are advocates for what you do.
    Thank you for being with us today, and I know we will 
continue our contact over the next month. Many thanks. Thank 
you, Mr. Chairman.
    Mr.  Cole. I must say in closing, the dedication of our 
ranking member could not be more obvious. [Laughter.]
    The fact that she was here the entire hearing when 
obviously this was not the easiest day for her to be here. And, 
you know, I just once again want to express my admiration and 
appreciation for my friend for her tireless advocacy. She never 
misses a chance to make a point, even when it is difficult for 
her to make that point as it was today, but always does it very 
well.
    So, you know, I thank you all for attending. We are 
adjourned.
    [Applause.]
    [Statements submitted for the record follow:]
</pre></body></html>
